<html>
<title> - GREEN SCHOOLS: ENVIRONMENTAL STANDARDS FOR SCHOOLS</title>
<body><pre>[Senate Hearing 107-1010]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1010



           GREEN SCHOOLS: ENVIRONMENTAL STANDARDS FOR SCHOOLS

=======================================================================

                                HEARING

                               before the

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 1, 2002

                               __________

  Printed for the use of the Committee on Environment and Public Works


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
83-722                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION
                  JAMES M. JEFFORDS, Vermont, Chairman
MAX BAUCUS, Montana                  BOB SMITH, New Hampshire
HARRY REID, Nevada                   JOHN W. WARNER, Virginia
BOB GRAHAM, Florida                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     CHRISTOPHER S. BOND, Missouri
BARBARA BOXER, California            GEORGE V. VOINOVICH, Ohio
RON WYDEN, Oregon                    MICHAEL D. CRAPO, Idaho
THOMAS R. CARPER, Delaware           LINCOLN CHAFEE, Rhode Island
HILLARY RODHAM CLINTON, New York     ARLEN SPECTER, Pennsylvania
                                     PETE V. DOMENICI, New Mexico
                 Ken Connolly, Majority Staff Director
                 Dave Conover, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 1, 2002
                           OPENING STATEMENTS

Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................     9
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     1

                               WITNESSES

Barnett, Claire, executive director, Healthy Schools Network.....    13
    Prepared statement...........................................    34
Gibbs, Lois M., executive director, Center for Health, 
  Environment and 
  Justice........................................................    21
    Prepared statement...........................................    46
Trovato, E. Ramona, Deputy Assistant Administrator, Office of 
  Environmental Information, Environmental Protection Agency.....     3
    Prepared statement...........................................    29
Wilson, Alex, president, BuildingGreen, Inc., representing the 
  U.S. Green Buildings Council...................................    18
    Prepared statement...........................................    39

                          ADDITIONAL MATERIAL

Letters from:
    Acton, Katie, parent advocate, Ozone Park, NY................    68
    American Public Health Association; Beyond Pesticides; 
      Healthy Schools Network; Natural Resources Defense Council; 
      Physicians for Social Responsibility; Natural Association 
      of School Nurses...........................................    58
    Jackson, Richard J., director, Center for Disease Control and 
      Prevention.................................................    57
Memorandum, American Public Health Association; Beyond 
  Pesticides; Children's Environmental Health Network; Healthy 
  Schools Network; National Association of Schools Nurses; 
  Natural Resources Defense Council; Physicians for Social 
  Responsibility to Members of Congess...........................    57
Statements:
    Acton, Katie, parent advocate, Ozone Park, NY................    56
    Carella, Veronika, concerned parent and children's advocate, 
      Glenwood, MD...............................................    61
    Davis, Rochelle, Illinois Healthy Schools Campaign...........    62
    Graham, Tolle, coordinator, Massachusetts Healthy Schools 
      Network....................................................    63
    Gustafson, Christine, Trevor, WI.............................    88
    Healthy Schools Network, Inc., Sanitizers and Disinfectants 
      Guide......................................................    64
    Landrigan, Philip J., M.D., M.Sc., Ethel H. Wise professor 
      and chair, Department of Community and Preventive Medicine, 
      professor of pediatrics, director, Center for Children's 
      Health and the Environment, Mount Sinai School of Medicine, 
      New York, NY...............................................    69
    Lawson, Joellen, special education teacher, Fairfield, CT....    88
    Miller, Susanne, Vermont Public Interest Research Group......    72
    Shendell, Derek G., scientist and public health professional.    82
    Swartz, Daniel, executive director, Children's Environmental 
      Health Network.............................................    73
    Unger, Geri, The Funders' Forum on Environment and Education.    83
    Woods, James E., Ph.D., P.E., The Building Diagnostics 
      Research Institute.........................................    86

 
           GREEN SCHOOLS: ENVIRONMENTAL STANDARDS FOR SCHOOLS

                              ----------                              


                        TUESDAY, OCTOBER 1, 2002

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:13 a.m. in 
room 406, Senate Dirksen Building, Hon. James M. Jeffords 
(chairman of the committee) presiding.
    Present: Senators Jeffords, Clinton, and Carper.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Good morning, the hearing will come to 
order. I am sorry for the delay, but there is a little meeting 
over at the Pentagon that was of some interest to all of us.
    I would like to begin by thanking our witnesses both for 
being here today, and for your dedication to promoting green 
schools.
    I also understand that we have parents of school children 
in the audience who have personal interests in today's hearing. 
I appreciate, and I am sorry for the unfortunate experiences 
that bring us here today.
    The statistics are truly alarming. More than 14 million 
children attend schools with an environmental problem. More 
than $320 billion will be needed to bring these schools up to 
healthy standards nationwide.
    If the Federal Government fully funded its share of special 
education programs, the localities would have the ability to 
provide more funding for green schools. More than 1,100 public 
schools are built within a half mile of a toxic waste site.
    The statement of Lois Gibbs, who is with the Center for 
Health, Environment and Justice, will discuss in our second 
panel the undeserved struggle parents have in these 
communities.
    I am very disturbed by this information. With all the 
concerns plaguing today's parents, the health of a child's 
school should not be an issue. Parents should be assured that 
the building and location in which their child spends the 
majority of his or her time is safe and healthy.
    It is distressing that any child should be confronted with 
a possible developmental impairment as a result of the school 
he or she attends.
    I am pleased that EPA is here today with us. It seems that 
EPA is doing more than any other Federal agency in the area of 
healthy schools.
    I look forward to hearing more from EPA's initiatives, such 
as the Tools for Schools Program. I am, however, sorry that the 
Department of Education and Energy could not be here with us 
today. I hope to work with the Department of Education in the 
coming months. I also hope the Department of Energy becomes 
more engaged in green school initiatives.
    I recognize and appreciate the local nature of issues 
related to schools. In my own State of Vermont, a Healthy 
Schools Bill was signed into law in the Spring of the year 
2000. This is a positive step forward to address the indoor air 
quality in Vermont schools, and to limit exposure of Vermont's 
teachers and children to potentially harmful environments.
    However, there is much that can be done at the Federal 
level. First, we need good scientific data to better understand 
the link between outdoor and indoor environments, and the 
student health and learning.
    Second, in the context of school siting, construction and 
renovation, we need Federal guidelines that take a child's 
small size and the development needs into consideration.
    Finally, we need to invest long-overdue resources and 
coordinate Federal, State, and local efforts to improve the 
health of our schools.
    Studies indicate that the benefits of green schools are 
numerous. Green schools can save 40 percent or more on energy 
costs, as Alex Wilson discusses in his testimony. Mr. Wilson, 
from Vermont's BuildingGreen, Inc., is on our second panel, 
today.
    Students in schools that rely primarily on daylighting 
perform up to 26 percent better on standardized tests than 
their counterparts in poorly lit schools. Let me repeat that. 
Students in schools that rely primarily on daylighting perform 
up to 26 percent better on standardized test than their 
counterparts in poorly lit schools.
    Claire Barnett, with the Healthy Schools Network, will 
point out in her statement today that an estimated 17 million 
school days were lost in 1997 due to asthma. Taking steps to 
address air pollution, leading to asthma, would mean higher 
school attendance.
    These are the kind of statistics I prefer. I am hopeful 
that today's hearing sheds some light on how to achieve greener 
schools, and thus better health for our students and teachers.
    I have highlighted points that will be made by each witness 
in our second panel. A lot of thought and consideration has 
gone into these testimonies. I urge EPA, as well as the 
Department of Education and Energy, to carefully review our 
witnesses' statements.
    There is no greater investment that one can make than in 
our children and their centers of learning and socialization. I 
look forward to working with all of you to promote green 
schools.
    Our first witness is Ramona Trovato. She is the Deputy 
Assistant Administrator of the Office of Environment, at the 
Environmental Protection Agency. She is a former Director of 
the Office of Children's Health Protection at EPA. We are so 
pleased to have you with us.
    Ms. Trovato. Thank you so much. It is a pleasure to be here 
this morning.
    Senator Jeffords. Please proceed.

STATEMENT OF E. RAMONA TROVATO, DEPUTY ASSISTANT ADMINISTRATOR, 
 OFFICE OF ENVIRONMENTAL INFORMATION, ENVIRONMENTAL PROTECTION 
                             AGENCY

    Ms. Trovato. Thanks, I am really pleased to be here today 
on behalf of Administrator Whitman and EPA. We are here to 
discuss our efforts to make schools safe and healthy places for 
our children to learn, and I am particularly happy, because 
this is the beginning of Children's Health Month, and I am 
happy to be able to play a role in kicking that off.
    Protecting our children's health is a priority of this 
Administration and of EPA. Children are our most precious 
asset, and may be more vulnerable to many environmental 
exposures than adults.
    Asthma is the leading chronic illness in children, and the 
cause of 14 million missed school days every year. Allergens, 
including those from mold, cockroaches, dust mites, animal 
dander and other things commonly found in school environments 
are known to trigger asthma attacks. Outdoor air pollution is 
also a trigger for asthma attacks.
    Children in our Nation's schools may also be exposed to 
many other contaminants, including chemicals in everything from 
cleaning products and art supplies, to the materials and 
furnishings in school buildings.
    They may also be exposed to pesticides, radon, fumes from 
idling school buses, and potentially even to mishandled sources 
of mercury and asbestos.
    More than 53 million students, and about three million 
teachers and staff, almost 20 percent of the United States 
population spend much of their time in school. Unfortunately, 
in far too many cases, our schools are old, and because of 
budget shortfalls are inadequately maintained, leading to a 
host of environmental problems that can impact children, staff, 
and learning.
    If a child suffers an asthma attack in class, or is not in 
school because of asthma, if the school is closed because of an 
environmental health or safety episode, if the ventilation 
system is providing little or no fresh air, that child may not 
be up to learning to his or her potential.
    Within EPA, we have been working very hard to help schools 
address environmental issues that affect learning. For example, 
while there is no known cure for asthma, asthma attacks can be 
prevented by reducing exposures to environmental triggers, and 
by ensuring that all children receive appropriate medical care. 
EPA is a committed partner is this battle against asthma.
    EPA has been a leader in the effort to help schools address 
indoor air problems through its widely acclaimed indoor air 
quality Tools for Schools program. I brought you a kit, in case 
you would like to see it.
    We have worked with 10,000 schools who are already using 
the program. In fact, New York City schools and the L.A. 
Unified School District, two of the largest school districts in 
the country, are committed to using Tools for Schools as part 
of their health and safety programs.
    Last year, EPA released specific guidance to help schools 
identify and fix mold and moisture problems. We are very proud 
of our new little book on that. Just last week, we released a 
companion guide on preventing and cleaning up mold in homes, 
which we have here, as well.
    We are continuing to work with other Federal agencies 
though, and especially CDC, to better understand the health 
effects from mold, so we are doing more research in that area.
    Soon, EPA will release new Web-based guidance devoted to 
school design, construction, and renovation. This new guidance 
will draw from EPA's expertise, as well as excellent work done 
in the private sector in the State of California, and 
especially the California collaborative for high performance 
schools.
    EPA strongly encourages school districts to embrace the 
concept of designing and building high performance schools. 
These are schools with a whole building integrated design to 
promote health and performance, while saving energy, resources, 
and money.
    Energy efficient design can result in reduced operating 
costs and these energy savings can pay for any additional up-
front costs very quickly.
    These savings do not even include the potential benefits of 
improved health and performance of the students and the folks 
who work in schools.
    EPA is very aware of the resource constraints that schools 
face, and so our goal is to allow schools easy access to our 
environmental programs. We are doing this through better 
coordination and integration within EPA, and we are developing 
partnerships with schools, school districts, and organizations 
that represent nurses, teachers, facility planners, managers, 
school administrators, architects, engineers, and parents.
    To that end, I am pleased to report to you today that just 
a week ago, we inaugurated a new Healthy School Environments 
Web portal. This new Web site will provide one stop access to 
EPA resources for schools, as well as those from other Federal 
agencies, States, communities, and NGOs.
    Within the Federal family, the President's Task Force on 
Environmental Health Risks and Safety Risks to Children, co-
chaired by Administrator Whitman and Secretary Thompson, 
identified school environmental health as a priority, and 
established an inter-agency work group.
    This schools work group is tasked with identifying 
opportunities for collaboration and coordination of Federal 
efforts, and is co-chaired by EPA, the Department of Education, 
and the Department of Health and Human Services.
    The work group has developed an inventory of Federal 
programs, which should be available later this year, and is 
working to develop a strategy for improved Federal 
collaboration.
    In conclusion, we are committed to working within the 
Federal community, with States and tribes, local governments 
and communities, schools, and NGOs to promote children's health 
in our Nation's schools.
    I look forward to working with you and others to make our 
schools the healthiest possible environments for our kids to 
learn. I thank you for the opportunity to be here today, and I 
am happy to answer any questions.
    Senator Jeffords. Well, thank you, Ms. Trovato. Your 
testimony is alarming.
    Ms. Trovato. It is alarming, yes.
    Senator Jeffords. We appreciate your candor, and I look 
forward to working with you.
    Let me read back to you some of the statistics you provided 
the Committee in your opening testimony. Asthma is the leading 
chronic illness in children, and the cause of 14 million missed 
school days each year.
    Next, hundreds of thousand of children, living in the 
United States, still have blood lead levels high enough to 
impair their ability to think, concentrate and learn.
    You also report that children, while in our Nation's 
schools, are exposed to many chemicals, fumes, and pesticides 
that lead to dramatic impacts on their health and learning.
    You also report that frequently, schools across America are 
being evacuated or permanently closed due to environmental 
problems.
    You outline that 40 percent of our schools are in 
unsatisfactory environmental condition, most of these in urban 
environments; and most alarming, minority children that attend 
these unsafe urban schools that have poor outdoor and indoor 
air quality are four to six times more likely to die--yes, 
die--from asthma. That is alarming.
    Finally, you conclude by saying the following: 
``Nevertheless, many schools continue to provide less than 
ideal conditions to facilitate learning, and many pose 
unnecessary risks to the health of our children.''
    From what you report, every day we send our children into 
an environment that may undermine their ability to learn, harm 
their health, and increase their risk of death.
    These are our schools we are talking about. Our children 
trust us to do what is right, to protect them, and provide a 
safe environment for them to learn and thrive. Clearly, we are 
failing. We can and we must do a lot more to protect our 
children in this Nation.
    I know you outline a number of steps that EPA is taking to 
improve the environment in our children's schools, but there is 
much that we can do.
    Please tell me why our other Federal agencies, such as the 
Department of Education and Energy, are not doing more to 
support EPA's efforts. Is there any coordination there, and are 
they not aware of the problem?
    Ms. Trovato. We are very concerned about kids' health, as 
well. For the last 5\1/2\ years, I have been working on 
children's health issues.
    I was surprised when I learned the extent of the number of 
kids with asthma and the number of missed school days, and the 
number of kids with elevated blood lead levels. Even though 
getting lead out of blood has been a huge public health success 
story, there are still hundreds of thousands of kids with 
elevated levels of lead in their blood.
    So, we have been working long and hard with the other 
Federal agencies, as well as with other partners around the 
country, to try and deal with these issues.
    We have very close working relationships with the 
Department of Health and Human Services, and an inter-agency 
Federal asthma strategy to try and find ways to not only 
prevent exposures that trigger attacks, but also to make sure 
that kids are getting the medical treatment they need.
    For blood lead levels, we are working really closely with 
the Department of Health and Human Services and HUD, because 
most of the exposures to lead are in older homes, where there 
is toxic, hazardous lead paint. So we have a very strong 
relationship there.
    In terms of the schools initiative, we have an extremely 
strong relationship with the Department of Education. They are 
helping us co-chair the group on schools.
    We compliment their focus on education, because we are 
trying to help find ways to make schools better places to 
learn, so kids can focus on learning and not be worried about 
if they are safe and healthy in those schools.
    The Department of Energy is a key partner, from the point 
of view of looking at how we make schools more energy 
efficient; but at the same time, make sure the indoor air 
quality is such that we are promoting learning, as well as 
saving money.
    So we are making every effort to have a really strong 
partnership with all of the other Federal agencies in the 
Government. There is always more we can do. There are always 
more programs we are finding, where we can partner.
    The Web site, the Healthy School Environments Web portal, 
that just went up within the week, has information about what 
the other Federal agencies are doing, as well as what we are 
doing.
    So there is a strong collaboration, I think, with all of 
these Federal agencies, and we are going to continue doing 
that. As we develop the strategy and identify what each agency 
can do and how they fit in, I think it will help us to promote 
even more work and more work together, that makes it better for 
kids in schools.
    Senator Jeffords. There are many differences among the 
States in how they fund and regulate school facilities, as 
revealed by studies conducted by the Environmental Law 
Institute. How can the EPA, at the Federal and regional levels, 
ensure that the Federal agency outreach on school environmental 
programs is consistent with local and State regulations, and 
integrated with local funding budgets?
    Ms. Trovato. That is a tough one, Senator. We have the Web 
site that all schools can sign in on, or school districts or 
States, to look at what we have to offer, in terms of 
environmental programs that can help out schools.
    The other thing that is happening is, we have 10 regions 
around the country, like many other Federal agencies. Each of 
those regional offices is, in different ways, reaching out to 
the schools, where the schools want to partner with us, and 
working with them to try and give them what they need.
    In our Region I, which is our New England Region, for 
example, we have a program where we are trying to educate 
schools about how they can get rid of old chemicals that they 
do not want anymore, and how they can handle them safely and 
get rid of them safely. We have different programs in different 
regions, depending on what that State or that school wants.
    So in some cases, we are not consistent, simply because the 
issues from region to region in our country are different. So 
we are trying to focus on what those people in those regions 
want.
    We are also trying to partner with other Federal agencies 
in those regions. In the past, in Region I, again, in our New 
England Region, we have partnered on asthma, where we got 
together HUD, HHS, and EPA to look at the asthma issues there, 
to try and find ways to reduce asthma episodes in those States.
    Senator Jeffords. What role do you think EPA should play in 
the labeling of building materials and products according to 
their emissions; and how can the agency help schools identify 
safe products?
    Ms. Trovato. A lot of things are already labeled. 
Pesticides are already labeled, solvents, cleaning materials 
are already labeled. Energy star materials are already labeled.
    But one of the things we are trying to do right now, not 
exactly in the labeling mode, but at least in the education 
mode, is provide in our new Web page that will be up the end of 
this year, our design criteria for things that people should 
look at when they are trying to buy new materials in setting up 
new schools.
    We have some principles for them to look at, in terms of 
materials, using the least toxic materials; those that emit 
little or no odor. They are easy to clean. They are not 
susceptible to moisture damage, so we can avoid getting to 
molds.
    So we are giving them information about questions they 
should ask when they buy materials, and we also, for some 
things, pesticides and cleaning agents, they are already 
labeled. So we are making a step forward to helping schools 
choose more healthy materials.
    Senator Jeffords. EPA's Tools for Schools Program is a good 
step in the right direction; however, it is voluntary. What 
greater role can EPA play in implementing actual indoor air 
quality standards; and how would these standards be defined?
    Ms. Trovato. EPA has authority to do research and 
disseminate information about indoor air quality. Tools for 
Schools is one of our premier products that we offer to help.
    In terms of setting standards, there are some standards 
that are set just because of the other statutory authorities 
that we have; for example, pesticide usage inside buildings. 
There is information on that and requirements on that, and what 
pesticides you can use, and at what rates you can apply.
    We have a lot we can offer in terms of information and 
guidance, but we do not set indoor air quality standards. To a 
large extent, we do not have a lot of information about what 
materials, chemicals, are in buildings, in schools; and we do 
not have the research to know what is safe and what is not 
safe.
    Senator Jeffords. The agency has focused considerable 
attention on indoor air quality in the schools. Have you looked 
at other issues like daylighting, that might affect a student's 
health and performance?
    Ms. Trovato. Now I have personally read about daylighting 
and know that it has been associated with student performance, 
but I do not know if we have done work on that issue.
    I am told, we have not, but we work with the Department of 
Energy and others. That was Bob Axelrad from EPA, who is our 
lead schools person.
    Personally, I found daylighting to be a big help for 
myself.
    Senator Jeffords. Given the high priority need to protect 
children from toxic hazards, what Federal legislative or 
Administrative initiatives are needed to remove and dispose of 
toxic hazardous materials in their supplies at schools?
    Ms. Trovato. I think we have all the authority we need. I 
think education is what we need to offer to help schools. 
Because we do know a lot about how to handle and dispose of 
them safely.
    So as in our New England Region, where we have reached out 
to schools and offered them education about how to handle those 
materials, I think it is something we could do in more of our 
regions, and make sure that folks knew how to handle those 
materials.
    Senator Jeffords. You mentioned more research is needed. 
Can you be more specific?
    Ms. Trovato. There are many chemicals in our environment 
for which we have not done a lot of health effects research. So 
there is always more health effects research, I think, that is 
necessary.
    In the last 5 years, the agency has funded five centers to 
focus on children's health. Well, there are 12 centers; eight 
of which are going to come up for renewal very soon, and we are 
going to continue to fund them jointly with NIEHS, to help 
focus on children's health issues.
    In addition to this, we are also very interested in what 
effects exposures to urban pollutants, to pesticides, may have 
for a variety of different sub-populations of kids, such as 
kids who live in the inner city and kids who live in farming 
communities. So we are trying to learn more about how children 
are specifically affected, perhaps differently than adults, by 
doing this research.
    Senator Jeffords. What Federal and State initiatives and 
resources are needed to ensure that in 5 years, at least half 
of the schools will have disposed of old and outdated toxic 
products, and adopted pollution prevention purchasing for 
products and suppliers in common use?
    Ms. Trovato. That is a big question.
    Senator Jeffords. Yes.
    Ms. Trovato. I probably need to get back to you on that 
one, because that is such a big question.
    We can do more education and outreach from each of our 
regions to let the schools know, or the school districts know, 
how they can handle those materials. But the rest of that, that 
is a bigger question, and I really need to get back to you on 
that.
    Senator Jeffords. We would appreciate it if you spend some 
time on it, after we finish our discussion.
    Ms. Trovato. OK.
    Senator Jeffords. Why is the EPA deliberating cutting 
funding for these important centers, especially when the number 
of children who suffer from asthma and other illnesses from 
potential environmental causes are on the rise?
    Ms. Trovato. We just have not decided at what level we are 
going to fund the centers. We think the centers are really 
important, and we are committed to children's health research. 
I cannot tell you when we are going to decide how much funding 
we are going to contribute with NIEHS and HHS to that.
    We do want to also focus, I should say, on older Americans, 
as well as on children, because we know that many of the things 
that affect kids also affect older Americans. But then there 
are different things that also affect older Americans.
    Asthma is an even worse problem for older folks than it is 
for children, in terms of how well they survive asthma attacks. 
So we also want to spread our limited money to look at 
populations such as older Americans, as well as children.
    We certainly do not want to short-change kids. They have 
got a long, long life, and we want to make sure it is as high a 
quality as possible. But we also want to make sure the quality 
of all the lives of the citizens are well protected and we 
promote their health.
    Senator Jeffords. In December of 2000, Congress 
appropriated $1.2 billion for school renovation grants to 
address health and safety issues.
    The funds are now in use in the States. Congress has also 
established a continuing qualified zone Academy Bonds Program, 
that can be used to help schools with renovations and 
construction.
    What legislation or Administrative initiatives are needed 
to integrate EPA's environmental expertise with the Department 
of Education's available funding?
    Ms. Trovato. So far, we are working really well with the 
Department of Education. I do not think we need any additional 
authorities or direction.
    The Department of Education has recognized that we have a 
great deal of expertise in this area, especially in our Indoor 
Environments Program. So they are reaching out to us as much as 
we are reaching out to them. I think we are doing pretty well 
with the Department of Education, in terms of sharing knowledge 
and expertise.
    I think that we have a good partnership, and that as we 
continue to move forward and work together, that the 
understanding of how these issues affect how kids learn will 
become more readily apparent to more folks, and that 
partnership will grow.
    Senator Jeffords. Well, I hope so.
    Ms. Trovato. Yes.
    Senator Jeffords. I want to keep in touch with you on these 
things. I am going to be looking to try and see what the 
funding situations are, to see what we, at the Senate level 
should be doing to make sure the resources are available and 
necessary.
    Ms. Trovato. Thank you so much. It is always important to 
shine light on these issues and keep the focus where it 
belongs. The kids are our future, so we appreciate that; thanks 
so much.
    Senator Jeffords. Thank you.
    Senator Clinton.

OPENING STATEMENT OF HON. HILLARY RODHAM CLINTON, U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Clinton. Thank you, Mr. Chairman.
    Thank you so much for holding this very important hearing. 
I know that our witness is from the Environmental Protection 
Agency and not the Education Department.
    But I am going to take this opportunity, since I assume you 
do represent the Administration, to some extent, to continue my 
efforts to get a response from the Administration, and most 
particularly, the Department of Education.
    I incorporated an amendment in the No Child Left Behind Act 
that was aimed at providing resources and technical assistance 
to help schools get rid of environmental health pollutants, 
such as mold, lead, asbestos, and many other problems that had 
been brought to my attention by the good work of some of the 
people we are going to hear on the next panel.
    In spite of numerous requests that I have made about this 
program, the Administration zeroed out funding for it this year 
and in next year's budget.
    I am very concerned, because I think the Healthy and High 
Performance Schools Program was a recognition by the Congress, 
in passing that landmark education, that the health of our 
schools had an impact on the health of our children.
    So, I would appreciate it if the Environmental Protection 
Agency would talk to the Department of Education, and perhaps 
report to this Committee as to what the steps are going to be 
to try to implement legislation that was adopted. I am very 
appreciative of any help you can give me.
    Now more closely related to the EPA is, earlier this year, 
I asked Administrator Whitman to establish environmental 
guidelines for the siting of schools. I expressed an interest 
in having this become a priority of the President's Task Force 
on Environmental Health Risks and Safety Risks to Children.
    Again, I would like an update on both the establishment of 
the guidelines and on the Task Force, in general. I think it is 
imperative that the Task Force continue operating.
    I would like to know if President Bush intends to allow the 
Task Force to continue operating beyond its current expiration 
date of April, 2003. Finally, does the EPA, in your opinion, 
currently have the authority to set standards for the indoor 
school environment or, for that matter, any indoor 
environmental standards, and to conduct indoor monitoring in 
schools?
    Ms. Trovato. That is a lot.
    Senator Clinton. Well, we have been working on this for 
quite awhile.
    Ms. Trovato. Let me start at the top, which is the 
requirement on high performance schools and the work of the 
Department of Education.
    Despite the fact that I am with the Federal Government, I 
really cannot answer for the Department of Education. So I 
would love it if you would allow me to get back to you on that 
piece.
    Senator Clinton. Thank you very much.
    Ms. Trovato. We are working closely with the Department of 
Education to offer our expertise on environmental issues in and 
around schools, whenever we can.
    So we think that that is a growing and good relationship 
that we have with them. We think that because of the new law 
and your efforts, the Department of Education has begun to 
recognize that the school environment, itself, can affect how 
well you learn.
    I think that is a new recognition. I am not sure people, or 
at least not a lot of people, were aware of that for a long 
time. So that is a good thing.
    In terms of environmental guidelines for siting schools, it 
is a local issue. However, we are providing, in one of our Web 
sites, on the design Tools for Schools site, which should be 
final the end of this year, guidelines for siting schools.
    We also have, on EPA's Web site, a tool called Enviro-
facts. You can log in there, put in your zip code, and you can 
find out what sites are regulated by EPA or the State in that 
area. So that will help a lot to identify what is there or what 
has been there, and help schools and school districts make good 
decisions.
    In terms of the Task Force on Children's Environmental 
Health and Safety Risks, it is continuing to operate. The 
schools work group was formed at the last meeting.
    That has been working long and hard. That will have its 
product, an inventory of the Federal activities on schools, up 
by the end of the year on our Web site, as well as develop a 
strategy on how we are going to collaborate to better help 
schools.
    The asthma work group continues to function, both HHS and 
EPA, trying to identify better ways to reduce asthma. In fact, 
we have a very strong relationship with the States, through the 
Environmental Council of the States and the Association of 
State and Territorial Health Officials, to look at ways to 
reduce asthma attacks.
    Also, the Lead Task Force continues to work, with HUD in 
the lead. Congress increased the grant funding to HUD, and it 
is focused on the HUD housing, to reduce the lead hazards in 
those houses.
    We are also partnering with HHS and CDC to better 
understand the links between environment and health by 
establishing a health tracking system.
    Their grants should be announced very shortly for 
environment and health tracking. We are already working closely 
with them, to make sure that the data standards that they come 
up with, and the data standards that we already have in our 
environmental network, are compatible so we can exchange and 
share information.
    Because one of the things that we and they are very 
interested in, from a public health perspective, is where are 
the chronic diseases that people are suffering; what are the 
environmental conditions in those places; and is there a link 
between the two, that we could understand better and, 
therefore, promote health better through environmental action.
    We are really excited about this one, and I know CDC is, as 
well. So we are looking forward to them getting their site up 
and running, and joining it through the network with out site, 
so that we can have more information on that.
    EPA does not have authority to set standards for indoor 
environments. We have authority to do research and disseminate 
information, and our Tools for Schools is one of our packages 
that we have disseminated.
    We can conduct monitoring activities in schools, and we 
have in some specific instances. We do not have a generic 
program of understanding, through monitoring, of what is 
happening in our schools.
    We have done a study of 100 large office buildings 
throughout the country, in different climatic regions, to 
understand what is happening in those buildings. We are 
continuing the analysis of that information, so that we can see 
if there are any conclusions we can draw from that study. We 
have not done a similar study in schools.
    Senator Clinton. Well, I want to thank Ms. Trovato for her 
testimony, Mr. Chairman. I know that the health tracking issue 
is one that you have worked on with me, and Senator Reid and 
others. I think it is the next frontier, in terms of 
environmental work.
    We have a piece of legislation that we would love to work 
with the Administration on getting in place. Because I could 
not agree with you more, that we have done a good job tracking 
infectious disease. We have not done a good job tracking 
chronic disease.
    I think you were at the Fallon, Nevada hearing, where you 
testified.
    Ms. Trovato. Yes.
    Senator Clinton. We were looking for the linkage with the 
cancer cluster that has been so difficult to understand, that 
has claimed lives and has just been devastating to about a 
dozen families in that very small farming town.
    So I hope that we can really make an issue of health 
tracking. Similarly, I think it is also now apparent that we 
need standards on indoor air, and we need responsibility, 
clearly defined, as to who is responsible, in the event of man-
made or natural disasters that create challenges to indoor air, 
and to do some monitoring in just ordinary circumstances.
    Clearly, this has been a huge issue for us in New York, in 
Lower Manhattan. It was one of those problems that fell between 
the cracks, you know, where the city was asked to take 
responsibility. They clearly did not have the expertise or the 
ability to do it. They turned to EPA.
    We finally now have indoor air monitoring occurring in 
residences, but this needs to be fixed for the future. This is 
a significant issue.
    Clearly, too, I think we need standards to that we can be 
conducting more regular monitoring, and not wait for a 
disaster; for parents to know that the indoor air in their 
homes, in their apartment buildings, in their schools is safe.
    Because I think we are all learning that we have put so 
much stuff into our environment, thousands and thousands of 
chemicals, since World War II, that have never been tested, and 
their interactions with each other are totally unknown.
    I mean, for heaven's sake, we pick up the paper now and 
read that, you know, we are now testing for the safety of 
french fries and potato chips, because of chemical reactions 
with starch and glucose, at high temperatures, that can create 
a cancer-causing element that does cause cancer in animals. I 
mean, those are things we did not know.
    Now that we have more notice, we have to do more work. So I 
thank you for your commitment. You have been very, very 
helpful, and I look forward to working with you, to try to 
answer some of these questions, set the standards we need, and 
then provide the resources to monitor and implement what we 
know is best for our children in the future.
    Ms. Trovato. Thank you so much.
    Senator Jeffords. Well, thank you, and thank you, Senator, 
for an excellent dissertation here. I look forward to working 
with you. That is the final question we have for you at this 
time.
    Ms. Trovato. Thank you, Mr. Chairman; thank you, Senator.
    Senator Jeffords. But we reserve the right to bludgeon you 
through the mail.
    [Laughter.]
    Senator Jeffords. Our next panel is Ms. Claire Barnett. She 
is the executive director of the Healthy Schools Network, based 
in Albany, NY.
    Mr. Alex Wilson is president of BuildingGreen, Inc., based 
in Brattleboro, VT. Mr. Wilson is here representing the U.S. 
Green Buildings Council.
     Ms. Lois Gibbs is the executive director of the Center for 
Health, Environment, and Justice, based in Falls Church, 
Virginia.
    Senator Clinton. Mr. Chairman, if I could just say a word 
of introduction, Claire Barnett from the Healthy Schools 
Network in Albany has been instrumental in illuminating the 
problems that schools face, not just in New York, but around 
the country.
    The network which she directs provides technical assistance 
to parents, teachers, school administrators and others, who are 
interested in the health of our schools.
    Of course, Lois Gibbs is an environmental heroine who, 
while raising her family in Love Canal near Niagara Falls in 
Upstate New York, discovered that her home and those of her 
neighbors were sitting next to thousands of tons of toxic 
chemicals.
    This was in 1978, and I think it is fair to say that the 
modern environmental concern about toxic chemicals, about what 
needs to be done, about who bears responsibility really can be 
dated to what Lois did, after she galvanized her neighbors, and 
led to tremendous response throughout our country, and the 
relocation of 800 Love Canal households.
    Today, she is still fighting the good fight, as executive 
director of the Center for Health, Environment, and Justice. I 
am delighted that both Ms. Barnett and Ms. Gibbs could be here 
today.
    Senator Jeffords. Well, thank you, Senator.
    My first question is for Claire Barnett.
    Oh, you all have statements you would like to give; yes, 
right.
    [Laughter.]
    Senator Clinton. He wants to get right to it. He is 
chomping at the bit here.
    [Laughter.]
    Senator Jeffords. Claire, please proceed.

   STATEMENT OF CLAIRE BARNETT, EXECUTIVE DIRECTOR, HEALTHY 
                        SCHOOLS NETWORK

    Ms. Barnett. Thank you very much.
    Thank you, Senator Jeffords and Senator Clinton, those were 
lovely introductions, and we are very, very grateful to this 
Committee for holding this hearing. We consider it very 
significant.
    My name is Claire Barnett. I am executive director of the 
Healthy Schools Network. We do environmental health research 
information and advocacy.
    Today, on October 1st, which is the first day of Child 
Health Month, we are here representing the 55 million students 
and school personnel, about 20 percent of the Nation's 
population, who are in school today.
    Unlike this room, their buildings are much more like what 
we see on the posters over here: dilapidated rooms, moldy 
ceilings, falling apart buildings, children are all but wearing 
gas masks in their schools.
    I am also here with some parents that I want to point out, 
who have traveled a bit to help tell the story: Joellen Lawson, 
a teacher from Connecticut; Jenna Orkin, from the schools of 
Ground Zero in New York City; Veronica Carella from Maryland; 
Grayling White from Tennessee; Bill and Judy Sazonski and their 
son, Will, are here; Robin Starinieri from Virginia. I think 
she will shortly arrive.
    All of their lives, like the lives of many other people, 
have been adversely impacted by the conditions of schools. It 
is something that we need to change, and change as quickly as 
possible.
    Americans spend 85 to 90 percent of their time indoors. The 
General Accounting Office reported in 1995 that over 14 million 
children were in schools that threaten their health. This 
includes indoor air pollution; lighting and plumbing 
deficiencies, and that means, the toilets do not work; 
ventilation problems; problems that do not go away on their 
own.
    In fact, EPA has stated that indoor air pollution is one of 
the top five hazards to human health. The American Society of 
Civil Engineers has reported that our schools are in worse 
condition than any other infrastructure, including prisons.
    At the same time, schools everywhere are enrolling more and 
more children with special needs: asthma, attention deficit, 
autism, severe allergies, learning disabilities. Seventeen 
percent of children under the age of 18 have been diagnosed 
with one or more developmental disabilities. These children may 
be especially susceptible to environmental problems in their 
buildings.
    A Federal Executive Order on child environmental health 
that was reauthorized by President Bush, reaffirms that 
children are more vulnerable to environmental hazards than are 
adults. So our challenge is, how do we create healthier, 
greener workplaces for our children?
    We have identified a number of different problems that we 
want to point out. I do not want to reiterate EPA's fine 
testimony on some of these points. But major indoor triggers of 
asthma can include irritants such as paints, cleaning agents, 
pesticides, perfumes, sealants, plastics, adhesives, insulation 
materials, animal and insect allergens, and environmental 
tobacco smoke. All of these are found in schools, including 
products which anti-drug abuse advocacy organizations classify 
as ``huffable'' products: spray paints, markers, and fixatives.
    Any building which is in bad repair, like the one over on 
my right, is going to be subject to pest infestations. 
Basically, pests like what we like. They like a little food, a 
little water, and a nice place to sleep.
    But for buildings that are falling apart, we give pests too 
many opportunities to settle in. The result of that has been 
the constant application and routine application of highly 
toxic pesticide sprays, which cause their own problems with 
children.
    What we do know from another GAO study that looked at 
poison control reports between 1993 and 1996, there were 
approximately 2,300 pesticide-related exposures involving 
individuals at schools.
    Molds are also everywhere, and moldy ceiling tiles are a 
great example. They are completely preventable, but they are 
everywhere, indoors and out. There is no such thing as a mold-
free environment.
    Testing for molds is unreliable. It is unclear what EPA's 
authority is to deal with molds in indoor environments.
    It is our belief that testing is more beneficial to vendors 
than it is to schools. The message from EPA and other public 
agencies that have looked at molds is that prevention is the 
best way out; it is cheaper than remediation: reducing 
humidity, stopping leaks, responding promptly to spills, and 
always taking public health complaints seriously the first 
time.
    Chemical toxicants and biological agents in the classrooms 
are everywhere. One of the things we ask is, why we cannot have 
environmentally preferable purchasing practices taking place in 
schools; why schools cannot eliminate the hazardous and toxic 
products that are too often left behind in the storage room, 
after the chemistry teacher has retired, or after the biology 
teacher has retired? There is something left back in that 
closet that the next person in the door does not want to touch.
    The presence of hazardous and highly toxic products in 
schools is a major, major issue. It needs to be addressed. 
Mercury is just one example. Other sources beyond the chemical 
labs also include art labs, vocational technology shops and so 
forth.
    What was interesting is the Agency for Toxic Substances and 
Disease Registry has actually put out a study on evacuations 
from educational facilities. They found they are often caused 
by chemical spills or releases.
    They also found, and when you stop to think about it, it is 
not too surprising, that when you evacuate an educational 
facility, the evacuees and the victims are younger and more 
numerous than those from any other institution.
    The most common substances in these evacuations were 
mercury and tearing agents, and that actually means mace and 
pepper spray; hydrochloric acid; chlorine; ethylene glycol, and 
formaldehyde. There was absolutely no estimate of the cost to 
health, the cost to learning, or the cost of just school 
administration, or missed time. It is an extraordinary 
consumption of resources.
    We all know that lead comes with old infrastructure and 
will always be found in paint dust and chips. Lead is 
associated with many, many different difficulties, including 
intellectual deficits. It has also been linked to problems with 
impulsivity and aggression.
    Again, according to the General Accounting Office in 1995, 
schools built before 1980 were painted with lead paint. This 
means that most of the stock of America's schools does have 
lead paint.
    There is an interesting lead issue, and a small story that 
goes with that, which is a new source that not many people 
understand. Many schools, years ago, had rifle teams, or 
shooting ranges. Some schools actually had shooting ranges 
indoors.
    One of the things we have discovered about shooting ranges 
indoors is that they use lead in the ammunition, which means 
that building can be lead-contaminated.
    We have asked the New York State Department of Health to 
release a study that it conducted 2 years ago, and we would 
like some help getting that study out. The study has been 
completed, but it has not been released.
    They did do blood lead level testing on all the rifle team 
members, and discovered they all had elevated blood lead 
levels. If that, in fact, stands up to scrutiny, it is a major 
lesson for schools everywhere in the country, not just in the 
few places in New York where the investigations were done.
    Basically, there is no system to protect children. Not one 
of the workplace standards that have been set to protect adults 
can be used to protect children, who are compelled to be in 
school, and none can be invoked by children or parents, as the 
parents with us here today can tell you.
    Parents cannot take their children to an occupational 
health clinic. They have no bargaining rights. Parents are not 
in school every day. Schools may not reveal hazards, and there 
is no system that provides a right to know safeguard.
    Certainly, parent/teacher associations and organizations, 
parent associations, as there are in New York City, are 
voluntary groups. They simply do not have an institutional 
history or capacity to deal with extended onsite environmental 
investigations. It is not a system to protect children.
    So we think that fresh air and sunshine are a great idea, 
and we think that fresh air and sunshine ought to be in 
schools. It is a back to basics movement to have healthy and 
high performance schools for our children.
    We know that fresh air and good indoor air quality are 
associated with better productivity for adults. They ought to 
be associated with better productivity for children. We know 
that daylighting is, as well.
    One of the things I want to talk about very briefly is the 
terrific kit from EPA, the ``Indoor Air Quality Tools for 
Schools'' kit. EPA really is to be commended for getting this 
out the door and pushing as hard as they have. It came out 
approximately the same time as the General Accounting Office 
reports in 1995.
    Since that time, while we all know that 14 million children 
are compelled to be in decaying and polluted schools, the kit, 
unfortunately, has only reached approximately 1 percent of all 
schools nationally. This, again, is not a system that protects 
children. Implementation is elusive.
    One of the results of this is that there are more and more 
children on medications than there ever were before. Asthma 
medications, as you know, may have side effects, such as 
tremors, nausea, headache, and anxiety.
    On physician orders, some parents have kept their children 
home, or they have withdrawn them and are voluntarily home 
schooling them.
    We have also had calls, I regret to tell you, from parents 
who tell us they have seriously ill children, have schools that 
have ignored physician letters, and also report their schools 
have threatened to report them for child neglect, based on the 
children's long absences from schools.
    This is a serious issue with respect to having free 
appropriate publication education, and an accessible facility, 
and an accessible educational program.
    One of the things I want to mention is the outbreak of 
school rashes that further illustrates the problem of trying to 
keep track of both environment and of children.
    Because of our clearinghouse, and because of our national 
network of participating organizations, very early on, we were 
alerted and had a number of incoming calls about strange rashes 
breaking out on children.
    Included as an attachment to our testimony here is some 
correspondence that we developed as a national coalition to the 
Centers for Disease Control. I think our letter arrived at CDC 
about the same time it decided to conduct an investigation.
    But the result was that CDC did, in fact, conduct an 
investigation, and determined that there were well over 1,000 
students in 27 different States, who were affected by this rash 
outbreak. It, in fact, in our records, started well before 
September 11th.
    CDC issued a preliminary report on the rash outbreak. Part 
were attributed to unknown causes; to ordinary childhood 
diseases; and part, to applied chemicals and renovation dust.
    So it is hard to tell what is taking up all that time. We 
have no system to monitor child health. There is no State that 
tracks or records student illness or injury. It does not exist.
    So in times of questions with domestic security, and in 
times when we do not know what is going on with children, we 
have no baseline. We do not know what is happening to them in 
their workplaces.
    We also know, through the rash investigation, that there 
were schools that refused to have an onsite environmental 
investigation. I think that is a real challenge, both for this 
Committee and for other committees concerned about the 
interaction of environment and health, on how to deal with and 
how to develop some sort of realistic and effective tracking 
system.
    We would like very much to continue the discussion with the 
Senate, through this Committee and with other committees, 
because the problems are not simple.
     They are cross-jurisdictional issues here, as was raised 
on the earlier panel. Education needs to be involved very 
clearly. Environment needs to be involved, very, very clearly, 
and Health needs to be involved, very clearly.
    We would like to see ``Healthy and High-Performance 
Schools'' funded. It needs to be funded. It needs to be 
implemented. It needs to be moved forward.
    We would like to see the EPA's schools program established 
as a clear agency priority. It needs to do more research on 
indoor air in schools. It needs a good evaluation of ``Indoor 
Air Quality Tools for Schools,'' to look at toxic exposures and 
reducing absenteeism. Strengthening EPA's regional office work 
with State agencies will also be helpful.
    We also call your attention, not just to the children's 
centers for research, but also to the Pediatric Environmental 
Health Specialty Units, the PEHSUs, that are in existence. 
These are clinical centers that will advise other physicians or 
actually see children, partially funded by EPA.
    As I mentioned a little bit earlier, if you are a parent of 
an affected child, you actually cannot take your child to an 
occupational health clinic.
    But we have found that we have had a good referral 
relationship with a number of the Pediatric Environmental 
Health Specialty Units that can, in fact, see children and 
determine whether or not what they are looking at is a 
building-related illness. So we would like to see an expansion 
of that.
    We would also like to see EPA develop best practices for 
schools, not just at a building level, which is where ``Tools 
for Schools'' works, at an individual building level, but at a 
district level, for implementation of policies.
    Clearly, the School Environmental Protection Act needs to 
be passed. We strongly support that as a national coalition. It 
will put in place pest-proofing of buildings, that will 
eliminate the need for toxic chemicals, and we sincerely hope 
that school repairs and construction will be funded. Thank you.
    Senator Jeffords. Well, thank you.
    Now I introduce Mr. Alex Wilson, who is the president of 
BuildingGreen, Inc., of Brattleboro, VT. Mr. Wilson is here 
representing the U.S. Green Buildings Council. Please proceed.

   STATEMENT OF ALEX WILSON, PRESIDENT, BUILDINGGREEN, INC., 
         REPRESENTING THE U.S. GREEN BUILDINGS COUNCIL

    Mr. Wilson. Thank you very much, Senator Jeffords.
    I am sure, as you can sympathize, it is hard to leave 
Vermont this time of year, with the foliage getting started.
    Senator Jeffords. You deserve a medal, I assure you.
    [Laughter.]
    Mr. Wilson. It is great to be here, and I thank you for 
this opportunity to address the Committee, and Senator Clinton.
    My name is Alex Wilson. I am president of BuildingGreen, 
Inc., a small company in Brattleboro, VT, which publishes 
Environmental News, which is a leading national publication on 
green building issues.
    I also serve on the Boards of the U.S. Green Building 
Council and the Sustainable Buildings Industry Council, both 
here in Washington, and both are very much involved with 
efforts to advance the implementation of energy-efficient, 
environmentally responsible buildings, including schools.
    My hope here is to provide a quick overview of high 
performance schools and their benefits, and then touch on some 
recommendations as to where the Federal Government could 
effectively play a role. Greater detail is provided in the 
written testimony which I am submitting.
    So in a sense, I am going to be addressing the good side of 
the issue; what we can do about the problems that Ms. Barnett 
and others have raised.
    What is a high performance school? Very simply, a high 
performance school is one that improves the learning 
environment, while minimizing environmental impacts, saving 
energy, and reducing operating costs.
    High performance schools rely on an integrated whole 
buildings approach to design. This is a process in which 
different members of a design team work together recognizing, 
for example, that better glazings and energy efficient lighting 
systems allow us to downsize the air conditioning systems; so 
spending money more on one place to save money in another.
    What are the benefits of high performance schools? The 
benefits of high performance schools accrue to students, 
teachers, taxpayers, and the environment. I have outlined eight 
benefits below.
    First would be improved student performance. As Senator 
Jeffords alluded to earlier, there is growing evidence that a 
school's physical condition, including its lighting and indoor 
air quality, have a direct impact on student performance.
    In the California study that Senator Jeffords referred to, 
students in classrooms with the most daylighting progressed 
more than 20 percent faster on math and verbal tests than 
students in classrooms with the least daylighting.
    Studies like this confirm what teachers, students, parents, 
and others have known anecdotally for years; that a better 
facility, one with good acoustics, lighting, and air quality, 
will enhance learning.
    The second benefit would be increased attendance. A high 
performance school will keep students and teachers healthier, 
reducing absenteeism. I will not go into further detail on 
that, given Ms. Barnett's excellent testimony.
    A third benefit is increased staff satisfaction. High 
performance schools are comfortable and healthy places to work. 
That helps attract and retain quality teachers.
    The fourth benefit is reduced operating costs. Schools in 
the United States spend approximately $6 billion per year on 
energy. That is more than they spend on computers and 
textbooks, combined. High performance schools can save 40 
percent, and sometimes we are seeing even 50 percent, on these 
energy costs.
    The fifth benefit is reduced liability exposure. Because 
high performance schools are healthier, they reduce a school 
district's risk of lawsuits. Unfortunately, in our society, 
that is a very significant issue at the local level.
    The sixth benefit is reduced environmental impacts. High 
performance schools use energy and water efficiently. They use 
durable, non-toxic materials that are high in recycled content. 
They provide for stormwater infiltration, replenishing 
groundwater. They minimize waste generation. Many of these 
schools include renewable energy systems.
    The seventh benefit is using the school as a teaching tool. 
Schools are places of learning, and many of the technologies 
and techniques used to create high performance schools can also 
be used as teaching tools.
    The Alliance to Save Energy, which Senator Jeffords is Vice 
Chair of, has played a leading role in this effort, through 
their Green Schools Program, I think, since 1996.
    Finally, the eighth benefit is schools as disaster 
shelters. Schools often play a role in a community's disaster 
planning, and high performance schools that incorporate natural 
daylighting, highly energy efficient envelope systems, and 
renewable power generation will perform far better during power 
outages than conventional buildings.
    All right, well, what about examples of high performance 
schools? Are there examples? Yes, more and more high 
performance schools are being built throughout the country. 
Thirty-two schools are currently registered with the U.S. Green 
Building Council's LEED rating program, which is a program 
recognizing green features in non-residential buildings. But 
among the thousands of new schools planned over the next few 
years, only a small percentage are likely to be what we would 
call high performance.
    So this brings me to my recommendations. What can the 
Federal Government do to turn this around? I have divided this 
into a number of areas. First would be research needs.
    There are a number of research areas that could 
significantly benefit school design. First of all, we need more 
studies to help us understand just what the connection is 
between academic performance and factors like daylighting and 
indoor air quality.
    We need to learn more about basic building science issues; 
like how to create buildings that are going to avoid mold 
problems.
    We need to develop better HVAC and lighting packages for 
schools, to minimize the need for expensive customized 
engineering which, today, with high performance schools, has to 
happen basically in every classroom of every one of these high 
performance schools.
    We need better daylighting design tools. We need national 
protocols for quantifying hazardous emissions from building 
materials.
    Next would be education and technology transfer needs. 
Superb resources on high performance schools have been 
developed by such groups as EPA, DOE, the Sustainable Buildings 
Industry Council, and the Collaborative for High Performance 
Schools in California.
    But particularly in smaller States, Federal support is 
needed to get these resources into the hands of those who need 
them. That is a key role that the Federal Government could 
play.
    Next would be flow-through support to schools relating to 
design and construction. Especially in smaller States, schools 
need funding to pay for key aspects of design and construction. 
Two priorities are computer energy modeling and commissioning. 
Commissioning is a process to ensure that a school is actually 
built and operates as it was intended.
    Very often, we are finding a school is completed, and 
systems do not work as they were designed. It needs tweaking. 
It needs fine tuning after completion.
    A special fund, distributed through State education 
departments, to support such efforts would be extremely 
beneficial. I believe that the healthy and high performance 
schools initiative, the component of the 2001 Education Bill, 
provides a mechanism for this, and it would be wonderful to see 
that fully funded.
    Next and finally, it would be wonderful to see the Federal 
Government support a LEED Application Manual for schools. I 
mentioned the LEED Building Rating Program earlier. This is a 
program designed for commercial buildings.
    The U.S. Green Building Council has been developing 
specific application manuals to serve specific markets, and 
schools is one of those that has been identified.
    So in summary, schools are an investment in our country's 
future. High performance schools can better serve our 
children's academic potential, even while reducing taxpayer 
costs.
    To achieve greater penetration of high performance schools, 
we need to provide support at key leverage points. Integrated, 
whole-systems design is the mechanism to do that, and the 
Federal Government can play an important role.
    Thank you, Senator Jeffords and Senator Clinton, for this 
opportunity to speak to you this morning. I would be very glad 
to follow up with any of these ideas with Committee staff, as 
would the U.S. Green Building Council and the Sustainable 
Buildings Industry Council.
    Senator Jeffords. Thank you, and thank you for that offer.
    Our final witness is Lois Gibbs, who is executive director 
of the Center for Health, Environment and Justice, based in 
Falls Church, VA. Please proceed.

  STATEMENT OF LOIS M. GIBBS, EXECUTIVE DIRECTOR, CENTER FOR 
                HEALTH, ENVIRONMENT AND JUSTICE

    Ms. Gibbs. It is getting pretty there, too.
    Thank you for this opportunity to speak with you. The 
Center for Health, Environment and Justice also coordinates the 
Child-proofing Our Communities Campaign, which is much of the 
work in front of you that I am going to testify to, which 
actually came from members of that campaign.
    This is an issue that has concerned me for over 20 years. 
You are obviously familiar with my involvement at Love Canal, 
which lead me to be termed, the ``Mother of Superfund.'' But 
what most people do not know is that my concern at Love Canal 
began with the 99th Street School, a school that my child was 
attending on the perimeter of Love Canal, back in 1978.
    Children are powerless against many dangers, and they look 
to adults for this protection. However, decisions that adults 
are making frequently endanger our Nation's children.
    Today, new schools are being built on or near chemically 
contaminated land, or near industrial facilities with toxic 
emissions, and there is growing evidence that these chemical 
exposures diminish our children's health and intellectual 
abilities.
    While laws compel children to attend school, there are 
astoundingly no guidance or laws in place that compel school 
districts to locate school buildings on property that will 
adequately protect the school population from environmental 
health and safety risks.
    California is the only State that has some regulations and 
an assessment process for building new schools. Consequently, 
some parents are forced by law to send their children to 
schools that pose threats to their children's health and their 
children's ability to learn.
    CHEJ, over the past 2 years, has received a number of 
inquiries from parents who were concerned about an existing 
school, where there was a high rate of cancer or other 
diseases; or where they found chemicals in the soil around the 
campus; or they were concerned about the construction of a new 
school on top of contaminated sites.
    For example, parents in Elmira, NY, told us about their 24 
teenage boys who suffer from testicular cancer. They all attend 
the same school on a piece of contaminated land.
    Parents in Tucson, AZ, report that their teenagers, again, 
attending the same school, were also found to have a high rate 
of testicular cancer. I mean, think about that. We are talking 
young boys.
    In Marion, OH, high school students there have a high rate 
of a rare type of leukemia. In Houston, TX, parents were 
concerned about a new school, serving a largely Latino 
population, where the property line of the school is less than 
1,000 feet from two large chemical plants: Mobil Chemical and 
Texas Petrochemical.
    In Providence, RI, parents have called us, concerned about 
their new elementary and middle school, which is built on land 
that was used for illegal dumping, and was used as the city 
garbage dump for at least 25 years.
    Finally, in New Orleans, parents called us, concerned about 
the safety of their elementary school children, where the 
school is located on top of a Superfund site. It was designated 
Superfund after the school had been operating for 3 years.
    We began to ask ourselves, how widespread are these 
situations? To answer that, we looked at the location of public 
schools in five States, and we overlayed those locations with 
known State and Federal identified contaminated sites.
    This research revealed that 1,196 schools are within a half 
mile of known toxic waste site, with an estimated population of 
620,000 students. Those are reflected in some of those maps 
that I have brought around here.
    Most children walk to school within one mile of the school. 
So these are sites only within half a mile of their public 
school.
    Based on these findings, we believe that there is a 
critical need for national laws ensuring that the locations for 
new schools are safe, and that contaminated property is 
properly cleaned up.
    The Child-proofing Campaign has developed model school 
siting legislation to promote laws and policies that protect 
children's health.
    This model includes the establishment of a school siting 
committee; a categorical exclusions for school sites, meaning 
under no circumstances should a school be built on top of, or 
within 1,000 feet of a hazardous waste disposal site, a garbage 
dump, or a site where construction and demolition materials 
have been disposed of; and a detailed process for evaluating 
the site, which would include a three tier assessment and 
remedial approach, which we derived from the California 
guidance regulations; and finally, screen tools.
    We are suggesting as an interim screening tool, the New 
York State recommended soil clean-up objectives; because they 
are the most conservative numbers that we have been able to 
find.
    However, guidelines appropriate to children's health are 
desperately needed for both screening the site and for cleaning 
up. At this time, the primarily non-technically trained school 
board and decisionmakers are forced with two very challenging 
questions. What level of chemicals are protective for young 
children, school-age children; and how does the school board 
pay to clean up historical contamination?
    It has been the campaign's experience that the level of 
clean-up varies widely, from site to site; the determining 
factor often being the economic status of the particular 
school.
    EPA is best suited to issue such guidelines related to an 
assessment and a clean-up of these sites. I strongly urge this 
Committee to give school boards what they need, and mandate EPA 
to establish such guidelines and standards.
    Additionally, without adequate resources, the local school 
authorities cannot effectively assess or clean up the property 
to a standard that is protective of children. Therefore, we are 
advocating the Federal funding of the appropriate agencies to 
support schools who apply for the assessment, radiation, and 
construction of a healthy school on otherwise unsafe sites.
    We are truly at a critical juncture. If action is not taken 
immediately, new schools will continue to be built without 
guidelines to protect children against chemical exposures. 
Failure to act could place tens of thousands of children at 
risk of being exposed to toxic chemicals at their place of 
learning.
    Society cannot allow innocent children to be placed in 
harm's way, due to decisions by local school authorities, who 
had no scientific or technical guidance or funding to 
adequately address their local situations.
    Thank you.
    Senator Jeffords. Well, thank you very much; that was very 
alarming testimony from all of you. I just cannot thank you 
enough in helping us today to alert this Nation to the serious 
problems that we have in this area.
    Senator Carper, do you have a statement that you would like 
to make?
    Senator Carper. I do not, but thanks for asking; a warm 
welcome to our witnesses, thank you.
    Senator Jeffords. I did not see you there, sorry.
    Senator Carper. I am easy to overlook.
    [Laughter.]
    Senator Carper. It has happened for years; guys from small 
States, you know what it is like.
    [Laughter.]
    Senator Jeffords. Ms. Barnett, how universal is the problem 
of unhealthy schools; and do other countries experience the 
same problems?
    Ms. Barnett. That is wonderful question, thank you.
    They appear to be fairly universal. They are certainly 
universal in our country. Every State has stories just like the 
stories we offered on the record today. It happens all over the 
place, all the time. But schools are not happy to talk about 
it. It is a very difficult issue for a lot of people.
    In terms of an international import, it does have some 
international effect. I chaired a school environmental health 
policy panel for an international conference in Monterey this 
summer.
    What was astounding to me, because we have not worked 
internationally at all, was the extent to which our own 
experience was replicated internationally. It was fascinating.
    My co-chair on the panel was an occupational health 
physician from the University of Milan, who was there 
representing 250,000 people from the European Union in 17 
countries, who could have read the testimony that we prepared 
today.
    So, I think the opportunity for EPA to provide leadership 
is now just leadership for children here, and for children in 
every building in this country; but also it is an opportunity 
to provide leadership in some research internationally, as 
well, on a very difficult topic.
    Schools everywhere are very densely occupied indoor spaces, 
under-maintained, and they have lots of people coming in and 
out all the time. They are hard to keep clean, hard to keep 
well designed, hard to keep ventilated. So it is a tough issue 
for everybody.
    Senator Jeffords. Last year, a large number of schools 
experienced rash outbreaks. Why have we not heard of such 
occurrences more often?
    Ms. Barnett. Well, I do not know why we have not heard 
about it more often. It may be that it had not occurred more 
often.
    But there is no baseline. We actually do not know what the 
baseline is on children in schools. We do not know how 
frequently there are illnesses and injuries. We do not know 
what types of illnesses and injuries there are. There is no 
State that collects and reports and records that kind of 
information. So we really do not know how usual or unusual it 
was.
    Senator Jeffords. This is a question for Ms. Gibbs.
    What is the single most important thing that the Federal 
Government can do to ensure green healthy schools?
    Ms. Gibbs. I think one of the most important things is to 
set some guidelines. Right now, there are absolutely no 
guidelines.
    There are some States who have put together some 
information such as California; who I think has done an 
extraordinary job. But there are no consistent guidelines.
    What happens at these schools is the more economically 
depressed the area, the worse off the school is, and the more 
likely the school is going to be located on a dump or near such 
a facility.
    Senator Jeffords. You mentioned California is the only 
State. What is going on? Why have others not pursued this 
approach?
    Ms. Gibbs. It is unbelievable, is it not? I mean, I do not 
know why. I just find it stunning that no States and the 
Federal Government have absolutely no laws. You have more laws 
about building a home, a commercial building, a store, a 7-11. 
There are more laws governing that in toxics than there are 
schools.
    We, through the campaign, have been working the States of 
New York, Massachusetts, Ohio, Michigan, and Texas to try and 
begin some State laws that put some requirements in about the 
exclusions of not building on a dump; but also how to assess 
the property, and then how to clean it up.
    The other piece of it, of course, is that in order for 
schools to assess property, that costs money. This Committee 
probably knows so more than other committees, that it is 
extraordinarily expensive to do testing.
    So the school boards are then put into a position of, do 
they pay for extensive testing to really determine the danger; 
or do they save that money to build the school with the 
resources, to help the children, technology or otherwise, to be 
better prepared for the marketplace?
    School boards are like this, with very little training, and 
sometimes they chose the testing, and sometimes they do not.
    Senator Jeffords. I will sneak a little question in here on 
one of my pet projects. If the Federal Government funded 
special education and Title I and Pell Grants to the level that 
they are supposed to be funded, would that help with getting 
more green schools?
    Ms. Gibbs. I think it would help. I think anytime schools 
can get Federal funding, especially for those types of 
programs, it definitely helps. Because it takes the weight off 
of the school for other things.
    Actually, two of my children, since Love Canal, are special 
education children, and I know what a struggle that is in 
Timberlane, to be able to get my children the assistance they 
need. What happens is the special education teachers get lost 
in the shuffle.
    So, I think any time the Federal Government can provide 
resources to take the burden off the local school district, the 
better off it is. I will add, again, it is especially in areas 
where there are children who are economically less better off 
than others, because they are the most needy of that type of 
assistance.
    Senator Jeffords. I will turn to Alex. If you had to pick 
one of two green technologies as most important for the 
schools, what would they be?
    Mr. Wilson. I think I would probably look at daylighting as 
a very key priority. That is not only for the productivity and 
student performance benefits it provides; but also for the 
money savings it can provide to the school district.
    Another strategy would be displacement ventilation. We can 
design much better ventilation systems for schools, that help 
get rid of pollutants that might be emitted from clothing, from 
building materials, from cleaning materials used in the school. 
So those would be two key technologies that I think need to be 
looked at, to a much greater extent than they are currently.
    We should also look at material choice and basic building 
science, which is grossly under-supported. There are many 
fundamental things we do not know about keeping moisture out of 
buildings.
    It is a seemingly very simple strategy, but it is quite 
complex, in reality. Moisture is the fundamental cause of many 
of the non-site-specific or hazardous-waste-specific problems 
in schools.
    Senator Jeffords. If the Federal Government were to provide 
some flow-through funding to improve school design, how should 
that money be targeted; and how much would it cost, on a per-
school basis?
    Mr. Wilson. Well, I am certainly not an expert on the way 
funding works. But I would like to see funding go toward State 
education departments. I could foresee a pool of money that 
could be used by those departments to provide key support at 
the design leverage points in schools, to pay particularly for 
computer modeling, which is a key priority in creating these 
high performance buildings that we are talking about.
    Also, perhaps there could be support for commissioning; 
that step that happens after the school is completed, but 
before occupancy. Some studies have shown that 40 percent of 
commercial buildings have fundamental problems with the way the 
heating ventilation/air conditioning systems were installed. 
You know, often these are problems that can be fixed very 
simply, if they are examined after construction.
    In terms of the cost of these strategies, good computer 
modeling, of course, depends on the size of the school and the 
complexity of the school. But we are looking at probably 
somewhere in the range of \1/4\ of 1 percent of the 
construction budget, something on that line. So for a $10 
million school, it might be on the order of something like 
$20,000 to $30,000.
    For commissioning, there are a number of different 
estimates as to the cost. I have often heard the figure of \1/
2\ percent to 1\1/2\ percent of the construction cost. I have 
also seen much lower estimates of 10 cents to 60 cents per 
square foot of building.
    So again, I think on the range of \1/4\ to \1/2\ percent of 
the construction budget would probably be, you know, a huge 
benefit. You could go further with commissioning, but that is 
certainly a great starting point.
    Senator Jeffords. Senator Clinton.
    Senator Clinton. Thank you very much, Mr. Chairman, and I 
particularly want to thank our panel. I do have an opening 
statement that I will submit for the record. But I want to 
follow-up on your reference to special education.
    We now have 12 million children under the age of 18, who 
have been identified as suffering from a developmental learning 
or behavioral disability.
    Since 1977, enrollment in special education programs has 
doubled. State and Federal education departments spend about 
$36 billion a year on special education programs.
    I am certainly concerned at the increase in the numbers of 
our children who are being identified as in need of special 
education. At least, insofar as we know, at this point, 
research suggests that genetic factors explain around 10 to 20 
percent of developmental diseases and disabilities.
    But a National Academy of Sciences study suggested that at 
least 28 percent of developmental disabilities are due to 
environmental causes. We do not know the causes for most of 
these, but we certainly do know that pollutants like lead, 
mercury, pesticides, dioxin, contribute to these problems.
    I think it is imperative that we do a much better job in 
gathering the necessary data on disease incidents and potential 
environmental causes, in order to begin to understand this 
rapid increase in our children who are being identified as in 
need of special education.
    So when we undertake the special education reauthorization, 
and this is really something that Senator Jeffords has been 
intimately involved in, helping to author the Individuals with 
Disability Education Act, back in the 1970s, we need to start 
being honest in trying to figure out what is causing this 
increase.
    Because it is not only enough that we get the Federal 
Government finally to fulfill the promise that Senator Jeffords 
extracted all those years ago, to fund 40 percent of special 
education; but we need to try to prevent and cure and eliminate 
problems that cause learning disabilities and other kinds of 
difficulties for our children.
    I know that as we go through this, both Senator Jeffords 
and I are fortunate to sit on the Health, Education, Labor, and 
Pensions Committee, which will have jurisdiction for 
reauthorizing IDEA.
    And I hope that each of our witnesses on this panel will 
give us ideas that you might have about what we should do when 
we reauthorize the special education bill, so that we can try 
to begin to understand what we need to do better to address 
children who might have been affected by environmental 
pollution, exposure to toxins, and other problems that have led 
to their being identified as in need of special education.
    I want to ask Ms. Barnett about a very important study that 
you were part of. It is called Schools of Ground Zero; Early 
Lessons Learned in Children's Environmental Health.
    I want to hold this up, because I want everybody to see 
what a tremendous undertaking this was. I think there might 
even be some of the parents and others that you worked with. It 
was recently published by the American Public Health 
Association and the Healthy Schools Network.
    Ms. Barnett, can you tell us some of the most critical 
lessons that learned through this study?
    Ms. Barnett. We undertook that. Actually, it has just a 
very short history, which is, our Board of Directors met in 
October, shortly after September 11. We had our meeting in New 
York City. All of this was extremely fresh and extremely 
painful, particularly for some of our Board members who had 
met, who had lost colleagues and friends.
    We decided that one thing we could do is try to document 
what was actually happening with children, document what was 
the first 24 hours, the actual evaluation process itself, and 
try to document what was then going to be the first 90 days, 
which we assumed would take people into the re-occupancy of all 
the seven public schools. So we focused on the public schools.
    We look specifically at the experience of children, through 
the eyes of their parents, and we commissioned journalists, who 
went to all the PTA meetings, Parent Association meetings, and 
did extensive interviews.
    What was going to be a simple research project developed 
into a book, and we were delighted to be able to do this with 
the American Public Health Association.
    There is one fundamental lesson here which is, there is no 
system to protect children. Buildings were re-occupied. People 
believed that they were clean at the time. They turned out not 
to be. There are a lot of reasons why that might happen.
    One of the most interesting events was looking at New York 
City and some of the health specialists, who were giving broad 
advice to the community of Lower Manhattan about how to keep 
your great indoors clean. The advise was, take your shoes off 
outside and keep the windows closed, and there were a number of 
sort of protocols people should go through.
    The reality is that schools cannot do any of those things 
to stay clean. The best-intentioned advice out of the health 
system could not be applied to the school setting, because 
people truly do not understand school facilities and the 
educational system.
    There are big differences between offices and schools. It 
is not just density of occupancy. One of the big differences is 
that once a school is back in session and commissioned, they do 
not close down again.
    So students who were ill on the job do not take their work 
home, and work at home for the afternoon, as a lot of people in 
Lower Manhattan did; but they are onsite. If they miss school, 
they miss school. If they miss a test, they miss it. They 
cannot send in a substitute.
    So, schools cannot really be treated like any other kind of 
institutional setting, like commercial office buildings. They 
are very different places.
    Parent associations, though, I mentioned in my testimony--
and this is universal, and it is not unique to Ground Zero--
parent associations simply are never prepared. I am sure that 
there is not a single parent association president in Lower 
Manhattan who would say that they ever anticipated, along with 
the rest of the world, what the schools needed to go through 
and what their roles would become, as volunteer association 
presidents.
    All of us who have done duty as PTA people will know how 
many phone calls it takes to get a meeting together. It takes a 
long time and a lot of hard work. But there is no system to 
rely upon. There is no independent agency at the Federal, 
State, or local level, which is specifically charged with the 
ability just to protect children.
    Senator Clinton. You know, one of the items that we 
introduced in the Homeland Security Bill that we are still 
debating is an amendment to have an office within that 
department, charged with the responsibility of looking after 
children. Because that has been our experience in New York; 
that that is an unmet need of great urgency, and we hope we 
will be able to achieve that.
    And I want to thank Mr. Wilson for coming with his 
expertise and experience. I sent out a brochure last year to 
our schools in New York, ``Smart Schools Save Energy.'' That is 
the other part of the equation. They not only keep you healthy, 
if they are done the right way, and make you more productive, 
but they also save energy; and I look forward to getting more 
information from you.
    Finally, I just wanted to ask Ms. Gibbs, in your testimony, 
one of your recommendations is the establishment of school 
siting committees within school districts or local schools 
boards.
    Can you elaborate on this, and are there examples of such 
siting committees, or anything similar already in existence in 
any part of the country?
    I know that we have tried health and safety committees in 
New York, and there have been some issues raised about those. 
So could you cover that for us, to give us a little more 
information.
    Ms. Gibbs. What we were suggesting on the siting committee, 
most school sitings, what happens is, a little notice gets 
posted in the newspaper. New schools have feeder schools, or 
students who come from other schools.
    So the siting committee includes those parents who have 
children who are coming from another school, to be notified of 
the new school siting committee. Along with that would be 
people who had expertise in things such as Mr. Wilson and 
Claire Barnett, and local elected officials. So they would be 
the local people who are really going to move forward on the 
build of the school.
    To my knowledge, the only siting committees for schools 
that exists now are pretty much locally controlled. They vary 
from place to place. Essentially what they are is just a 
notification in the newspaper, where parents who do care, or 
have noticed it, will come out to the meetings. But there is no 
sort of firm requirement that feeder schools and these other 
folks come and sit down at the table and begin to deal with 
this issue.
    I think because siting schools are very questionable, in 
reference to testing, in reference to how to build it, whether 
to put carpets in or not, I mean, it really goes beyond health 
and safety, and I think what was done in New York is 
extraordinary. I know Claire and other folks have had a major 
role in that.
    But it goes beyond that. It is thinking the whole school 
process through, from the dirt that it would be set on, to the 
type of materials that would be used inside.
    And the advantage of the siting committee, which would 
include parents, is that there are very hard decisions to be 
made, every step of the way. We cannot build the ideal school 
in every community on ideal, perfect land.
    So when those choices are made, whether we use material 
``x'' or material ``y'' or whether we clean up a site and dig 
10 feet down before we put the footers in, or 5 feet down; that 
parents should be part of that decisionmaking process; that 
they should not be the recipients of looking over the final 
decisions and either saying yea or nay. Because those are 
critical to their children and critical to the future of their 
children and their community.
    Senator Clinton. Thank you, Mr. Chairman.
    Senator Jeffords. Well, thank you all for very, very 
excellent testimony. I cannot tell you how proud I am of you 
and what you are doing.
    Yet, it raises the tremendous need we have in this Nation 
to follow through with the knowledge that you have given us, to 
make sure that our schools are as healthy as they can be, and 
that we maximize the opportunities for our young people.
    So thank you very, very much for your testimony.
    Ms. Gibbs. Thank you, Senator.
    [Whereupon, at 11:47 a.m., the hearing was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
Statement of E. Ramona Trovato, Deputy Assistant Administrator, Office 
   of Environmental Information, U.S. Environmental Protection Agency
    Mr. Chairman and members of the committee, I am Ramona Trovato, 
Deputy Assistant Administrator for EPA's Office of Environmental 
Information (OEI) and former Director of EPA's Office of Children's 
Health Protection (OCHP). I am pleased to be here on behalf of 
Administrator Whitman to discuss EPA's efforts to ensure that our 
schools are safe and healthy places for our children to learn. 
Administrator Whitman is a strong advocate for children and has been 
committed to improving and promoting EPA's programs to address 
environmental hazards in schools from the day she arrived. I am 
particularly happy to be here today, because today marks the first day 
of Children's Health Month.
    Protecting our children's health is a priority of this 
Administration and of EPA. Children are our most precious assets, and 
they can be more vulnerable to many environmental contaminants than 
adults. Children's bodies are still developing, and they may be exposed 
to more environmental contaminants than adults, both because they eat, 
drink, and breathe more per pound of body weight, and because their 
behaviors--like putting things in their mouths and playing on and close 
to the floor--may bring them in greater contact with contaminants than 
typical adult behaviors. Throughout the month of October, a 
collaborative effort of 17 Federal departments, agencies, and White 
House Offices will celebrate Children's Health Month by making a 
special effort to raise awareness of the importance of protecting our 
children from environmental health and safety risks and by publicizing 
tips throughout the month for parents and other care providers to 
follow to keep our children healthy and safe. I encourage you to visit 
a special inter-agency Web site (www.childrenshealth.gov) and help to 
publicize the practical steps that people can take during this month--
and throughout the year--to protect kids.
    Every time I hear the statistics--15 million people in America 
suffer from asthma, one-third of whom are children under the age of 
18--I am reminded of what a gift it is to breathe freely. Asthma is the 
leading chronic illness in children and the cause of 14 million missed 
school days each year. Allergens, including those from mold, 
cockroaches, dust mites, and animal dander, are all commonly found in 
indoor environments, including schools, and are known to trigger asthma 
attacks. Outdoor air pollution from pollutants such as particulate 
matter and ozone also induce asthma episodes.
    Hundreds of thousands of children living in the United States still 
have blood lead levels high enough to impair their ability to think, 
concentrate, and learn. Lead poisoning also lowers IQ and increases 
behavioral problems. Although lead paint hazards in older homes are the 
biggest concern because of exposures to very young children, lead paint 
is still found in many older schools, and lead can be found in the 
drinking water of both old and new schools.
    Children in our nation's schools may also be exposed to many other 
contaminants, including chemicals in cleaning products and art 
supplies, materials and furnishings used in school buildings, fumes 
from idling school buses, pesticides, radon and potentially even to 
mishandled sources of mercury and asbestos. And the list goes on.
    Unfortunately, in far too many cases, because of severe past budget 
shortfalls, our schools are old and inadequately maintained, leading to 
a host of environmental problems that can have dramatic impacts on 
children, staff, learning and the fiscal bottom line. Both the General 
Accounting Office and the National Center for Education Statistics of 
the Department of Education have documented the poor physical condition 
of many of our older school facilities.
    More than 53 million elementary and secondary students attend 
approximately 112,000 public and private schools in the United States. 
Along with approximately 3 million teachers and staff, this represents 
about 20 percent of the U.S. population. The average child spends about 
1,300 hours in a school building each year; teachers and other 
employees spend even longer periods.
    According to the National Center for Education Statistics report, 
The Condition of America's Public School Facilities: 2000, about one-
quarter of schools report that they need extensive repair or 
replacement of one or more buildings. Approximately 11 million students 
attend these schools. About 40 percent of schools report at least one 
``unsatisfactory environmental condition'' such as poor ventilation, 
heating or lighting problems, or poor physical security. According to a 
1996 study by the General Accounting Office, America's Schools Report 
Differing Conditions, these unsatisfactory environmental conditions are 
most often reported in urban schools, schools with high minority 
student enrollment, and schools with a high percentage of low income 
students. In some instances, low income and racial/ethnic minorities 
have increased exposure to environmental hazards and suffer 
disproportionately from environmental exposures. For example, the 
Department of Health and Human Services has estimated that African 
American children are three times more likely than white children to be 
hospitalized for asthma and asthma-related conditions; these children 
are four to six times more likely to die from asthma. These disparities 
are often at least partially attributable to differences in health 
care. Minority children also have significantly higher rates of 
elevated blood lead levels.
    To date, school facility conditions have not been widely perceived 
as playing a critical role in the education process, largely due to the 
fact that research into the complex relationship between aspects of the 
physical environment, including environmental factors, and the well-
being, health, productivity, and academic performance of students is 
only now emerging. In fact, the Lawrence Berkeley National Laboratory 
has recently conducted a review of the scientific literature in this 
area at EPA's request, and EPA is preparing a summary of the existing 
science that may associate indoor air quality factors in schools and 
other buildings with health, productivity, and performance of children. 
EPA is also supporting research in this area. Our Science to Achieve 
Results (STAR) extramural research grant program already supports a 
limited amount of research on school environments. In 1997, the program 
provided funding to the University of Minnesota for a school-based 
study of complex environmental exposures in children at the University 
of Minnesota. This study used outdoor, in-home, in-school, personal, 
and human tissue monitoring to quantify exposures among children in two 
low-income, racially diverse schools in Minneapolis. The Agency 
continues to explore research related to children's health and the 
school environment.
    Despite the emerging nature of research into the relationship 
between environmental factors and learning, if a child suffers an 
asthma attack in class or is not in school because of asthma; if the 
school is closed because of an environmental health or safety episode; 
or if the ventilation system is providing little or no fresh air, that 
child may not be learning up to his or her full potential.
    Many schools are being temporarily evacuated or permanently closed 
due to environmental problems, making the difficult task of educators 
even more challenging. Moisture problems in schools are known to 
contribute to both mold and pest problems that may directly affect 
allergic or sensitive individuals and which can lead to increased 
application of pesticides. In one case, an elementary school in 
Fairfield, Connecticut was permanently closed after efforts to fix 
persistent mold and moisture problems over a period of several years 
were unsuccessful. The school closure will cost the local school 
district an estimated $21 million to replace the school in addition to 
the costs to demolish the existing structure. The chief of allergy and 
immunology at the nearby medical center who treated many of the 
students and teachers over the years estimated that the building 
impacted the health of up to 40 percent of students and staff.
    Funding for school construction, renovation and repair, raised 
largely through State and local bond issues, has increased 
significantly over the past several years, suggesting that the general 
trend for school improvements is favorable. Nevertheless many schools 
continue to provide less-than-ideal conditions to facilitate learning, 
and many may pose unnecessary risks to the health of children, staff 
and visitors.
    The public becomes aware of new environmental challenges for 
schools on a regular basis. Siting of schools on or near contaminated 
sites, exposures of children to outdoor sources such as diesel bus 
exhaust, the increasing reliance on portable--or relocatable--
classrooms, and the rapidly growing issue of mold contamination all 
suggest the need for the Federal Government to provide appropriate 
guidance and technical assistance to States and communities to address 
environmental health issues in schools. One excellent resource is the 
National Clearinghouse for Educational Facilities, funded by the U.S. 
Department of Education.
    Within EPA, we have been working very hard for the past several 
years to help schools address environmental issues. While there is no 
known cure for asthma, asthma attacks can be prevented by reducing 
exposure to environmental triggers and by ensuring that all children 
receive appropriate medical care. EPA is a committed Federal partner in 
the battle against asthma. Because we believe that one asthma attack is 
too many, EPA is working to reduce asthma triggers in both outdoor and 
indoor air.
    In February, the President announced the Clear Skies Initiative, 
which will dramatically cut air pollution by nitrogen oxides, sulfur 
dioxide, and mercury by 70 percent, using a mandatory, market-based 
approach. Clear Skies will help to prevent asthma attacks in children. 
Clear Skies will also help to prevent thousands of premature deaths in 
the U.S. population.
    But Clear Skies is just one part of our effort to make America's 
air cleaner. We need to make sure that the buses that take our children 
to school aren't causing them to miss school. President Bush recently 
approved an EPA rule to reduce pollution from diesel buses and trucks 
and to require cleaner diesel fuel that will reduce the harmful 
pollutants from diesel engines by more than 90 percent over today's 
engines.
    EPA has also been leading the charge to help schools address indoor 
air quality (IAQ) problems through its widely acclaimed Indoor Air 
Quality Tools for Schools program. IAQ Tools for Schools provides an 
effective framework as well as practical tools to help schools prevent 
and solve all kinds of environmental problems affecting indoor air 
quality in schools. More than 10,000 schools are using the program, and 
major school districts around the country--including New York City 
Schools, Dallas, Brevard County, Philadelphia and LA Unified School 
District--are committed to using the IAQ Tools for Schools as part of 
their health and safety programs.
    We have dozens of anecdotal examples of schools and school 
districts for which the IAQ Tools for Schools program has provided 
demonstrable benefits, including reducing asthma related nurse visits 
and missed school days. We recognize, however, that we need better 
tools to document and measure the effectiveness of the IAQ Tools for 
Schools program. One initial effort is a survey we conducted this past 
summer that will help us better quantify the reductions in IAQ-related 
complaints, in absenteeism, and in costs which many schools are 
reporting as they implement the program.
    EPA continues to develop new IAQ tools for schools. The Agency has 
released specific guidance to help schools identify and fix mold and 
moisture problems and is working closely with other Federal agencies--
particularly CDC--to help ensure that schools, the public and others 
receive the most accurate and scientifically sound information on mold 
related health effects and remediation techniques.
    By the end of the year, EPA will also release new Web-based 
guidance devoted to school design, construction and renovation issues 
titled Indoor Air Quality Design Tools for Schools. This guidance for 
new and renovated schools will complement EPA's IAQ Tools for Schools 
program, which aims to help existing schools prevent and solve indoor 
air quality problems. The new IAQ Design Tools for Schools guidance 
will encourage schools to make indoor air quality goals part of the 
school planning and design process. It also discusses factors to 
consider in the siting of school facilities, stresses the importance of 
building commissioning, and provides guidance on a host of other issues 
related to the indoor environment. The guidance will draw from EPA 
expertise as well as from some excellent resources that have emerged 
from State and private sector initiatives such as the California 
Collaborative for High Performance Schools and the US Green Building 
Council's LEED (Leadership in Energy and Environmental Design) Green 
Building Rating System, among many others. The draft IAQ Design Tools 
for Schools guidance was widely available this summer for public 
review, and we are now integrating comments from a broad spectrum of 
interests.
    I know that this committee is particularly interested in the issue 
of school siting. However, as you know, selection of sites on which to 
build new schools is largely a local decision and a local issue. Many 
factors related to the availability and cost of land, community values, 
and a host of other factors come into play. Unfortunately, in a number 
of cases and for a variety of reasons, schools are sometimes being 
built on or close to existing sources of air, water, and/or soil 
contamination. While the Federal Government does not play a direct role 
in these decisions, we can help communities make wise decisions by 
providing better information of potential environmental risks and ways 
to reduce those risks. For example, the draft IAQ Design Tools for 
Schools guidance recommends early involvement in the siting process by 
the community, a thorough Phase I environmental site assessment using 
ASTM guidelines before the site is acquired, and a more detailed site 
assessment and, if needed, clean-up plan, before deciding to build. 
There are also a number of tools available to assist communities, 
including EPA's Enviro Facts Data Warehouse (http://www.epa.gov/enviro/
), which provides a wealth of resources to help the public access 
environmental information about their community.
    The IAQ Design Tools for Schools guidance also strongly encourages 
school districts to embrace the concept of designing and building High 
Performance Schools. High Performance Schools are simply schools in 
which a wide range of issues associated with site planning, energy use, 
indoor air quality, day-lighting, acoustics and other building systems 
are considered as a whole building integrated design that can save 
energy, natural resources and money. These concepts are being 
demonstrated as cost-effective in a number of State, local and private 
sector initiatives around the country. Energy efficient design can 
result in reduced construction costs as well as reduced operating 
costs. Even in cases where construction costs are higher, energy 
savings can pay for additional up-front costs very quickly, sometimes 
in less than a year. And this doesn't include the potential benefits of 
improved health, productivity and performance.
    Another of EPA's priorities is protecting children from unnecessary 
exposure to pesticides that are used in and around schools to control 
pests. EPA is encouraging school officials to adopt Integrated Pest 
Management (IPM) practices to reduce children's exposure to pesticides. 
EPA is helping schools understand and implement IPM through the 
distribution of printed publications, awarding grants to start IPM 
programs, offering workshops and courses, and providing guidance and 
assistance through the Tools for Schools Program, as well as 
partnerships with Universities and national associations. EPA has 
funded two technical resource centers to promote IPM in schools and day 
care centers, by providing tools, training and technical support to 
start IPM programs. The Centers also provide support to State efforts 
and foster sharing of IPM resources nationwide.
    EPA has also recently published a brochure on Protecting Children 
in Schools from Pests and Pesticides. Over 100,000 copies have already 
been distributed to schools around the country. The brochure is also 
available on EPA's Web site at www.epa.gov/pesticides/ipm.
    EPA has a wealth of other information and programs to assist 
schools. The SunWise School Program is an environmental and health 
education program that aims to teach children and their caregivers how 
to protect themselves from overexposure to the sun's harmful 
ultraviolet (UV) radiation. SunWise partner schools sponsor classroom, 
school, and community activities that raise children's awareness of 
stratospheric ozone depletion, UV radiation, and simple sun safety 
practices, that can ultimately lead to sustained sun-safe behaviors. 
WasteWise is a free, voluntary EPA program through which organizations 
eliminate costly municipal solid waste, benefiting their bottom line 
and the environment. EPA's Water Alliances for Voluntary Efficiency 
(WAVE) program is a voluntary partnership with institutions such as 
schools and commercial businesses to prevent pollution and to reduce 
the demand for and to promote the efficient use of water and energy 
resources. The Buy Clean pilot program is an EPA initiative to partner 
with schools and others to promote the purchase of products and 
services for a healthy indoor environment for schools. EPA's EnergyStar 
for Schools program is helping schools conserve energy through the use 
of benchmarking and other tools. Our EnergyStar partnership with the 
Department of Energy has been a tremendous success. EPA has also 
recently created a Green Buildings Web Portal to help the public find 
green building resources throughout EPA.
    EPA is very aware of the resource and other constraints under which 
many schools and school districts labor, and we recognize the 
importance of providing not just more and better guidance, but better 
coordinated and integrated programs that will make the job of 
addressing environmental health issues easier for schools, or at the 
very least, more efficient. Our goal is to make our environmental 
programs directly support schools in achieving their primary mission of 
educating children.
    To achieve this, EPA programs emphasize partnerships with those who 
have the direct responsibility for educating our children and all of 
the constituencies that are part of the educational process. This 
includes relationships with individual schools, school districts, and 
organizations representing school administrators, school nurses, 
teachers, facility planners and managers, architects, engineers, 
parents, and even kids. We partner with other Federal agencies, with 
States, tribes, and with communities to assist schools in any way we 
can.
    We are also working within EPA to better coordinate and integrate 
existing programs. Toward that end I am pleased to be able to report to 
you today that just a week ago we inaugurated a new Healthy School 
Environments Web Portal to provide one-stop access to EPA resources for 
schools, as well as to help school administrators, facility managers, 
design engineers, architects, health professionals, parents, teachers, 
staff and students find helpful resources from other Federal agencies, 
States, communities and non-governmental organizations.
    We are looking for additional opportunities to streamline EPA 
programs for schools and make them more accessible and more helpful. We 
recently received a number of recommendations regarding EPA's school 
programs from the EPA's Children's Health Protection Advisory 
Committee. These recommendations are consistent with our efforts to 
improve the guidance available to schools and better coordinate EPA 
programs.
    We believe it is critically important for Federal agencies to work 
together and in close collaboration to coordinate and leverage existing 
Federal programs and resources impacting children's health in schools. 
The President's Task Force on Environmental Health Risks and Safety 
Risks to Children, co-chaired by Administrator Whitman and Secretary 
Thompson, has proven to be an effective forum to facilitate increased 
coordination and collaboration within the Federal community on a 
variety of issues, including asthma, lead, unintentional injuries, 
childhood cancer, and now schools. The Task Force has identified school 
environmental health as a priority and established an interagency 
Schools Workgroup to identify opportunities for better coordinating 
Federal efforts in this area. The Schools Workgroup is co-chaired by 
EPA, the Department of Education and the Department of Health and Human 
Services, and includes representatives from other Federal agencies 
involved in school health issues, such as the Department of Energy, the 
Department of Agriculture, and the Department of Labor, among others.
    The President's Task Force Schools Workgroup is currently 
developing an inventory of Federal programs related to school 
environmental health. The primary goal of the inventory is to inform 
the development of a strategic plan that will provide recommendations 
for increasing the effectiveness of Federal school environmental health 
programs. The inventory will also be incorporated into a publicly 
accessible electronic data base of school environmental health programs 
and activities.
    The creation of the workgroup has already substantially improved 
coordination and cooperation within the Federal community in addressing 
school environmental health issues. For example, EPA and CDC have 
offered their assistance and are providing information to the 
Department of Education to help them scope the study of Unhealthy 
School Buildings mandated by the No Child Left Behind Act. EPA is also 
becoming an active participant in the National Coordinating Committee 
on School Health, which is sponsored by DHHS, the Department of 
Education and the Department of Agriculture and is comprised of many of 
the non-governmental organizations interested in school health issues.
    In conclusion, EPA is committed to working within the Federal 
community, with States and tribes, local governments and communities, 
as well as with public and private non-governmental organizations to 
promote children's health in our nation's schools.
    Thank you for the opportunity to testify today. I look forward to 
working with you to make our schools the healthiest possible 
environments in which to learn as well as to work.
    I will be glad to respond to any questions you may have.

                               __________
   Statement of Claire Barnett, Executive Director, Healthy Schools 
                          Network, Albany, NY

    Good morning. Thank you Senator Jeffords, Senator Smith, and other 
members of the U.S. Senate's Environment and Public Works Committee for 
holding this historic hearing on the greening of our children's 
workplaces. There are several questions I hope you will focus on today.
    <bullet> What do we know about environmental hazards in schools?
    <bullet> What do we know about how these affect child health and 
learning?
    <bullet> What systems are in place to ensure that the opportunities 
to protect child health and learning and to protect the environment are 
accessible and implemented?
    <bullet> What roles should US EPA play an improving school 
facilities and child health and learning?
    The questions are not simple: effective Federal responses to the 
multiple environment and environmental health questions facing all 
children and their schools requires integrating the expertise and 
efforts of several disciplines and agencies at the Federal level and 
within the States.
    My name is Claire L. Barnett. My husband and I moved from Westport-
on-Lake-Champlain, NY to Saratoga Springs, NY where we now reside a few 
years ago. I am Executive Director of Healthy Schools Network, Inc., a 
national environmental health research, information, and advocacy 
organization; a former PTO President from upstate New York; the parent 
of a health-impaired child once in special education; and today, the 
representative the parents of 50 million children and the 5 million 
school personnel--such as those with me here today, Joellen Lawson 
(CT), Jenna Orkin, (NY), Veronica Carella (MD), Grayling and Carol 
(TN), Bill and Judy Sazonski and their son Will (CT), and Robin 
Starinieri (VA) whose lives have been impacted by the poor conditions 
of schools and the lack of any comprehensive system to protect children 
and adults from indoor environmental hazards at school.
    I coordinate the national ad hoc Coalition for Healthier Schools is 
comprised of over 75 national, State, and local parent, public health, 
environment, and education groups and is dedicated to assuring that all 
children and personnel have schools that are environmentally healthy. 
Several representatives of organizations in the Coalition are here 
today whom I wish to recognize: American Public Health Association, 
Beyond Pesticides, Children's Environmental Health Network, National 
Education Association, and American Lung Association. The Coalition 
helped secure $1.2 billion in Federal funds for school repairs in the 
fall of 2000 and successfully campaigned last year for the ``Healthy 
and High Performance Schools'' provisions now in the ``No Child Left 
Behind Act of 2001''.
    We have also inspired and helped organize countless local healthy 
schools groups and large coalitions in several States. It is through 
this rapidly growing network of concerned groups and individuals that 
we picked up on the outbreak of school rashes last year and with 
national partners asked the Federal Centers for Disease Control/
National Center for Environmental Health to launch an investigation and 
to report to Congress (correspondence attached).
    Applying our skills in New York State, Healthy Schools Network 
recently completed a 2-year grant that funded intensive outreach to 225 
low-income schools on greening existing schools, including healthier 
cleaning and pest control, Indoor Air Quality (IAQ) protocols, and 
health & safety committees that are required under State regulations. 
After the World Trade Center attacks, we provided extensive help to the 
communities and Parent Associations of the seven public Ground Zero 
Schools as they struggled to find ways to protect children at school 
from environmental hazards no one could have imagined. Our commissioned 
research report on their experience, Schools of Ground Zero: Early 
Lessons Learned in Children's Environmental Health, is now a book co-
published with the American Public Health Association that I place on 
the record here.
    The lesson from all of our work and the book: ``. . . N is for No 
System to Protect Children.''

                   CHILDREN, SCHOOLS, AND ENVIRONMENT

    Americans spend 85-90 percent of their time indoors. For the 55 
million children and adults in 115,000 schools today, Tuesday, October 
1, 2002, the first day of Child Health Month, they know that schools 
are more densely occupied and less well maintained than most commercial 
offices. In the US General Accounting Office study in the mid 1990s, it 
was reported that over 14 million children were in schools that 
threatened their health. Environmental factors included indoor air 
pollution, lighting and plumbing deficiencies, and ventilation 
problems. The American Society of Civil Engineers (table attached) 
reports that our schools are in worse condition than any other 
infrastructure including prisons. While enrollments have grown, schools 
have decayed and renovations and new construction have not kept pace; 
meanwhile, schools everywhere are enrolling more and more children with 
special needs: asthma, attention deficit, autism, severe allergies, 
learning disabilities. Seventeen percent of children under 18 have been 
diagnosed with one or more developmental disabilities. These 
disabilities include Attention Deficit-Hyperactivity Disorder (ADHD) 
and autism and are the result of complex interactions among genetic, 
environmental and societal factors that impact children during 
vulnerable periods of development. These children especially do not 
thrive in the polluted indoors.
    As the Federal Executive Order on child environmental health 
reauthorized by President Bush reaffirms, children are more vulnerable 
to environmental hazards that adults. Our challenge is how do we create 
greener buildings for children--from existing building, and with 
renovations and all-new buildings?

 WHAT DO WE KNOW ABOUT ENVIRONMENTAL HAZARDS AT SCHOOL AND THE EFFECTS 
                     ON CHILD HEALTH AND LEARNING?

A is for asthma and air quality
    Children are especially susceptible to air pollutants. Children 
have increased oxygen needs compared to adults, they breathe more 
rapidly and, therefore, inhale more pollutants per pound of body weight 
than adults. They often spend more time engaged in vigorous outdoor 
activities than adults.
    <bullet> Asthma is the leading cause of school absenteeism due to a 
chronic illness. The U.S. Environmental Protection Agency estimated 
that American children lost 17 million school days in 1997 due to the 
disease, and that parents lost 5 million work days in order to care for 
their children with asthma-related illness. Nearly 1 in 13 school-age 
children has asthma.
    <bullet> Major indoor triggers of asthma attacks include irritants 
such as commercial products (paints, cleaning agents, pesticides, 
perfumes), building components (sealants, plastics, adhesives, 
insulation materials), animal and insect allergens, environmental 
tobacco smoke, and molds. Many of these triggers can be found in 
schools.

B is for bugs and bioaerosols
    Schools that are poorly designed or constructed, or in poor 
condition, or that have inadequate maintenance, inadequate food storage 
or garbage and recycling areas, will be subject to pest infestations. 
Pests like what we like: food, water, and safe place to nest. It is 
better for the building, healthier for occupants, and cheaper to keep 
pests out of schools than to continuously apply toxic pesticides. 
According to Beyond Pesticides, to protect children from unsafe, 
unhealthy practices, more than thirty States have placed limits on 
school pesticide uses. Pest-proofing of a facility during renovations 
or repairs is cost effective step to promoting an environmentally 
healthy school.
    <bullet> Information about on the amount of pesticides used in the 
nation's 110,000 public schools is not available. The Federal 
Government does not collect such data, and, as of 1999, only two States 
collected data on pesticide use in a manner that allows for identifying 
use in school facilities. From 1993 through 1996, about 2,300 
pesticide-related exposures involving individuals at schools were 
reported, according to the American Association of Poison Control 
Centers (although these data are not believed to be complete).
    Bioaerosols, specifically, molds in schools are a new ``hot'' issue 
but hardly a new issue historically. Molds are everywhere, indoors and 
out. There is no such thing as a mold-free environment. There are 
thousands of different kinds of molds; different individuals may react 
differently, and some not at all. Testing for molds is unreliable, and 
since most are capable of causing illness, testing is more beneficial 
to the vendors than to schools. The message is prevention is cheaper 
than remediation: reduce humidity, stop leaks, respond promptly to 
spills and flooding, and take health complaints seriously the first 
time.

C is for children and chemicals
    Chemical toxicants in the classroom, on the playground, in the 
science lab, or in other school facilities can lead to health risks and 
adverse learning conditions. They can affect many different body 
systems and impact health, learning, productivity, and self esteem.
    One very effective way to improve indoor environments is to stay 
current on repairs and to use less-hazardous, or environmentally 
preferable purchasing (EPP) to buy products for cleaning and repair 
work. EPP applied to custodial product purchasing can result in a zero-
cost, positive environmental change. The basic steps to healthier 
cleaning include keeping dirt and grime out of the building, then by 
consulting the product labels and Material Safety Data Sheets, 
determining which products have the least hazardous properties.
    Other than lead, asbestos and radon, the Federal Government has not 
instituted requirements or guidelines that would protect children from 
the same chemical exposures that require employee notification and 
other worker protections.
    Schools are places where children and elemental mercury may come 
together via thermometers and barometers, in laboratory courses or 
``show-and-tell.'' Mercury can also be released through broken 
fluorescent light tubes or thermostats.
    <bullet> Mercury is a potent neurotoxicant and children are 
particularly susceptible to mercury's dangers. Mercury interferes with 
brain development and more easily passes into the brains of fetuses and 
young children than into the brains of adults.
    <bullet> Mercury-containing products or spills must be properly 
handled. Even small mercury spills require specialists. Improper clean-
up of a mercury release, such as vacuuming up the mercury from a broken 
thermometer, will spread the mercury into the air.
    Other sources of chemicals in schools will include science 
laboratories, vocational education classrooms, art rooms, copy shops, 
computer rooms, and custodial storage areas. There is no system that 
attempts to assess the types of chemicals used in schools, including 
pesticides. Federal Executive Order 13101 on Environmentally Preferable 
Purchasing has not been systematically extended to schools to assist 
them with setting purchasing specifications that will drive out toxic 
products that may contribute to employee injury, storage problems, 
disposal problems, air pollution, and student illness or health risks. 
The Agency for Toxic Substances and Disease Registry studied 
evacuations from educational facilities, often caused by chemical 
spills or releases, and found--not surprisingly--that the evacuees and 
victims from schools are younger and more numerous than those from 
other institutional settings. The most common substances involved were 
mercury, then tearing agents, hydrochloric acid, chlorine, ethlene 
glycol, and formaldehyde. There were no estimates of the costs to 
health, learning, or school administration.
    Lead comes with old infrastructure and will be found in paint dust 
and chips, window sills, the grounds next to an old building, grounds 
near highways and bridges, and in water. Lead is a potent neurotoxin. 
Exposure to lead can cause a variety of health effects, including 
delays in normal physical and mental development in children, deficits 
in attention span, hearing, and learning disabilities of children, as 
well as problems with impulsivity and aggression. Long-term effects can 
include stroke, kidney disease, and cancer. Los Angeles Unified SD 
flags old classrooms for high priority clean-ups that have flaking 
paint or paint chips on the floors. New York State requires that school 
areas to be disturbed during renovation be tested for lead and abated.
    <bullet> According to a report on the condition of the nation's 
school facilities by the U.S. General Accounting Office, schools built 
before 1980 were painted with lead paint.
    <bullet> Children may also be exposed to lead through drinking 
water that has elevated concentrations from lead plumbing materials. 
Lead contamination in drinking water occurs from corrosion of lead 
pipes, lead soldered plumbing and storage tanks and lead-containing 
plumbing fixtures, and it cannot be directly detected or removed by the 
water system.
    <bullet> Some support was provided to schools through the Lead 
Contamination Control Act of 1988 to identify and correct lead-in-
drinking-water problems at schools, especially water coolers with lead-
lined tanks.
    <bullet> Rifle ranges at school are another potential source of 
lead contamination according to research under wraps at the NYS 
Department of Health (HSN).
N is for no system to protect children.
    Twenty-six States have adopted OSHA for public employees, and thus 
these standards may well protect employees from environmental hazards 
at school. Although students may indirectly benefit from the 
Occupational Safety and Health Administration (OSHA) and National 
Institute for Occupational Safety and Health (NIOSH) activities that 
cover school employees, OSHA and NIOSH have no jurisdiction for 
investigating the health impact of exposure to students.
    Parents of the Schools of Ground Zero learned this the hard way, as 
did the parents here with me today. Employees may call in NIOSH to 
evaluate workplace conditions. None has ever evaluated students who 
outnumber adults in school by an average of 10 or more to one. Two 
studies on employees of school in Lower Manhattan found health effects 
from indoor pollutants 6 months after the World Trade Center attacks. 
No similar studies are underway on the 3,000 students who returned to 
their ``workplace'' in early October.
    Not one of the workplace standards have been set to protect 
children who are compelled to be in school, and none can be invoked by 
children or their parents. Parents cannot take their children to an 
occupational health clinic; they have no bargaining rights; they are 
not in school every day; schools may not reveal hazards and they have 
no system that provides a right to know; PTA's and PTO's are voluntary 
groups have no institutional history or capacity to conduct onsite 
environmental health or workplace inspections.
    Numerous studies conclude that there is an explicit relationship 
between the physical characteristics of school buildings and 
educational outcomes. To this end, research shows us that better 
quality buildings produce better student results on standardized tests. 
In its briefings, for example, the Rebuild America's Schools Coalition 
points out:
    <bullet> Four recent studies found higher test scores for students 
learning in better buildings and lower scores for students learning in 
substandard buildings. One of the more recent of these studies showed a 
difference in student test scores ranging from 5 to 17 percentile 
points.
    <bullet> Another study in DC Public Schools showed that students in 
school buildings in poor condition scored 11 percent below students in 
buildings that were in excellent condition on standardized achievement 
tests.

                  BACK TO BASICS: FRESH AIR & SUNSHINE

Healthy and High Performance Schools
    Greener buildings are a return to ``the basics'' of fresh air and 
sunshine in schools: fund and implement the Healthy and High 
Performance Schools to help address the environmental needs of decayed 
schools. It is set up to help schools with design, engineering, and 
materials selection during major renovations, financed by State 
agencies. The opportunity to merge national environmental and building 
sciences information and technical assistance with State energy, 
education, and environment programs, is unique, timely, and necessary. 
Volunteer local school boards simply are not equipped to do this alone.
    The U.S. Department of Energy's studies on schools and findings 
that schools could save 25 percent or $1.5 billion in energy with 
modest improvements. Other organizations have found school saving up to 
50 percent on energy with new equipment and human behavior changes. 
Daylighting will yield higher test scores and save energy. We also 
refer you to the excellent green design guidelines for public buildings 
and schools by the New York City Department of Design and Construction 
which offers assistance on materials selections.
    While there is Federal legislation and regulatory authority at US 
EPA on outdoor air, and studies and activities around indoor air, there 
are virtually no laws or enforceable regulations on indoor air quality 
(IAQ). Yet air pollution is air pollution indoors or out. Priority 
research needs for the field of adult workers was just published (Am J 
Public Health) that outlined an extensive NIOSH/National Occupational 
Research Agenda committee process. The process is not established to 
consider children. In fact no State has a system to collect or report 
student illness or injury, or to establish standards for them, so 
improving on research means starting from square one. There was no 
baseline data on children's illnesses during the recent school rash 
outbreak.
    The New London, TX School Disaster.--On March 18, 1937 a gas 
explosion killed nearly 300 students, teachers, and visitors. The 
investigation revealed a litany of false savings, negligence in the 
design, installation, and maintenance of the heating system, and 
weakness in ventilation. Only one of the many recommendations were ever 
put in place--the addition of an odorant to natural gas.
    Worse, for the parents of affected children and for school 
personnel, no school can prove it has acceptable indoor air by 
producing a test result. Indeed some research suggests that human 
sensors (the building occupants) are more sensitive than testing 
equipment and provide continuous onsite feed-back (see Indoor Air 2002 
bibliography contributed by researchers at Lawrence Berkeley National 
Laboratories/Indoor Air Sciences). Indoor air measures can be expensive 
and must be done under actual operating conditions, with the school 
fully loaded. Contaminants present can include asbestos, lead, mold 
spores, pet danders, volatile organic compounds, fumes from 
uncontrolled renovation projects and cleaning products, instructional 
supplies, pest/pesticide and their residues, foods, garbage, or the 
not-so-subtle scents of middle-schoolers in an overheated building. 
There are some standards for individual contaminants of indoor air set 
for adult occupational exposures; California has set comprehensive 
standards for VOC's indoors.
    U.S. EPA/Indoor Environments Division (IED) is to be commended for 
having a strong, well recognized, dedicated, voluntary program for 
schools, the ``IAQ Tools for Schools'' (TfS) program. In addition to 
setting quotas for the regional offices and giving mini-grant to 
schools to spur implementation, EPA also developed educational 
materials, such as ``School Air Quality and Student Performance'' that 
indicates even healthy adults placed in a polluted indoor environment--
and without having health complaints--will experience a 3-7 percent 
decline in speed and accuracy in keyboarding. There are no such studies 
on children, although I am sure the committee would unanimously agree 
that every school principal wants a 3-7 percent gain in standardized 
test scores.
    TfS implementation remains elusive, as it does with many voluntary 
school programs. At the Indoor Air conference in Monterey, US EPA/
Region 2 staff presented its work in New Jersey: it has been able to 
initiate the voluntary program in only 1 percent of the schools in the 
State. TfS is sadly underutilized, and with a few States as exceptions, 
has not been incorporated into ongoing school facility work.
    Implementation of Healthy and High Performance Schools provisions 
that give States funding and information for school renovations would 
greatly assist IAQ problems. Since implementation is scant and children 
are required to be in schools and schools have known air pollution 
problems, the real question is why is TfS is only a voluntary program. 
The difficulty in defining what TfS implementation consists of is part 
of the problem; another is the basic difficulty in extracting timely 
and accurate information from schools about environmental conditions 
and child health; and finally, the need for substantial increases in 
research into indoor air is also required.
    Drugging the Canaries.--Some children now need nebulizers just to 
attend polluted schools; entire districts have ordered them for their 
classroom buildings. Elsewhere, on physician orders, parents have kept 
children home. Some schools have quickly addressed the situation by 
providing home instruction, tutoring, building improvements, or 
alternative educational placements, while other parents are home 
schooling. We and other advocacy groups have also had calls from 
parents who report they have seriously ill children, have schools that 
have ignored physician letters, and also report their schools have 
threatened to report them for child neglect.
    Needless to say, as committee members and staff are aware, schools 
receiving any Federal aid are required under Section 504 of the 
Rehabilitation Act of 1973 to provide accessible facilities. Under the 
Individuals with Disabilities Education Act (IDEA), schools must 
provide a free, appropriate public education to all children in the 
least restrictive setting.

The Outbreak of School Rashes
    Centers for Disease Control (CDC) launched a Federal study of the 
outbreak of rashes that affected over 1,000 children in 27 States. 
Findings include the usual childhood diseases, eczema, applied 
chemicals and renovation dusts, and rashes of unknown origins. Despite 
some premature media reports that attempted to paint this as ``female 
hysteria,'' the rashes appeared on both boys and girls, in different 
schools and in different classrooms, and in different States on the 
same day. At least one school in the State of Washington refused to 
allow the State to conduct an environmental investigation onsite. In 
surveying members of the NYS Association of School Nurses, HSN learned 
that nurses are not allowed to tell parents about school conditions and 
that 71 percent of 206 respondents knew children who were affected 
(HSN).
    This is not a system set up to protect children and to determine 
what the exposures and results of those exposures are. We encourage 
Congress to hear from CDC/NCEH on how future school environmental 
investigations should be carried out.

                            RECOMMENDATIONS

    The root problem is that there is no system to protect children, 
and no system to deliver or enforce a consistent message with local 
schools. It is beyond the jurisdiction of this committee acting alone 
to establish such a system, but we would urge future Senate committee 
Hearings to explore this issue and possible solutions in depth with the 
array of Federal agencies.
    1. Fund and implement the Healthy and High Performance Schools 
provisions of the Leave No Child Behind Act, expanding the USD 
Education's ability to:
    <bullet> participate in the National Children's Study;
    <bullet> participate in the Interagency Task Force on Risks to 
Child Health;
    <bullet> conduct joint research with other Federal agencies on how 
environmental hazards at school affect health and learning;
    <bullet> provide incentives and information to the States to 
leverage their own ``high performance schools'' programs.
    2. Institutionalize the National Clearinghouse for Educational 
Facilities and cross-link it to the other Federal agencies' school 
environmental programs;
    3. Expand US Environmental Protection Agency's schools programs, 
establishing it as an agency priority, including:
    <bullet> research on indoor air at school and impacts on child 
health and learning;
    <bullet> evaluating IAQ Tools for Schools and other school programs 
for their effectiveness at reducing children's toxic exposures and 
reducing absenteeism, or providing disability access to buildings;
    <bullet> strengthening the EPA regional office's work with State 
agencies and advocacy organizations so that IAQ Tools for Schools and 
other programs are integrated into State agency efforts;
    <bullet> expand US EPA's grants to the Pediatric Environmental 
Health Specialty Units, jointly funded with the Agency for Toxic 
Substances and Disease Registry;
    <bullet> require US EPA and other Federal agencies, in cooperation 
with environmental health and education groups, to develop best 
practice policies for school district maintenance and repair, 
consistent with ``greening'' the existing infrastructure for the 
protection of child health. This should include methods and examples 
for applying the Federal Executive Order on Environmentally Preferable 
Purchasing to school supplies and maintenance products.
    4. Pass the Federal School Environmental Protection Act (SEPA, H.R. 
111 and H.R. 3275/S 1716 in the 106th Congress) that will have the 
effect of making schools ``pest-proof'' their buildings and thus reduce 
their reliance on the routine use of highly toxic chemicals.
    5. Fund school repairs and construction, directing a Federal grant 
program at high needs schools; and, offer tax credits to subsidize the 
interest on school construction bonds used for repairs, renovations, 
and new construction.
    Special Thanks/Acknowledgements: Alliance to End Childhood Lead 
Poisoning; American Lung Association; Beyond Pesticides; Children's 
Environmental Health Network; Healthy Kids: The Key to Basics; PNew 
Civic Works; New York State Board of Regents Report of the Advisory 
Committee on School Environmental Quality; Rebuild American's Schools 
and, Healthy Schools Network research and publications on IAQ, 
Cleaning, Molds, Renovations, Daylighting, Access to Decision-Making, 
Survey of NYS School Nurses, NYC School Conditions; Schools of Ground 
Zero: Early Lessons Learned in Children's Environmental Health, APHA 
and HSN, 2002

                               __________
        Statement of Alex Wilson, President, BuildingGreen, Inc.

    Mr. Chairman and members of the committee, my name is Alex Wilson. 
I am very honored and pleased to have this opportunity to address the 
issue of high-performance or ``green'' schools before this committee.
    I am president of BuildingGreen, Inc., a small company in 
Brattleboro that is recognized as one of the leading national providers 
of information on environmentally responsible design and construction. 
My company publishes Environmental Building News, which is read by over 
10,000 architects and other building professionals nationally and 
internationally.
    I also serve on the boards of the U.S. Green Building Council and 
the Sustainable Buildings Industry Council, both here in Washington and 
both involved in efforts to advance the implementation of energy-
efficient, environmentally responsible buildings. I am pleased to 
report that the membership of the U.S. Green Building Council, which 
has been growing by 100 percent per year for the past 5 years, has just 
surpassed 2,000 companies, and the Leadership in Energy and 
Environmental Design (LEED) building rating program the organization 
runs is quickly becoming the most important driver of green design in 
the country.
    The Sustainable Buildings Industry Council (SBIC) has been 
particularly active in advancing high-performance schools nationwide. 
Senator Bonds may be interested to learn that SBIC is today leading a 
workshop on high-performance buildings in St. Louis.
    My hope here is to provide a quick overview of what a high-
performance school is, address the benefits of these schools, describe 
a few examples, and provide recommendations as to how the Federal 
Government can support the implementation of high-performance school 
design, construction, and operation.
What is a High-Performance School?
    The Collaborative for High Performance Schools in California 
defines high-performance schools as ``facilities that improve the 
learning environment while saving energy resources and money.'' \1\ The 
Sustainable Buildings Industry Council (SBIC) describes a high-
performance school as having three key characteristics: \2\
---------------------------------------------------------------------------
    \1\ Best Practices Manual, Volume I--Planning, the Collaborative 
for High Performance Schools, 2001.
    \2\ High Performance School Buildings: Resource and Strategy Guide, 
Sustainable Buildings Industry Council, Washington, DC, 2001.
---------------------------------------------------------------------------
    1. It is healthy and productive for students and teachers, in that 
it provides:
    <bullet> High levels of acoustic, thermal, and visual comfort;
    <bullet> Significant amounts of natural daylighting;
    <bullet> Superior indoor air quality; and
    <bullet> A safe and secure environment.
    2. It is cost-effective to operate and maintain, because its design 
employs:
    <bullet> Energy analysis tools that optimize energy performance;
    <bullet> A life-cycle cost approach that reduces the total costs of 
ownership; and
    <bullet> A commissioning process to ensure that the facility will 
operate in a manner consistent with design intent.
    3. It is sustainable, because it integrates:
    <bullet> Energy conservation and renewable energy strategies;
    <bullet> High-performance mechanical and lighting systems;
    <bullet> Environmentally responsive site planning;
    <bullet> Environmentally preferable materials and products; and
    <bullet> Water-efficient design.
    Organizations seeking to advance high-performance schools all 
emphasize an integrated, whole-building approach to the design process. 
This means that the different elements--building envelope, lighting, 
mechanical systems, etc.--must be considered holistically, from the 
beginning of the design process through construction and operation of 
the building.
    This is quite different from the design process used in creating 
most non-residential buildings. The conventional design process is like 
a relay race, in which the architect designs the basic building and 
passes the baton to the mechanical engineer. The mechanical engineer 
designs the mechanical systems needed to maintain comfort, then passes 
the baton on to the lighting designer, and so on. With integrated 
design, all members of the design team meet periodically throughout the 
planning and design process. Synergies are identified--for example, 
recognition that if better glazings and energy-efficient lighting 
systems are installed, the air conditioning system (chiller) can be 
downsized. Identifying these opportunities becomes possible only 
through a collaborative, or integrated design process.
    The other key aspect of a high-performance school is that it is the 
product of well-thought-out goal-setting on the part of the school 
district and the design team.
    I am currently the environmental consultant on a complex school 
project in Brattleboro, VT. This is the largest school construction 
project ever undertaken in Vermont, involving three schools serving 
1,600 students. With a $57 million budget, the project will involve 
184,000 square feet of renovation and 126,000 square feet of new 
construction over a 4-year construction phase. Listed below are several 
of the sustainability goals identified by the design team at the 
beginning of the design process: \3\
---------------------------------------------------------------------------
    \3\ BUHS/BAMS/SVCEC--Renovations & Additions: Project Feasibility 
Report, Truex Cullins & Partners, May, 2002.
---------------------------------------------------------------------------
    <bullet> Exceed ASHRAE 90.1 (1999) energy performance levels by at 
least 20 percent
    <bullet> Reduce total greenhouse gas emissions for the building 
complex by 50 percent, despite a 45 percent increase in total square 
footage (much of this to be met by a wood-chip-fired distributed 
heating system);
    <bullet> Achieve significant daylighting (2 percent daylight 
factor) in 60 percent of classrooms;
    <bullet> Generate no net increase in stormwater runoff from the 
site, despite a significant increase in impervious surfaces;
    <bullet> Reduce per-square-foot water consumption by 40 percent;
    <bullet> Reduce student, teacher, and staff absenteeism by at least 
10 percent compared to prior 3 years by improving indoor air quality;
    <bullet> Provide recycling and composting facilities that can 
achieve an 80 percent recovery for solid waste generated by the school; 
and
    <bullet> Achieve a building that would earn a LEED Silver rating.

                  BENEFITS OF HIGH-PERFORMANCE SCHOOLS

    The benefits of a high-performance school accrue to students, 
teachers, taxpayers or other supporters of a facility, and the local, 
regional, and global environment. Eight primary benefits are described 
below:

1. Improved Student Performance
    While data is still limited, there is growing evidence that a 
school's physical condition--especially its lighting and indoor air 
quality (IAQ)--can have a direct impact on student performance. The 
most comprehensive study to date, conducted in school districts in 
California, Washington, and Colorado, examined the causal relationship 
between natural daylighting and student performance. In the California 
district studied, students in classrooms with the most daylight 
progressed 20 percent faster on math tests and 26 percent faster on 
reading tests over the course of 1 year compared to students in 
classrooms with the least daylighting.\4\ An earlier, less scientific 
study in North Carolina produced similar findings.
---------------------------------------------------------------------------
    \4\ ``Daylighting in Schools: An Investigation into the 
Relationship Between Daylighting and Human Performance,'' by the 
Heschong Mahone Group for Pacific Gas & Electric, August, 1999. A 
follow-up Re-Analysis Report released in February, 2002 responded to 
technical questions that had been raised by reviewers and verified the 
original results. Reports available at www.h-m-g.com and 
www.newbuildings.org/PIER.
---------------------------------------------------------------------------
    Benefits don't only accrue to new, well-funded schools. Here in 
Washington, DC, the renovation of the run-down Charles Young Elementary 
School, completed in 1997, resulted in dramatic improvements in math 
and reading test scores. Prior to the restoration, almost half of the 
students scored in the lowest quartile on standardized tests (49 
percent in math and 41 percent in reading); after the renovation, those 
percentages dropped to 24 percent and 25 percent, respectively.\5\
---------------------------------------------------------------------------
    \5\ ``Healthy School Environment and Enhanced Educational 
Performance: The Case of Charles Young Elementary School, Washington, 
DC,'' by Dr. Michael A. Barry, prepared for the Carpet and Rug 
Institute, January, 2002.
---------------------------------------------------------------------------
    These studies confirm what teachers, students, and parents have 
known anecdotally for years: a better facility--one with good 
acoustics, lighting, indoor air quality, and other high performance 
features--will enhance learning.

2. Increased Average Daily Attendance
    A high-performance school provides superior indoor air quality by 
controlling sources of contaminants, providing adequate ventilation, 
and preventing moisture accumulation. Through these strategies, 
pollutants are kept out of classrooms, stale air is eliminated, and 
mold growth is inhibited--all of which will keep students healthier and 
reduce absenteeism, especially among those suffering from respiratory 
problems. Indoor environments are believed to be a major causal factor 
of asthma, which is mushrooming in significance and now affects 
approximately one out of eight children in America.\6\ In some States, 
such as California, a school's operating budget is dependent on the 
average daily attendance, so an increase in attendance boosts the 
operating budget. The renovation of the Charles Young Elementary School 
resulted in an increase in student attendance from 89 percent to 93 
percent.\7\ The U.S. Environmental Protection Agency (EPA) has a useful 
summary of studies addressing indoor air quality and student health.\8\
---------------------------------------------------------------------------
    \6\ 1999 data from the American Lung Association showing an 
incidence of 121.8 asthma cases per 1,000 among people aged five to 17. 
This age group has the highest incidence rate of asthma, well above the 
average for all people (90.0 cases per 1,000). ``Trends in Asthma 
Morbidity and Mortality,'' American Lung Association, Epidemiology and 
Statistics Unit, February, 2002.
    \7\ ``Healthy School Environment and Enhanced Educational 
Performance: The Case of Charles Young Elementary School, Washington, 
DC,'' by Dr. Michael A. Barry, prepared for the Carpet and Rug 
Institute, January, 2002.
    \8\ EPA Office of Indoor Air Quality, http://www.epa.gov/iaq/
schools/perform.html.
---------------------------------------------------------------------------
3. Increased Staff Satisfaction and Retention
    High-performance schools are designed to be pleasant places to 
work. They are visually and thermally comfortable, incorporate good 
acoustics to minimize distraction, and provide indoor air that is fresh 
and clean. Such environments become positive factors in recruiting and 
retaining teachers and in improving overall teacher satisfaction.

4. Reduced Operating Costs
    K-12 schools in the U.S. spend approximately $6 billion dollars per 
year on energy--this is more than they spend on computers and textbooks 
combined.\9\ High-performance schools are designed--using life-cycle 
costing methods--to minimize long-term costs of operation. They use 
significantly less energy and water than conventional schools and are 
designed to be easier to maintain. Many high-performance schools built 
over the past several years are realizing energy savings of 40 percent 
or more. A school in Iowa is even using windmills to generate more 
power than it uses and will soon be supplementing its operating budget 
with this revenue stream! The benefits of reduced operating costs in 
high-performance schools will continue throughout the life of the 
buildings.
---------------------------------------------------------------------------
    \9\ Alliance to Save Energy, www.ase.org.
---------------------------------------------------------------------------
5. Reduced Liability Exposure
    Because high-performance schools are healthy, they reduce a school 
district's liability exposure over health-related lawsuits. In the past 
few years, a number of highly publicized school closings, such as that 
of the McKinnely School in Fairfield, Connecticut, have occurred due to 
mold problems. The high cost of remediation in schools with IAQ 
problems (often a quarter-million dollars in a school) are reason alone 
to do it right the first time. While we still have a lot to learn about 
such building science issues as mold and moisture control, high-
performance schools are generally designed with much greater attention 
to these issues than conventional schools.

6. Reduced Environmental Impacts
    High-performance schools are designed to have low environmental 
impact. They use energy and water efficiently. They use durable, 
nontoxic materials that are high in recycled content and can themselves 
be recycled. Attention is paid to protecting wetlands and natural areas 
on the school grounds, and efforts are made to allow stormwater to 
infiltrate into the ground, replenishing groundwater, rather than being 
carried offsite in storm sewers. Many of these schools are being built 
to use non-polluting, renewable energy systems to the greatest extent 
possible. Wastes are minimized or recycled during construction. And the 
schools are designed to facilitate recycling of waste during operation. 
Through measures such as these, high-performance schools are good 
environmental citizens.

7. Using the School as a Teaching Tool
    Schools are places of learning, and many of the technologies and 
techniques used to create high-performance schools can also be used as 
teaching tools. Renewable energy systems--solar, wind, and biomass--are 
ideal hands-on demonstrations of scientific principles. Mechanical and 
lighting equipment and controls can illustrate lessons on energy use 
and conservation. Daylighting systems can help students understand the 
daily and yearly movements of the sun. Wetlands and other natural 
features on a school grounds can be used as outdoor laboratories.
    The Alliance to Save Energy, of which Senator Jeffords is vice-
chair, has offered since 1996 a tremendous program encouraging energy 
savings in existing buildings. Their Green Schools Program gets 
students involved with assessing energy issues in their schools, 
implementing changes, and monitoring the results.\10\ Through this 
program, schools in Pennsylvania, New York, and Washington saved an 
average of $7,700 per year on energy bills (10-15 percent) with no 
expenditure.
---------------------------------------------------------------------------
    \10\ Alliance to Save Energy, www.ase.org/greenschools.
---------------------------------------------------------------------------
8. Schools as Disaster Shelters
    Schools often play a role in a community's disaster planning--
serving as storm shelters, central collection points during 
evacuations, or emergency housing during extended power outages. High-
performance school buildings built to incorporate natural daylighting, 
highly energy-efficient envelope systems, and renewable power 
generation can function far better during power outages than 
conventional buildings.

                HIGH-PERFORMANCE SCHOOLS: A FEW EXAMPLES

    Described below are a few high-performance schools in operation (or 
nearing completion) around the country.

Boscawen Elementary School, New Hampshire
    Completed in 1996 and located just north of Concord, this 
elementary school was designed with a special focus on indoor air 
quality. The school it replaced was so crowded that some classes were 
held in hallways and the air so bad that people were regularly getting 
sick; the school was even evacuated once due to foul odors. Designed by 
the H.L. Turner Group, the 48,000 square-foot school for 400 students 
was the first in the U.S. to be designed to provide 100 percent fresh 
air to the building using a ``displacement ventilation'' system, 
controlled by carbon dioxide monitors. Ventilation air flows upward 
through the classrooms and better air quality is provided with less 
than half the typical ventilation rates in schools (and much lower fan 
energy). An energy-efficient building shell is combined with extensive 
daylighting, energy-efficient electric lighting, and low-VOC materials. 
An integrated, whole-building design process was used, and, remarkably, 
construction costs for the building were only $65 per square foot in 
1996 dollars (exclusive of site costs).

Edgerly Early Childhood Development Center, Somerville, Massachusetts
    Designed by HMFH Architects, Inc. and currently under construction, 
the 80,000 square-foot Edgerly Center will serve 560 pre-kindergarten 
through first-grade children in this city outside Boston. Somerville is 
the most densely populated city in New England, so carving out a site 
for the school was difficult. The need to share functions with a 
neighborhood park led to other green considerations for the school. A 
wide range of energy-saving and sustainability features were included 
in the design, such as extensive daylighting, high-performance 
glazings, high insulation levels around the entire envelope, superb 
acoustical isolation, and low-VOC and natural building materials. With 
funding from the Massachusetts Green School Pilot Program, a fairly 
large (25-32 kW) photovoltaic (solar electricity) system will be 
installed on the school, and a small (400 W) wind turbine will be 
erected in the community garden at the school. The energy features are 
projected to reduce energy consumption by 31 percent, compared with a 
conventional new school. Total cost of the school is expected to be 
$152/square foot.

Clearview Elementary School, Hannover, Pennsylvania
    Due to be completed this fall, Clearview Elementary School was one 
of five buildings nationwide selected to represent the United States at 
the International Green Building Challenge, held last week in Oslo, 
Norway. This 44,000 square-foot, two-story school, designed by Kimball 
Architects of Harrisburg, Pennsylvania, is designed to achieve a 40 
percent savings in energy and 30 percent savings in water, compared 
with a standard school. Among green design strategies employed in the 
building are daylighting, a high-performance envelope (high insulation 
levels and advanced glazings), a ground-source heat pump system, an 
access-floor system for conditioned air supply, demand-controlled 
ventilation (with carbon dioxide sensors), extensive use of recycled-
content building materials, and use of low-VOC paints and other 
products. Total construction costs were $133 per square foot, exclusive 
of site work and design fees. The building is expected to achieve a 
LEED Silver rating.

Dalles Middle School, Oregon
    This 96,000 square-foot school serving 600 middle-school students 
80 miles east of Portland opened in September, 2002. Designed by BOORA 
Architects of Portland and built for $12.5 million, the school features 
a sophisticated daylighting system with light shelves and light tubes 
to bring natural light deep into the school interior. The school makes 
superb use of an unusual resource: groundwater pumped from a nearby 
hillside to reduce landslide risk. This 58- to 60-degree water is used 
in a ground-source heat pump that provides both heating and cooling for 
the school. Natural ventilation is used whenever outside temperatures 
permit, and a wide variety of recycled-content, locally sourced, and 
nontoxic building materials were used. Overall savings in annual energy 
consumption are projected to be 46 percent, compared with a 
conventional school. The school was built for $105 per square foot, 
excluding site work.

Ross Middle School, Ross, California
    The original Ross School was built in 1941 and a series of six, 
fairly haphazard additions had been added over the years to expand 
capacity. In Phase I of the most recent effort, designed by EHDD 
Architects and completed in 2000, five existing middle-school 
classrooms were replaced with nine new classrooms and support 
facilities on two floors. This addition is heavily daylit. Comfort is 
maintained using natural ventilation rather than an air conditioning 
system, saving $200,000 on mechanical equipment (these savings paid for 
all of the other green features). Considerable attention was paid to 
material selection to avoid IAQ problems and make use of recycled-
content and sustainably sourced materials. For example, 90 percent of 
all wood used in the building was certified as sustainably harvested, 
and arsenic-treated wood was avoided in favor of safer pressure-treated 
wood.

McKinney Elementary School, Texas
    Located near Dallas, Texas and designed by the SHW Group in Dallas, 
the priorities of this school were quite different from those mentioned 
above. Because water was a very significant issue, an extensive 
rainwater harvesting system using the school's roof was designed to 
provide water for outdoor irrigation. Completed in 2000, the 70,000 
square-foot building uses extensive daylighting throughout. Energy-
conserving electric lighting technologies are used, native landscaping 
is emphasized, and a great deal of attention was paid to selection of 
green building materials. Another key feature at the McKinney School 
was attention to how building features and elements could be used as 
teaching tools. The school was named one of the AIA Committee on the 
Environment Top Ten green buildings for 1999.

Durant Road Middle School, Raleigh, North Carolina
    The 149,000 square foot school for 1,300 students was completed in 
1995 as one of the first examples of a heavily daylit, ``green'' 
school. Some of the daylighting strategies used in this school have 
been adopted in schools across the country. Designed by Innovative 
Design, the school is realizing annual savings in energy for lighting, 
cooling, heating, and ventilation of 50-60 percent. Construction costs 
came in at $3.6 million under-budget!

                            RECOMMENDATIONS

    The movement to create high-performance, green schools is moving 
along at a healthy pace. The U.S. Green Building Council, for example, 
has 32 K-12 schools registered for certification under the LEED rating 
program.\11\ These schools are located in 14 States and represent 
approximately 4.5 million square feet of floor space. However, compared 
with the magnitude of school construction occurring today, this is just 
a drop in the bucket.
---------------------------------------------------------------------------
    \11\ U.S. Green Building Council, LEED Building Registration List, 
23 September, 2002.
---------------------------------------------------------------------------
    American School & University reports in its 28th Annual Official 
Education Construction Report that $26.7 billion in K-12 school 
construction was completed in 2001.\12\ This was split between new 
construction (42 percent), additions (16 percent), and modernizations 
(42 percent). During the period 2002 through 2004, total K-12 school 
construction is expected to total $108 billion. Nationwide, a total of 
6,000 new schools are expected to be built by 2007.\13\
---------------------------------------------------------------------------
    \12\ ``28th Annual Official Education Construction report,'' 
American School & University, May 2002; www.asumag.com.
    \13\ High Performance School Buildings: Resource and Strategy 
Guide, Sustainable Buildings Industry Council, Washington, DC, 2001.
---------------------------------------------------------------------------
    Clearly, a lot of school design and construction is occurring. Each 
new building will be occupied, hopefully, for 50 to 100 years. For the 
vast majority of them, very little if anything is being done to ensure 
that they will be high-performance.
    While not by any means a comprehensive list, the following are 
offered as initial recommendations of how the Federal Government could 
support the creation of high-performance schools. These recommendations 
are grouped into several areas.

                                RESEARCH

    <bullet> Support carefully designed, scientifically based studies 
to measure the effect of high performance schools on attributes such as 
academic performance, absenteeism, teacher satisfaction and retention, 
and operating costs of school buildings (including energy, water, 
maintenance, and repairs).
    <bullet> Support building science research to learn more about the 
causal factors of indoor air quality and moisture problems in 
buildings. One aspect of this could be the development of a protocol 
for evaluating what the long-term moisture performance (i.e., mold 
risk) of a building is likely to be based on its design.
    <bullet> Support research on IAQ remediation, particularly mold 
problems, in buildings.
    <bullet> Support research into advanced mechanical and electrical 
``packages'' that could greatly improve school design and simplify 
their integration into high-performance buildings. Such systems could 
include displacement air delivery systems and lighting control systems. 
Until integrated packages are developed that are pre-engineered and 
perhaps even pre-manufactured, implementing leading-edge HVAC and 
lighting systems with require expensive custom engineering. Efforts to 
encourage manufacturers to invest in the development of such packaged 
HVAC and lighting systems could be structured like the ``Golden 
Carrot'' awards for high-efficiency refrigerators several years ago.
    <bullet> Support prototype development of high-performance portable 
(relocatable) classrooms. In some States a high proportion of K-12 
students are housed in portable classrooms--one-third of students in 
California, for example. Portable classrooms today often have poor 
indoor air quality, low energy performance, and poor acoustic 
performance.
    <bullet> Support the development of improved daylighting design 
tools. According to some architects, the lack of a plug-in module for 
DOE-2 to accurately model the energy impacts of daylighting is a 
significant obstacle.\14\ Rather than funding development of an end-
user tool, Federal support should go into the building blocks of such 
simulation tools, such as the calculation engine and data sets. 
Creating design tools that use those components should probably remain 
the purview of the private sector.
---------------------------------------------------------------------------
    \14\ Personal communication with Mike Nicklas, FAIA, of Innovative 
Design, a North Carolina firm well-known for designing daylit schools.
---------------------------------------------------------------------------
    <bullet> Support the development of national protocols for 
quantifying hazardous emissions from building materials.

                   EDUCATION AND TECHNOLOGY TRANSFER

    <bullet> Fund the dissemination of planning guides, design manuals, 
general information resources for the lay public, and other resources 
to assist in the creation of high-performance schools on a State and 
local level. While a few States, such as California, Oregon, 
Pennsylvania, and Massachusetts, already have effective state-wide 
programs in place to promote high-performance schools, most States do 
not. Excellent resources on high-performance schools are already 
available--from the Sustainable Buildings Industry Council, the 
California High Performance Schools Program, EPA, and DOE (especially 
the EnergySmart Schools Program). Support is needed to effectively 
disseminate these materials through State education departments.
    <bullet> Fund educational workshops, seminars, and other training 
programs on high-performance school design and construction.
    <bullet> Fund the compilation and Internet posting of information 
on leading examples of high-performance schools. The DOE High 
Performance Buildings Program maintains a data base of high-performance 
buildings, and includes a category for K-12 schools.\15\
---------------------------------------------------------------------------
    \15\ See http: // www.eren.doe.gov / buildings / highperformance / 
case--studies/.
---------------------------------------------------------------------------
    <bullet> Fund the creation of regional videos about high-
performance schools that can serve to educate school boards and 
communities about the benefits of such practices. The State of 
Pennsylvania has just produced a superb half-hour program.\16\
---------------------------------------------------------------------------
    \16\ ``Better Places to Learn: Building Green Schools in 
Pennsylvania,'' Governor's Green Government Council, 
www.gggc.state.pa.us.
---------------------------------------------------------------------------
       SUPPORT OF HIGH-PERFORMANCE SCHOOL DESIGN AND CONSTRUCTION

    <bullet> Provide flow-through (block grant) funding to State 
education departments to pay for computer modeling during the design of 
high-performance schools and commissioning \17\ of schools prior to 
occupancy. Energy modeling and commissioning are two critical steps in 
the creation of high-performance schools, but they are expenses that 
are often seen as expendable. Computer modeling for a moderate-sized 
school may cost $10,000 to $15,000 and commissioning can cost from \1/
2\ to 1\1/2\ percent of the total construction budget. The Healthy and 
High Performance Schools component of the 2001 Education Bill provides 
a mechanism for this, but additional funding is required for that 
effort to reach its potential.
---------------------------------------------------------------------------
    \17\ Commissioning is a quality-assurance step that can be taken 
prior to occupancy to ensure that building systems are performing as 
they were designed. If commissioning identifies problems with the 
construction of the building, it may be possible to have corrective 
measures taken at no cost to the school district.
---------------------------------------------------------------------------
 SUPPORT OF A COLLABORATIVE EFFORT TO ADVANCE HIGH-PERFORMANCE SCHOOLS

    <bullet> Fund the development of a LEED for Schools Application 
Manual. This could be a collaborative effort among the U.S. Green 
Building Council, the California High Performance Schools Program, the 
Sustainable Buildings Industry Council, and perhaps other 
organizations. The LEED program provides a third-party mechanism for 
certifying the ``greenness'' of buildings. This third-party 
verification is very important in ensuring that the best of intentions 
on the part of a school board or community are really turned into the 
best building.

                                SUMMARY

    More than any other type of building, schools are an investment in 
our country's future. We are in a period of dramatic growth in the 
number of schools, and that offers a tremendous opportunity to improve 
these places of learning even as we significantly reduce their use of 
energy and other resources. We know how to do that. Dozens of high-
performance schools have been being built over the past few years and 
many more are on the drawing boards. But for high-performance features 
to be incorporated into all schools, we need to identify key leverage 
points and assist at these points. Integrated, whole-systems design is 
the mechanism to do that, and the Federal Government can do a great 
deal to make that available to school systems nationwide.
    I thank you, Senator Jeffords and committee members, for this 
opportunity to address these issues today. I look forward to following 
the high-performance schools agenda and would be glad to follow up on 
any of these ideas with committee staff. I am sure that the two 
organizations I represent, the U.S. Green Building Council and the 
Sustainable Buildings Industry Council, would also be happy to provide 
additional information at any time.

                               __________
 Statement of Lois Marie Gibbs, Executive Director, Center For Health 
                        Environment and Justice

    Thank you for this opportunity to speak with you on an issue that 
has concerned me for over 20 years. You may be familiar with my 
involvement in Love Canal, which led to my being termed the ``Mother of 
Superfund,'' the Federal Superfund law. What you may not know is that 
the struggle to relocate the residents of Love Canal began with my 
concern over the health hazards faced by children at the 99th street 
elementary school. The school was built on the perimeter of a toxic 
waste site and the students, which included my son, were in danger.
    Children are powerless against many dangers in school and out, and 
they look to adults for protection. However, decisions that adults make 
frequently endanger our nation's children. New schools are being built 
on or near chemically contaminated land or near industrial facilities 
that release toxic emissions that contaminate the air children breathe, 
the water they drink and play in and the soil they play in.
    There is growing evidence that these chemical exposures--these 
invisible threats--diminish our children's health and intellectual 
abilities. Research has revealed increasing numbers of children 
afflicted with asthma, cancers, lower IQs, and learning disabilities, 
which impede their ability to develop to their full potential. From 
birth, children are exposed to toxic chemicals in many ways. Public 
schools when built on or near contaminated land are a potential source 
of chemical exposure.
    While laws compel children to attend school, there are--
astoundingly--no guidelines or laws in place that compel school 
districts to locate school buildings on property that will protect the 
school population from environmental health and safety risks. 
California is the only State that has some regulations and an 
assessment process for the building of new schools. Consequently, 
parents are forced to send their children to some schools that pose a 
threat to their children's health and ability to learn.
    CHEJ has received numerous inquiries from parents who either:
    <bullet> were concerned about an existing school where there was a 
higher than expected number of students with cancer or other diseases;
    <bullet> found toxic chemicals in the soil of a school campus;
    <bullet> or were concerned about the construction of a new school 
on contaminated lands.
    In response to these requests, CHEJ decided to bring these parents 
together to explore the depth of the problem (See attached list of 
community school contamination situations.). Additionally, we began to 
undertake research to identify laws that govern such situations. We 
were stunned to find that there were no laws governing the siting of a 
school with the exception of California. In fact, we found that there 
were strict laws and regulations around the construction of homes and 
commercial buildings but not schools. This raised two fundamental 
questions for leadership.
    1. How many schools are located on or near chemical waste sites or 
other contaminated sites today?
    2. Is there a need for national or statewide legislation that would 
prohibit building a school on contaminated property or set cleanup 
guidelines when there is no alternative but to use contaminated 
property?
    To answer these questions, we looked at the location of public 
schools in five States and overlaid the location of known Federal and 
State identified contaminated sites. In January we released the results 
in the Child Proofing Our Communities Campaign's School Siting 
Committee report Creating Safe Learning Zones. In this report, the 
campaign revealed that 1,195 schools are located within one half mile 
of a known toxic site in these five States affecting an estimated 
population of over 620,000 students.

  Table 1: Number of Public Schools and Students Attending Classes Within a Half-Mile of a Superfund or State-
                                          Identified Contaminated Site
----------------------------------------------------------------------------------------------------------------
                                                                           Estimated
                 State                     Number of       Number of       Number of     Lists Used to Identify
                                            Schools        Counties        Students            Toxic Sites
----------------------------------------------------------------------------------------------------------------
California............................              43              11          32,865  Superfund only.
Massachusetts.........................             818              13         407,229  Superfund & State.
Michigan..............................              64              27          20,999  Superfund & State.
New Jersey............................              36              11          18,200  Superfund only.
New York..............................             235              39         142,738  Superfund & State.
                                       -------------------------------------------------------------------------
    Total.............................           1,196             100         622,031
----------------------------------------------------------------------------------------------------------------

    Based on the report's findings, we believe there is a critical need 
for national laws ensuring that the locations for new schools are safe 
and that, if contaminated property is considered, it is properly 
cleaned up. The campaign has developed model school siting legislation 
to promote laws and policies (covering both public and private primary 
and secondary schools) that protect children's health. Additionally, 
with the proposal of building over 2,400 new schools in 2003-2005 there 
is an immediate need to define criteria and appropriate funds to ensure 
that new schools are designed and built to protect children's health.
    The following are model school siting guidelines that the Child 
Proofing Our Communities campaign recommends be considered as part of 
legislation written to ensure the safety of the school population. This 
model draws upon existing California legislation (AB 387 and SB 162, 
1999) that mandates the California Department of Toxic Substances 
Control (CDTSC) to perform Preliminary Endangerment Assessment's 
(PEA's) on proposed school sites.

           1. THE ESTABLISHMENT OF A SCHOOL SITING COMMITTEE

    The public body responsible for siting new schools is usually the 
local school board or a school district committee. This group should 
establish a school siting committee whose job is to recommend to the 
public body sites for building new schools and/or expanding existing 
schools. The committee should include representatives of the public 
body as well as representatives from the following stakeholders: 
parents, teachers, school health nurse or director, officials from 
local health departments, community members, local public health 
professionals, environmental advocacy groups, and age-appropriate 
students. Only public bodies who have appointed school siting 
committees representing such stakeholders should be eligible to receive 
Federal money for the assessment and cleanup of school sites or the 
construction of new schools.

                         2. PUBLIC INVOLVEMENT

    The public body (the school board or school district committee) 
should notify parents, school staff, members of the local community, 
and ``feeder'' school parents of the new school's students of plans to 
build a new school and solicit their participation in writing and at 
public meetings. This outreach effort should include prominent 
placement of public notices and feature articles about the proposed 
plan in commonly read newspapers or local magazines. A notice shall be 
posted in a conspicuous place in every school within the public body's 
jurisdiction (in multiple languages if there's a significant number of 
non-English speaking parents). A copy shall also be delivered to each 
parent-teacher organization within the jurisdiction, each labor union 
covered by a collective bargaining agreement signed by the public body, 
and each landowner within 1,000 feet of the proposed site. This effort 
can also be used to recruit participants for candidates for the school 
siting committee.

               3. CATEGORICAL EXCLUSIONS FOR SCHOOL SITES

    Under no circumstances should a school be built on top of or within 
1,000 feet of a site where hazardous or garbage waste was landfilled, 
or where disposal of construction and demolition materials occurred. To 
determine whether the proposed school site has been used for these 
purposes, an initial Environmental Assessment should be undertaken, 
and, if necessary, a more extensive Preliminary Endangerment 
Assessment. If either evaluation reveals that the site has been used 
for these purposes, or if the site is within 1,000 feet of any property 
used for these purposes, the site must be abandoned.

                    4. PROCESS FOR EVALUATING SITES

    The public body shall not proceed to acquire a site or prepare a 
site for construction of any school, including the expansion of an 
existing school, until the public body completes the required 
environmental evaluations and the State environmental regulatory agency 
approves the initial Environmental Assessment. Based on the results of 

this initial assessment, a more extensive investigation, a Preliminary 
Endangerment Assessment, may be required. Based on the results of the 
PEA, a Site Remediation Plan may also be necessary.
A. Initial Environmental Assessment
    Once a site is proposed, the school board/district committee must 
hire a licensed environmental assessor to conduct a three-part 
environmental assessment that is designed to collect information on 
current and past site uses and to conduct initial environmental 
sampling at the site. This assessment shall include:
    Part I: A site history by reviewing public and private records of 
current and past land uses; historical aerial photographs; 
environmental data bases; Federal, State and local regulatory agencies' 
files; a site visit; and interviews with persons familiar with the 
site's history.
    Part II: A small-scale grid sampling and analysis of soil, soil 
gases (if any) and groundwater. Air should be sampled if stationary or 
mobile sources of air pollution are near the proposed site, potentially 
exposing children to higher levels of pollution than found in their own 
communities. Any surface water should also be sampled.
    Part III: Identifying any environmental hazards within two miles of 
the site, including industrial sites, chemical storage facilities, 
facilities found in EPA's Toxic Release Inventory (TRI), waste 
treatment plants, landfills, military sites, research facilities, and 
Department of Energy sites.
    If the Initial Environmental Assessment concludes that the site was 
previously used for hazardous or garbage waste disposal, or for 
disposal of construction and demolition materials, or if it is within 
1,000 feet of any property used for these purposes, the site must be 
abandoned.
    If some contamination is discovered, the levels found should be 
compared to a list of cleanup guidelines developed by the New York 
State Department of Environmental Conservation (see table 2 and 
discussion below). If contaminant levels exceed any of these values, a 
more extensive site assessment--a Preliminary Endangerment Assessment 
(PEA)--is necessary.
    A Preliminary Endangerment Assessment would also be necessary if 
the Initial Environmental Assessment found that the proposed school 
site lies within 1,000 feet of one of the following potential sources 
of contamination:
    <bullet> A suspected hazardous, industrial, or municipal waste 
disposal site
    <bullet> Refineries, mines, scrap yards, factories, dry cleaning, 
chemical spills, and other contaminants
    <bullet> Agricultural land
    <bullet> Dust generators such as fertilizer, cement plants, or saw 
mills
    <bullet> Leaked gasoline or other products from underground storage 
tanks
    <bullet> Concentrated electrical magnetic fields from high 
intensity power lines and communication towers
    <bullet> Areas of high concentrations of vehicular traffic such as 
freeways, highways
    <bullet> Industrial plants and facilities
    <bullet> An USEPA or State designated Brownfield site
    <bullet> A railroad bed
    <bullet> An industry listed in EPA Toxic Release Inventory (TRI)
    If no environmental hazards were identified at the property then 
the property would be considered suitable for school site development.
    The State environmental regulatory agency must review the final 
draft of the Initial Environmental Assessment. Depending on the 
thoroughness of the assessment, the State agency would either give 
preliminary approval to the assessment, disapprove the assessment, or 
request more information.
    When the final draft of the Initial Environmental Assessment is 
complete and has received preliminary approval by the State 
environmental regulatory agency, the public body shall publish a notice 
in newspapers of general circulation (including foreign language 
newspapers if the school district has a sizable number of non-English 
speaking parents) that includes the following information:
    A statement that an initial Environmental Assessment of the site 
has been completed; a brief statement describing the results of the 
assessment such as a list of contaminants found in excess of regulatory 
standards; prior uses of site that might raise health and safety 
issues; proximity of site to environmental hazards (waste disposal 
sites, point sources of air pollution, etc.); a brief summary of the 
conclusions of the initial Environmental Assessment; the location where 
people can review a copy of the assessment or an executive summary 
written in the appropriate foreign language; and an announcement of a 
thirty-day public comment period including an address where public 
comments should be sent.
    A copy of this notice shall also be posted in a conspicuous place 
in every school within the public body's jurisdiction (in multiple 
languages if there is a significant number of non-English speaking 
parents). A copy shall also be delivered to each parent-teacher 
organization within the jurisdiction, each labor union covered by a 
collective bargaining agreement signed by the public body, and each 
landowner within 1,000 feet of the proposed site.
    The State environmental regulatory agency will review all comments 
received on the Initial Environmental Assessment. This agency will then 
accept or reject the conclusion of the assessment, determine whether 
the site can be used without further remediation or study, whether the 
site is categorically excluded for use as a school, or whether further 
study or remediation of the site (i.e., a Preliminary Endangerment 
Assessment) is required. The State environmental agency shall explain 
in detail the reasons for accepting or rejecting the assessment.
    After the State environmental agency has approved the Initial 
Environmental Assessment, the local School Siting Committee must also 
review the assessment and public comments received. The purpose of this 
review is for the School Siting Committee to make a recommendation to 
either abandon the site or continue evaluating the environmental 
hazards at the site with a Preliminary Endangerment Assessment or PEA.
    If a PEA is required, the School Siting Committee should recommend 
to the public body whether to abandon the site or proceed with a PEA. 
Alternative sites should be considered at this point. Then, the public 
body must vote whether to abandon the site or proceed with a PEA.

B. Preliminary Endangerment Assessment
    A Preliminary Endangerment Assessment (PEA) is an in depth 
assessment of the environmental contamination present at a site. A 
licensed environmental assessor must do this assessment. The State 
environmental regulatory agency shall oversee the PEA process and issue 
regulations that prescribe the precise contents of the PEA. A model for 
such regulations can be found in California, where the PEA must meet 
the California Department of Toxic Substances Control Preliminary 
Environmental Assessment Guidance Manual requirements (CEPA, 1994). The 
PEA must also be approved by the State environmental regulatory agency.
    Before any work is done on the PEA, the public body must develop a 
public participation plan that ensures public and community involvement 
in the PEA process. The plan shall indicate what mechanisms the public 
body will use to establish open lines of communication with the public 
about the use of the site as a school. Activities such as public 
meetings, workshops or fact-sheets may be appropriate ways to notify 
the public about the proposed PEA investigation activities (such as the 
taking of soil, groundwater and air samples) and schedules. The State 
environmental regulatory agency must approve the public participation 
plan before the public body can commence other PEA-related activities.
    The primary objective of the PEA is to determine if there has been 
a release or if there is a potential for a release of a hazardous 
substance that could pose a health threat to children, staff, or 
community members. As part of the PEA, full-scale grid sampling and 
analysis of soil, soil gases (if any) and groundwater shall be 
undertaken to accurately quantify the type and extent of hazardous 
material contamination present on the site. The PEA will also contain 
an evaluation of the risks of actual or potential contamination posed 
to children's health, public health, or the environment based on the 
contamination found. The evaluation of risks shall include:
    <bullet> A description of health consequences of long-term exposure 
to any hazardous substances found onsite;
    <bullet> A description of all possible pathways of exposure to 
those substances by children attending school onsite; and
    <bullet> The identification of which pathways would more likely 
result in children being exposed to those substances.
    The PEA shall conclude that (1) there are no environmental hazards 
at the site which must be abated through a cleanup plan; or (2) the 
site was previously used for hazardous or garbage waste disposal, for 
the disposal of construction and demolition materials, or is within 
1,000 feet of any property used for these purposes (the categorical 
exclusion); or (3) the site must be cleaned up if it is to be used for 
a school. If the site was previously used for hazardous or garbage 
waste disposal, for the disposal of construction and demolition 
materials, or is within 1,000 feet of any property used for these 
purposes, the site must be abandoned. If the site must be cleaned up, 
the PEA shall identify alternatives for cleaning the site to meet the 
applicable safety standards.
    The State environmental regulatory agency must review the final 
draft of the PEA. Depending on the thoroughness of the assessment, the 
State agency must give preliminary approval to the assessment, 
disapprove the assessment, or request more information.
    When the final draft of the PEA is completed and has received 
preliminary approval by the State environmental regulatory agency, the 
public body shall publish a notice in newspapers of general circulation 
(including foreign language newspapers if the school district has a 
sizable number of non-English speaking parents) that includes the same 
information released for the Initial Environmental Assessment:
    <bullet> A statement that a PEA of the site has been completed;
    <bullet> A brief statement describing the results of the PEA, such 
as a list of contaminants found in excess of regulatory standards, 
prior uses of site that might raise health and safety issues, proximity 
of site to environmental hazards (waste disposal sites, point sources 
of air pollution, etc.);
    <bullet> A brief summary of the conclusions of the PEA;
    <bullet> The location where people can review a copy of the PEA or 
an executive summary written in the appropriate local language(s); and
    <bullet> An announcement of a thirty-day public comment period, 
including an address where public comments should be sent.
    As described for the Initial Environmental Assessment, a copy of 
this notice shall also be posted in a conspicuous place in every school 
within the public body's jurisdiction (in multiple languages if there 
is a significant number of non-English speaking parents). A copy shall 
also be delivered to each parent-teacher organization within the 
jurisdiction, each labor union covered by a collective bargaining 
agreement signed by the public body, and each landowner within 1,000 
feet of the proposed site.
    The State environmental regulatory agency will review all comments 
received on the PEA. The State environmental agency shall then either 
accept or reject the conclusion of the PEA, determine whether the site 
can be used without further remediation or study, whether the site is 
categorically excluded for use as a school, or whether a Site 
Remediation Plan is required. The State environmental agency shall 
explain in detail the reasons for accepting or rejecting the PEA.
    After the State environmental agency has approved the PEA, the 
local School Siting Committee must also review the assessment and 
public comments received. The purpose of this review is for the School 
Siting Committee to make a recommendation to either abandon the site or 
consider remediation. Alternatives should be considered at this point. 
Then, the public body must vote whether to abandon the site, proceed 
with a remediation plan, or consider an alternative site or option.
    If the PEA indicates that the site has a significant hazardous 
contamination problem, the public body must either abandon the site or 
fund a cleanup plan that would reduce contaminant levels to the 
applicable safety standard for each contaminant. The public body must 
abandon the site if the PEA uncovers that the site was previously used 
for hazardous or garbage waste disposal, for disposal of construction 
and demolition materials, or is within 1,000 feet of any property used 
for these purposes.

C. Child Protective Health Based Standards
    The Child Proofing Our Communities campaign found that no health-
based child-sensitive standards exist at the Federal, State, local, or 
any level for determining ``safe'' levels of contamination in soil that 
will protect children. Lacking such standards, parents, school 
districts, regulating agencies, and others are lost as to how to 
evaluate contamination at new or existing sites. Until such standards 
are developed, the campaign recommends the use of the New York State 
(NYS) Recommended Soil Cleanup Objectives. These values were developed 
to provide a ``basis and procedure to determine soil cleanup levels'' 
at State and Federal superfund and other contaminated sites in the 
State.
    The Child Proofing Our Communities campaign, in conjunction with 
environmental engineers we convened at a Children's Environmental 
Health Symposium earlier this year, reviewed the cleanup standards or 
guidelines for several States and found the NYS values to be generally 
lower than all others considered. A subcommittee of professional 
engineers and health scientists who participated in the Symposium 
concluded that the NYSDEC list is a good, reasonably sound, and 
conservative list to use as an initial screen to provide school boards/
districts with a way to evaluate sites early on in the site selection 
process.
    A table of 27 common contaminants from the NYS list of Recommended 
Soil Cleanup Objectives is included below. The entire list provides 
guidelines for 126 contaminants.

    New York State Recommended Soil Cleanup Objectives For Chemicals
                  Commonly Found at Contaminated Sites
------------------------------------------------------------------------
                                                     Pesticides / other
                     Solvents                              metals
------------------------------------------------------------------------
Acetone..........................................               0.2
Aldrin/dieldrin..................................               0.041
Arsenic..........................................               7.5
Benzene..........................................               0.06
Chlordane........................................               0.54
Barium...........................................             300
2-Butanone.......................................               0.3
Chrysene.........................................               0.4
Cadmium..........................................               1
Carbon tetrachloride.............................               0.6
DDT/DDE..........................................               2.1
Chromium.........................................              10
Chloroform.......................................               0.3
Naphthalene......................................              13.0
Lead.............................................             400
1,1-Dichlororethane..............................               0.2
Pentachlorophenol................................               1.0
Mercury..........................................               0.1
1,2-Dichloroethane...............................               0.1
PCBs.............................................               1.0
Nickel...........................................              13
Methylene chloride...............................               0.1
Tetrachlorethene.................................               1.4
Trichloroethene..................................               0.7
Toluene..........................................               1.5
Vinyl chloride...................................               0.2
Xylene...........................................               1.2
------------------------------------------------------------------------
Note: All values are in parts per million (ppm).

D. Site Remediation Plan
    If the school board/district decides to proceed with cleanup of the 
proposed site, a Site Remediation Plan must be developed. This plan 
must:
    <bullet> Identify alternative methods for cleaning the site to 
contamination levels that meet the applicable safety standards;
    <bullet> Contain a financial analysis that estimates and compares 
soil cleanup costs for the identified alternative cleanup methods that 
will bring the site into compliance with applicable safety standards;
    <bullet> Recommend a cleanup plan from the alternatives identified;
    <bullet> Explain how the recommended cleanup alternative will 
prevent children from being exposed to the hazardous substances found 
at the site; and
    <bullet> Evaluate the suitability of the site in light of 
recommended alternative sites and alternative cleanup plans.
    The public body shall submit the Site Remediation Plan to the State 
environmental regulatory agency for approval. Before submitting the 
plan for approval, a draft remediation plan shall be given to the 
School Siting committee for review and comment. Once the remediation 
plan is submitted to the State agency for approval the public body 
shall proceed with a public notification and outreach plan similar to 
that conducted for the Initial Environmental Assessment and the 
Preliminary Endangerment Assessment. This would include publishing a 
notice in newspapers of general circulation (including foreign language 
newspapers if the school district has a sizable number of non-English 
speaking parents) that includes the following information:
    <bullet> A statement that a site remediation plans has been 
submitted to the State environmental agency for approval;
    <bullet> A brief statement describing the site remediation plan, 
including a list of contaminants found in excess of regulatory 
standards and a description of how the plan will reduce the level of 
contamination to meet those regulatory standards;
    <bullet> The location where people can review a copy of the 
remediation plan or an executive summary written in the appropriate 
local language(s); and
    <bullet> An announcement of a thirty-day public comment period and 
the address of the State environmental agency where public comments 
should be sent.
    A copy of this notice shall also be posted in a conspicuous place 
in every school within the public body's jurisdiction (in multiple 
languages if there is a significant number of non-English speaking 
parents). A copy shall also be delivered to each Parent-Teacher 
Organization within the jurisdiction, to each labor union covered by a 
collective bargaining agreement signed by the public body, and each 
landowner within 1,000 feet of the proposed site.
    At least thirty days after the conclusion of the public comment 
period the State environmental regulatory agency shall conduct a public 
hearing on the remediation plan in the neighborhood or jurisdiction 
where the proposed site is located.
    The State environmental agency shall publish a notice of the 
hearing in newspapers of general circulation (including foreign 
language newspapers if the School district has a sizable number of non-
English speaking parents) stating the date, time and location of the 
hearing. The State environmental regulatory agency shall provide 
translators at the public hearing if the school district has a sizable 
number of non-English speaking parents.
    After the public hearing and after reviewing any comments received 
during the public comment period the State environmental regulatory 
agency shall either approve the Site Remediation Plan, disapprove the 
Site Remediation Plan, or request additional information from the 
public body. If the State agency requires additional information, a 
copy of the letter requesting additional information shall be sent to 
the School Siting Committee. Any additional information submitted by 
the public body to the State environmental regulatory agency shall also 
be given to the School Siting Committee. After reviewing any additional 
information, the State environmental regulatory agency must approve or 
reject the Site Remediation Plan. The State environmental agency shall 
explain in detail the reasons for accepting or rejecting the Site 
Remediation Plan.
    After the State environmental regulatory agency approves the Site 
Remediation Plan, the local School Siting Committee must also review 
the plan and recommend to the public body whether to abandon the site 
or proceed with acquiring the site and implementing the remediation 
plan. Alternative sites or options should be considered at this point. 
The public body must then vote whether to abandon the site or to 
acquire the site and implement the remediation plan. Only upon voting 
to acquire the site and implement the remediation plan may the public 
body take any action to acquire the site and prepare the site for 
construction of a school.

             4. GUIDELINES APPROPRIATE TO CHILDREN'S HEALTH

    The Child Proofing Our Communities campaign believes that the USEPA 
is best suited to issue such guidelines related to assessment and 
cleanup of these sites. We feel strongly that Congress should require 
the EPA to determine proper cleanup guidelines to reduce the risk of 
exposure for children. It has also been the campaign's experience that 
the levels of cleanup vary widely from site to site--the determining 
factor often being the economic status of the particular community. The 
campaign strongly urges the EPW committee to mandate EPA to establish a 
minimum standard that all cleanup plans must adhere to. Toward that end 
we have begun a process of convening a panel of children's 
environmental health professionals to identify cutting edge health 
information such as neurodevelopmental and reproductive effects in 
children that have been associated with exposure to toxic chemicals and 
to identify how to incorporate this information into the process of 
setting health based exposure standards for children. The campaign 
would be pleased to share the results of our investigation with the EPA 
to inform future efforts in arriving at children's environmental health 
guidelines.

                       5. NEW SCHOOL CONSTRUCTION

    It makes little sense to build an environmentally dangerous school 
on a newly cleaned site. We recommend the availability of funds to 
build healthy ``green'' schools.
    There are no Federal laws governing the environmental health 
conditions in schools. The EPA has been the most responsive agency, 
producing tools that individual schools can use to diagnose and correct 
indoor air quality problems. Much more needs to be done, however, to 
eliminate the many avoidable environmental health impacts present in 
the school environment. A promising Federal bill--the Healthy High 
Performance Schools Act (2001)--and health and safety grants for 
emergency school renovations (2000) have had support or funding 
withdrawn. Thus we are left with the odd result that the Federal 
Government tolerates unhealthy construction practices and materials 
usage in schools even as it spends funds to diagnose and correct the 
resulting problems after the fact.
    We advocate the availability of funding for both the aforementioned 
programs in order to promote ``green building'' practices in school 
construction and renovation. Presently there are no national standards 
that use green building materials and techniques. Some Federal agencies 
such as the Department of Transportation and the Department of Interior 
are attempting to utilize the LEED (Leadership in Energy & 
Environmental Design) program developed by the U.S. Green Building 
Council. Unfortunately LEED does not effectively address children's 
environmental health concerns. As a first step, we recommend that a 
study of applicable green building standards and policies be undertaken 
to identify those best serving the goal of protecting children's 
health.

                           6. FEDERAL FUNDING

    There is only one State (California), which has a law that provides 
some siting guidelines. However, there is little funding available to 
put the legislated guidelines into practice. Therefore, we are 
advocating for Federal funding of the appropriate agencies to support 
schools that apply for the assessment, remediation, and construction of 
``healthy'' schools on otherwise untenable sites. Without adequate 
resources the local school authorities cannot adequately assess the 
property nor clean the property to a standard that is protective of 
children.

                                FINDINGS

    <bullet> Hundreds of schools nationwide have been built on or near 
contaminated land
    <bullet> Taxpayers provide billions of dollars for cleanup, 
construction of replacement schools, and medical treatment of disease 
in exposed children
    The Child Proofing Our Communities campaign has provided these 
examples of schools disastrously impacted by their proximity to toxic 
waste sites:

1. Love Canal, Niagara Falls, NY--Toxic Waste Dump
    Most know of the Love Canal dumpsite disaster in Niagara Falls. 
Twenty thousand tons of chemicals were buried in the neighborhood's 
center and eventually leaked out into the surrounding community. The 
99th Street Elementary School was on the dump's perimeter, and the 93d 
Street School was just two blocks away. Both closed in 1978 after 
extensive testing revealed high levels of chemical contamination on and 
around them. Love Canal was the first community to close schools due to 
potential health risks to children.

2. Los Angeles, CA--Former Oilfield and Industrial Site
    The Belmont Learning Complex was proposed in 1985 by the Los 
Angeles Unified School District as a middle school to alleviate 
overcrowding in a mostly poor, Latino neighborhood. The project 
ballooned into a proposed 35-acre, state-of-the-art, high school 
campus, with classrooms and innovative ``academies'' for 5,000 
students. More than 15 years later, the half-built brick building 
stands abandoned. Parents learned what the school district already 
knew--explosive methane gas, poisonous hydrogen sulfide, volatile 
organic compounds such as acetone, the carcinogen benzene, and residual 
crude oil existed on the location, a former oilfield and industrial 
site.
    The project, halted in 2000, is now underway again, with over $174 
million already spent. After extensive debate about children's health 
issues, community support for completing the school remains strong. In 
this instance especially, the contentious process would have been 
prevented if effective school siting legislation had been in place that 
emphasized health concerns first and foremost and required assessment 
and remediation to occur before the expensive construction actually 
began.

3. Marion, OH--Military Dump
    The River Valley Middle and High schools sit on the former site of 
the U.S. Army's Marion Engineer Depot, and was used as the facility's 
dumping ground from 1942-1961. In 1997, community members formed a 
group, Concerned River Valley Families, in response to alarming rates 
of leukemia and other rare cancers among former students. The group's 
efforts led to an investigation that revealed widespread contamination 
from toxic materials dumped for nearly two decades. Students were and 
continue to be exposed to potentially harmful concentrations of 
solvents, such as trichloroethylene (TCE) and benzo(A)pyrene, 
polynuclear aromatic hydrocarbons (PAHs), and heavy metals in the soil 
surrounding the schools. Many of the solvents are known carcinogens and 
some have been linked to leukemia.
    In November of 2000, River Valley school district Marion voters 
passed a bond and Congress passed precedent-setting legislation that 
together would provide enough money to build new schools away from the 
military dumping grounds. To date, there has been an emergency arsenic 
removal, and access has been restricted to the polluted athletic fields 
and the middle school back doors, but air pathways still have not been 
fully or adequately characterized.
    The schools remain open although reservists are not allowed on the 
adjacent Army Reserve training grounds. The new schools approved by 
residents and Congress will not be open until at least August 2003, but 
the school board refuses to temporarily move their students to an 
environmentally safe facility.

4. Providence, RI--Two New Schools On a Dump, with More Planned
    Parents were shocked when bulldozers showed up without warning to 
begin construction of Springfield Elementary School on the grounds of 
what had been a city landfill for at least 25 years. The Hartford Park 
Tenants Association and other community parents have filed a lawsuit 
against the school board, city of Providence, and State Department of 
Environmental Management. They argue that building a school for 
minority students on a landfill is a violation of the children's civil 
rights. These students already have high rates of asthma and lead 
poisoning. The groups also contend that they were not given enough 
notice about the building of the new school to allow them to play a 
role in the site selection and remediation process.
    The groups have concerns about the State-approved soil gas removal 
process that has placed an elaborate system of monitors and underground 
pipes beneath the school to prevent the accumulation of explosive 
methane gas. Their primary concern is the potential for explosion, but 
they are also worried the about the odors coming from the stack that 
releases soil gases on school property. They want the school shut down.
    During the construction of a middle school next to the elementary 
school, parents won a temporary order halting work while children were 
outside the elementary school in order to prevent their exposure to 
contaminated dust. Now that Springfield Middle School has opened, a 
court has ordered the city to notify the plaintiffs in the lawsuit when 
environmental testing is done so that plaintiffs' experts can observe 
the testing. The city must also share the results of the environmental 
tests with the plaintiffs.

5. Tucson, AZ--Industrial Plants
    Sunnyside Elementary and Junior High Schools serve primarily 
Mexican-Americans in Tucson's Southside. Many who attended during and 
after the 1950s later developed cancers and leukemia. By 1981, area 
wells used by these schools and many nearby homes were shut down due to 
industrial contamination from a groundwater plume of trichloroethylene 
(TCE) and other toxins migrating from military-related industries. 
Residents formed Tucsonians for a Clean Environment and won local 
support for environmental health projects, including a health clinic 
for persons poisoned by TCE.
    Today Tucson's Southside faces a new toxic threat from a military 
contractor. In 1983, Brush Wellman built a facility near Sunnyside High 
School, Sierra Middle School, Los Ranchitos, and Los Amigos Elementary 
Schools. This facility processes beryllium, a lightweight metal the 
military uses that causes a fatal and incurable lung disease. Twenty-
five employees at the plant already have the disease. Beryllium traces 
have been found on Los Amigos and Los Ranchitos grounds, putting young 
schoolchildren at risk. The community is asking that Brush Wellman 
install air monitors on school grounds and around the neighborhood, but 
they have had no progress thus far.

6. New Orleans, LA--Garbage Dump
    Residents of Gordon Plaza--1,000 low-and middle-income African 
Americans--discovered only after they moved in that they were living on 
the former Agriculture Street Landfill--the city's municipal waste dump 
for more than 50 years. The landfill was never properly capped, and 
residents began almost immediately to dig up trash and building debris 
in their back yards.
    Construction of Moton Elementary School--intended to serve 850 
students from Gordon Plaza and a nearby housing project--was completed 
in 1987 despite residents' concerns about high levels of lead and other 
toxins at the school site. During the 3 years the school was open, 
children and staff were sick with rashes, vomiting, respiratory 
problems, and headaches, and plumbing problems made it impossible to 
use the school cafeteria and toilets. In 1990, the superintendent 
overruled the school board and shut the school down.
    The U.S. EPA added Agriculture Street to Superfund in 1994 and 
began a $20 million cleanup of the site in 1998, replacing two feet of 
soil while residents remained in their homes, exposed to contaminated 
dust throughout months of cleanup work.
    Moton Elementary School reopened in September of 2001. In some 
areas on the school grounds, only six inches of soil were replaced. 
Despite its history, 900 students currently attend the school.

7. Corry, PA--Industrial Plant Emissions
    The school board in Corry decided to consolidate four of five small 
elementary schools into one large school housing over 1,000 students. 
The chosen site sits next to Foamex, a polyurethane foam manufacturing 
plant that ranks second statewide for hazardous air emissions, annually 
dispersing approximately two million pounds of hazardous chemicals into 
the year. Additionally, toluene diisocyanate (TDI) and methylene 
chloride are used in the manufacturing process and are stored in large 
quantities on the site. Both are known carcinogens. Suspected TDI 
health effects include respiratory, immunological, and neurological 
disorders. Methylene chloride is suspected of harming the reproductive, 
neurological and respiratory systems.
    The community is unified against the consolidation and has 
collected 2,000 signatures in support of finding another site. 
Meanwhile, the consolidation did not occur and the construction of a 
new school seems doubtful.

8. Jacksonville, FL--Incinerator-Ash Dump
    This predominantly African-American community suffers from a long 
history of industrial contamination. From 1943 to 1969, four sites 
served as incinerator-ash dumping grounds. The ash contained high 
levels of lead, dioxins, and PCBs. While environmental agencies knew 
about the situation as early as 1985, parents and other residents were 
only informed in 1999.
    As the 1999-2000 school year began, many parents, including the 
president of the PTA, withdrew their children from Mary McLeod Bethune 
Elementary School, which was built on one site where testing revealed 
high levels of dioxin. The school was closed in 2001 as part of an EPA-
ordered cleanup. Community activists are now pressing for closure and 
cleanup of a park built on another ash site.

9. Houston, TX--Industrial/Chemical Complex
    To relieve overcrowding, the city council created a special taxing 
district to help cover the $76 million cost of constructing a new 
school in a predominantly Latino area. The re-proposed school was 
opened in 2001 and named for Cesar Chavez. The modern, fully equipped 
facility with enough computers, laboratories, sport fields, and 
classrooms for 3,000 students is located in an industrial zone on a 
site previously occupied by an auto salvage yard, a dry cleaner and a 
chemical toilet company. The school is a quarter mile from Texas 
Petrochemicals, Exxon-Mobil, and Goodyear Tire and Rubber, and 1.2 
miles from a Lyondell Citgo Refining facility. These plants release 
nearly five million pounds of hazardous chemicals into the air 
annually. A major accident at any one of these chemical plants would 
endanger students at the school. The underground pipelines from the 
plants that cross the school's property pose an additional threat.

10. Quincy, MA--Shipyard Toxics
    Residents from Quincy formed Quincy Citizens for Safe Schools and 
helped defeat city plans to build a high school on a four-acre site 
that was contaminated with wastes from a neighboring shipyard. The city 
knew the site was contaminated with asbestos, lead, PCB's and other 
chemicals but believed it could be cleaned. When parents and other 
residents became aware of the plan, they vehemently opposed it and 
circulated a petition to stop it. Eventually, the mayor and some city 
council members who had promoted the project were defeated in elections 
by candidates who opposed the plan.

11. Detroit, Michigan--Former Industrial Site
    In July 2000, the Detroit Public Schools (DPS) broke ground on the 
first new elementary school to be built in the city in decades. 
Unfortunately, the New Beard School, which would serve the largest 
concentration of Hispanic students in the city, was sited on a former 
industrial property contaminated with unsafe levels of lead, arsenic, 
PCBs, carbon tetrachloride, cyanide, and other toxic materials. Rather 
than removing these contaminants from the site, DPS chose to install a 
crushed concrete and soil exposure barrier intended simply to prevent 
children from touching the contaminated soils.
    When initial efforts to convince DPS to listen to their concerns 
failed, parents filed a civil rights/environmental justice lawsuit to 
prevent the school from opening until the site's safety could 
demonstrated. After a 4-day evidentiary hearing, a Federal judge 
allowed the school to open, but required DPS to take additional 
precautions, which included conducting additional soil and soil gas 
sampling, hiring an independent environmental consultant (IEC) to make 
recommendations regarding the need for additional testing and/or 
monitoring at the site, and establishing a citizens' advisory committee 
to oversee the IEC's work. DPS has implemented several but not all 
measures recommended by the IEC, but the Beard administration continues 
to balk at some precautionary steps, such as installing a permanent 
plaque at the school warning that about the contamination that lies 
beneath the exposure barrier.

                               CONCLUSION

    We are truly at a critical juncture. Public elementary and 
secondary enrollment is rapidly growing and is expected to reach an 
all-time high of 44.4 million by the year 2006. At least 2,400 more 
schools are needed in the next few years to accommodate this increase. 
If action isn't taken immediately, these new schools will continue to 
be built without guidelines to protect children against chemical 
exposures. Failure to act could place tens of thousands of children at 
risk of being exposed to toxic chemicals at their place of learning. 
Society can no longer allow innocent children to be placed in harm's 
way due to inexcusably bad decisions by local school district 
decisionmakers.
    Thank you very much for considering our views in the formation of 
legislation to improve children's environmental health through 
intelligent and comprehensive school siting.

                               __________
       Statement of Katie Acton, Parent Advocate, Ozone Park, NY

    To introduce myself, I am Katie Acton, residing at 103-23 105th 
Street, Ozone Park, Queens, NY 11417. I am married with two daughters, 
ages 9 and 3. Kaylyn Acton-Chadee, my 9-year-old attended PS 65Q 
located at 103-22 99th Street, Ozone Park, NY 11417. The principal is 
Mrs. Iris Nelson and can be reached at (718) 323-1685. The school falls 
under the NYC Department of Education, District 27, superintended by 
Mr. Matthew Bromme. Kaylyn was in fourth grade last school year.
    In May of 2002, the Queens Forum published an article regarding the 
possible toxic condition involving a subsurface plume of 
TriChloroEthylene that is located beneath the school and the immediate 
environs. Several concerned parents did come together to get answers to 
the unanswered. Since that time, the NYCDOE has retained external 
testers to test the quality of air inside the school. The results are 
doubtful. In July of 2002, further tests were conducted outside the 
school involving the groundwater and the soil. The results were very 
alarming in that they were way above the ``acceptable'' limits.
    Other events have happened during this period. PS 65Q was suddenly 
labeled a ``Title I'' school and parents were offered to have their 
children transferred to better performing schools within the district. 
Those applications were distributed in June 2002. The response was 
negative for transfers at that time. Transfers were suddenly approved 
in September 2002, right before school reopened.
    The NYCDOE met with parents three times since May 2002, with the 
last meeting being on 08/29/2002. At the last meeting I attended, 
Congressman Anthony Weiner was kind enough to appear on our behalf. He 
raised important issues on the growth of the plume and it was confirmed 
that the plume is growing and will grow upward. The delegates also 
indicated that some measures were being taken to clean up the 
environment. One involved the installation of an air evaporating 
mechanism to release the pressure buildup below the school.
    Another critical issue was the financing of the cleanup. It was 
disclosed that negotiations were in progress with the Mother Company of 
the dumpers of the TCE. Why must innocent children and the school 
public and the community wait on the selfish concerns of others to 
clean up such a potential hazardous condition. Classes are also held in 
classrooms located in the basement, whose walls separate the inside 
from the positive TCE soil on the outside.
    Even though Kaylyn is no longer a student there, she was affected. 
She developed asthma. Since the TCE was unveiled, parents have come 
together and disclosed that their children have also been suffering 
from sudden onset asthma and persistent headaches. There have also been 
some cases of cancer and that a teacher has since passed away from 
cancer. Her demise was held a secret for 2 weeks until the school 
population was informed.
    I think that the problem is not just restricted to the school 
alone, but the entire surrounding neighborhood of which the 
``transferred'' parents still reside. It is with deep sadness that I 
have to document that the Members of the Board of the Parents 
Association at PS65 have not been supportive in this matter. Instead of 
acting as a liaison between the parents and the school authorities, 
they choose to do otherwise--nothing. My persistence in the matter is 
one to have the relevant authorities start the cleanup immediately, and 
the confirmation that our community's children are in a fairly safe 
environment. We, the residents/parents believe that City and State 
Agencies need to get involved and do what is ethically and morally 
correct.
    The agencies represented were:
    1. NYSDEC--New York State Department of Environmental Conversation
    2. NYSDOH--New York State Department of Health, Peter Constantekes; 
Donn E. Hettrick, Sanitary Engineer 800-458-1158 X 27880
    3. NYCHMG--New York City Department of Health and Mental Hygiene
    4. NYCDOH--New York City Department of Health, Chris D'Andrea, 
Industrial Hygienist 212-788-4290; Gary Krigsman MD, DOH Physician for 
District 27
    5. NYCDOE--New York City Department of Education, David Klasfield, 
Deputy Chancellor of Operations; Bernard Orlan, Director, Environmental 
Health and Safety
    Another representative was Mr. Davis Harrington, Field Engineer. 
The agency he represented was not clear. He can be reached at 518-402-
9564. He was involved on the drilling of the wells for sampling 
surrounding the school. ATC Associates, Inc. was retained by the NYCDOE 
to perform the air testing inside the school. Their representatives 
were present at all three meetings, but did not address the meeting.

                               __________
    Memorandum from the American Public Health Association; Beyond 
 Pesticides; Children's Environmental Health Network; Healthy Schools 
   Network; Natural Association of School Nurses; Natural Resources 
         Defense Council; Physicians for Social Responsibility

       RASHES AMONG STUDENTS CLOSE SCHOOLS IN MORE THAN 15 STATES

    We are writing to urge you to call upon the Centers for Disease 
Control and Prevention, Center for Environmental Health, to report to 
you on the procedures and results of its investigation into the 
outbreak of apparently noncontagious rashes among schoolchildren that 
have closed schools in more than 15 States. Of particular concern in 
this investigation are the steps that local investigators took to 
evaluate the possibility of chemical, physical, or biological agents.
    We are especially concerned that this and future investigations of 
threats to child environmental health and safety at school will be 
hampered by the lack of baseline data. Thus, we urge you to ask as well 
on how the Federal agencies participating in the President's 
Interagency Task Force on the Protection of Children from Environmental 
Health Risks and Safety Risks would coordinate the development of and 
implement a plan to monitor pupil illness and injury, as part of the 
larger national health tracking system. Your support for CDC and other 
agencies involved in setting up a health tracking system that 
establishes baseline data and monitors child health is crucial.
    Our letter to Centers for Disease Control and Prevention is 
attached, as is the timely response from CDC.
    Thank you for your consideration of this request and for your 
continuing support of CDC's work, especially since September 11.
    For more information: Claire Barnett, Executive Director, Healthy 
Schools Network, Inc., 773 Madison Avenue, Albany, NY 12208, 518-462-
0632.
                                 ______
                                 

               Attachment.--Letter from CDC to Coalition

                  National Center for Environmental Health,
                                                    March 12, 2002.
Claire L. Barnett, MBA, Executive Director,
Healthy Schools Network, Inc.,
773 Madison Avenue,
Albany, NY.
    Dear Ms. Barnett: Thank you for your email of March 6, 2002 
highlighting concerns about the recent reports of rash among school-
aged children. It is good to know that Healthy Schools Network and your 
partner organizations support our efforts to work with State and local 
health departments, as well as school officials, to determine if the 
different communities are experiencing a common illness.
    As you are already aware, we are committed to continue monitoring 
reports of rashes among school children. The CDC team is actively 
working with State and local health and school officials to determine 
if affected children within and between schools have developed rash as 
a result of a common etiology. We have colleagues from occupational 
health, epidemiology, infectious disease as well as environmental 
health working on this.
    We also recognize that State and local health and education 
departments and schools may have limited resources for investigating 
the reports of rash illness. CDC has developed and distributed a 
document with suggested approaches for investigating reports of rash 
illness among groups of school children, including the importance of 
having a dermatologist examine these children. As noted in the 
document, the presence of pesticides and other contaminants should be 
considered as part of an environmental assessment. State health 
department personnel are also aware of the availability and willingness 
of CDC staff to provide onsite assistance, if needed.
    With respect to identifying other groups of school children and/or 
adults with rashes who should be considered as part of the 
investigations, we were already aware of most of the incidents you 
identified from your files. For the three situations that we did not 
know of, we will contact the health department to obtain the relevant 
information. In addition, we are encouraging State and local health 
departments to follow-up with individuals who report similar rashes to 
see if they have a direct or indirect association with affected school 
children.
    Again, I thank you for your support, and for your own efforts to 
ensure healthy school environments for our nation's children.
            Sincerely,
                          Richard J. Jackson, M.D., M.P.H.,
                                                          Director.
                                 ______
                                 

               Attachment.--Letter from Coalition to CDC

                                                     March 6, 2002.
Richard J. Jackson, MD, MPH, Director,
National Center for Environmental Health,
Centers for Disease Control and Prevention,
4770 Buford Highway, NE (F29),
Atlanta, GA 30341-3724.

Re: School Rashes Report and Recommendations to Congress on Pupil 
Health Tracking

    Dear Dr. Jackson: We are writing to commend you for your continued 
commitment to investigate the cause of rashes that have broken out in 
students in schools in more than 14 States. Scores of schools have been 
closed, and over 1,000 students and a good number of adults affected. 
We understand that CDC is conducting its investigation in cooperation 
with State and local authorities.
    We are, however, concerned about the limited resources available to 
State and communities for these purposes and urge that CDC ensure that 
the investigations carried out are systematic and comprehensive. To 
support and ensure the quality of the local investigations, CDC should 
encourage its own as well as State and local investigators to work 
directly with local pediatricians and dermatologists.
    We also urge that CDC report to Congress, first, on the procedures 
and findings of the investigation, and, second, on how any future 
outbreaks can be monitored in a timely fashion.
    Because the affected individuals do not present with fevers and 
their rashes have not spread to family members at home, we also urge 
you to ensure that special efforts are taken by skilled onsite 
investigators to consider chemical and physical agents present in 
affected schools.
    There may be other school and community outbreaks involving 
students that should be included the investigation. A review of Healthy 
Schools Network's files indicates other cases that could be included 
are: the Argyle, NY school which had a blistering rash event in the 
late fall of 2001 affecting two individuals and attributed to an 
unidentified powder that spilled from an envelope; the Queens, NY 
school (already reported) to confirm whether the responding paramedics 
were also affected, as reported by the New York Times, and if so how; 
the Saxe Gotha Elementary School in South Carolina whose outbreak 
developed in fall of 2000 and was sustained for 3 months; the 
Sweetwater County Fair outbreak affecting 30 people in Wyoming, August 
2001; and the rashes attributed to ``UV radiation'' from a broken light 
fixture in a school gym in North Carolina, reported in October 2001. 
CDC should also cooperate with Canadian authorities in Barrie, Ontario 
to determine if the spring 2001 school rash outbreak was similar.
    We understand that the investigation will be hampered by the lack 
of a national system of tracking pupil health or injury at school, and 
consequently the lack of any baseline data for comparison. Additionally 
impeding school investigations are two other factors: no State mandates 
school nurse staff positions and no State has its own required pupil 
illness and injury reporting system in place.
    Given the unprecedented nature of recent domestic security events, 
and this outbreak of still unknown causes affecting so many children in 
so many disparate locations, and the lack of baseline data, we strongly 
recommend that CDC propose a system to track pupil illness and injury. 
Baseline information about children's environmental health at school 
must be developed and a tracking system established so that appropriate 
and effective prevention and early intervention methods can be devised.
            Sincerely,
                                   American Public Health Association,
                                   Beyond Pesticides,
                                   Healthy Schools Network,
                                   Natural Resources Defense Council,
                                   Physicians for Social 
                                       Responsibility,
                                   National Association of School 
                                       Nurses.
                                 ______
                                 
Vermont
    1997--North Country Union High School. A student was rushed to the 
hospital after losing consciousness because of an allergic reaction to 
poor indoor air quality at the school. In the following months, 
complaints from staff and from over 76 students followed--citing 
headaches and gastrointestinal distress.
    Between 1973 and 2000, 10 mercury spills occurred within schools in 
Vermont. The Department removed over 500 pounds of Hg containing wastes 
from the first 50 schools that signed up for the program.
    1998--Barnet Elementary School. An odor problem attributed to 
severe rodent infestation, combined with faulty ventilation, closed a 
Vermont School.
Virginia
    2000--Walker Upper Elementary School. A gifted student is tutored 
at home due to sensitivity to mold and dust at school. Classroom 
carpeting, moldy ceiling tiles, and poor ventilation are found at the 
school. Toxic stachybotrys mold is also found in the school.
    2001--Liberty High. Another Virginia school spends nearly $400,000 
to correct a mold problem, yet acknowledge that residual fungal growth 
remains.
    Apr. 27, 2001--Jefferson Forest High School. A school is shut down 
due to high levels of lead and dioxins found in playground soil. A 
school nurse, alert to a pattern of health complaints among students 
presses for air quality testing. A classroom is subsequently closed due 
to mold contamination.
Rhode Island
    2001--North Smithfield School. A 3d grade classroom is relocated 
due to mold growth.
    Nov. 2001--Smithfield Elementary School. Several dozen school 
children are suddenly overcome by a stomach illness and sent home. A 
mold problem at the school is one of the suspected causes.
New York
    2001--Yonkers City School District. Committed to essential health & 
safety repairs after calls to HSN from the Asthma Coalition and an 
onsite visit revealed extraordinary mold contamination.
    Mar. 2002--Parents from Frankfort Schuyler High School. Found their 
children exposed to a sudden blowout of construction dust and debris in 
the cafeteria during lunch. Masks were distributed to staff and 
teachers but not to students.
    Oct. 2001--Brentwood North Middle School. Organized a Health and 
Safety Committee that includes parents resulting in the total 
remediation of a serious mercury spill. The professional cleaning group 
did a thorough mercury extraction finding mercury in areas where it was 
thought none existed, several months after the original spill.
Pennsylvania
    May 2002--East Pennsboro Area School District. Six children die in 
a small town. The only common thread is that they all attend the same 
school complex. Problem underscores the lack of adequate tracking.
    May 2002--Florence School. A classroom is closed due to 
stachybotrys contamination.
    Apr. 25, 2002--Freemansburg South School. A school is closed for an 
entire year due to mold contamination.
    Feb. 2002--Springford School. A school is closed due to a 
mysterious rash outbreak. The rash occurs at school and seems to 
disappear when the children leave the building.
Oregon
    Nov. 2001--Whittaker Middle School. A high school and elementary 
school closed due to mold contamination.
    Apr. 15, 2002--Chapman Elementary School. An elementary school is 
closed due to a rash outbreak.
    Feb. 11, 2002--Corvallis Oregon School District. A school finds 
that its drinking water is contaminated with unacceptably high lead 
levels due to old plumbing. Drinking fountains are shut off and bottled 
water brought in.
    Oct. 23, 2001--Whittaker Middle School. Teacher Magazine does an 
expose on the plight of teachers sickened by a school found to have 
extremely poor ventilation and mold and radon contamination. Cost of 
repairs are estimated at $8.3 million.
Ohio
    Aug. 2002--School for Creative & Performing Arts. The opening of 
three schools delayed due to mold contamination.
    Feb. 2002--Batavia Elementary School. Teachers who worked in a 
school trailer found to have molds literally ``dripping from the 
ceilings'' report on going health problems due to mold exposure.
    Oct. 2001--Central Elementary School. A school is closed after 
students are sickened by mold contamination.
    Aug. 2001--Kirk Middle School. A middle school is closed due to 
mold and asbestos contamination.
    Aug. 2001--Girard School. 2000 residents file a complaint calling 
for the removal and replacement of a school board due to mishandling a 
mold and poor IAQ problem, leaving students and staff sickened.
New Jersey
    Mar. 15, 2002--Oxford Street Elementary. Fumes from cleaning 
solvents used by a custodian to clean graffiti in a classroom sends 39 
students and a teacher to the hospital for treatment.
Nevada
    Apr. 24, 2002--Pahrump Valley High. Stachybotrys contamination 
closes a school, is found in three others.
    Mar. 3, 2002--Carson City School District. 5 Modular units 
contaminated with mold are removed from service.
    Feb. 12, 2002--Spring-Ford Intermediate. A school is shut down 
after more then 100 intermediate students develop a rash.
Montana
    Feb. 6, 2002--Seeley Swan High School. An individual contacts HSN 
concerned about a gym floor treatment, over 30 years old, that contains 
mercury.
    Apr. 10, 2001--Osage Beach. Individual contacts HSN re: 
Stachybotrys contamination in a school.
Missouri
    Aug. 15, 2002--Kickapoo High School, Springfield. Students return 
to school to find the first floor closed due to mold contamination 
clean-up.
    Apr. 23, 2002--Belvins Elementary, Eureka schools. 35 children are 
sent to the hospital, 9 by ambulance after being exposed to a wasp 
pesticide on the athletic field.
Florida
    May 11, 2002--Trapnell Elementary School. Mold contamination 
displaces over 100 elementary school students
    Aug. 30, 2001--Virginia Shuman Young Elementary, Fort Lauderdale. 
Students and teachers are sickened by mold contamination in a school, 
even as it was believed to have been remedied 3 years prior.
Colorado
    Feb. 19, 2002--Littleton Public Schools. School built on a swampy 
area. High CO2 levels and mold found. Teachers and students with health 
complaints.
    March 7, 2001--Sunset School in Cody School District. Students 
complaints of sinus problems and watery eyes. Complaints stop when 
school begins regular maintenance on the HVAC system.
    Sept. 2000--Inspectors find unstable chemicals stored in 48 schools 
around the State.
Connecticut
    Feb. 14, 2002--Connecticut Education Association. Teachers from 
across the State testify about their health problems due to poor indoor 
air quality in schools at a State Legislative Hearing.
    Feb. 12, 2002--McKinnely School in Fairfield. A teacher's career is 
ended as she must accept permanent disability due to illness suffered 
by exposure to molds in her classroom.
California
    Feb.24, 2002--Agoura Hills Schools of the Las Virgenes Unified 
School District battle molds since 1992. Teachers complain of serious 
illness due to mold contamination at the high school and middle school. 
Cleanup took place in 1999, however, teachers still find molds and 
remain ill.
    Oct. 23, 2001--Torrance South High School. Steps up measures to 
address a mold problem in light of a union-sponsored survey of 50 
teachers. Sixteen teachers suffer from serious sinus infections, 
respiratory problems, eye irritations or allergies, 15 complain of 
headaches and stomach ailments and four of the six pregnant teachers 
last year had miscarriages.
    Nov. 5, 2000--Catskill Elementary School. In South Los Angeles, 
Hamilton Elementary School in Pasadena-San Marino and Almonsor Center 
for Kids with Learning Disabilities were found by an investigative 
reporter to be in a school with lead contaminated paint and paint chips 
on window sill, picnic tables and wooden lattice in the playground with 
levels from 8 to 31 times the EPA limit.
    Dec. 20, 2001--An elementary school in Santa Barbara County is 
evacuated due to a sprinkler application of metam-sodium, prompting an 
investigation and report by the Cal. Dept. of Health Services.

                               __________
          Statement of Veronika Carella, Concerned Parent and 
                   Children's Advocate, Glenwood, MD

                               BACKGROUND

    Children have the right grow to their full potential, both 
academically and physically. Children have the right to a free and safe 
public education. For some families, these goals are growing 
increasingly difficult and sometimes impossible to obtain, because of 
the conditions that they face in their school environment. I urge this 
committee to address the concerns presented today and safeguard our 
children while they attend school.
    I respectfully present testimony as the parent of two children 
seriously and perhaps permanently injured by exposure to hazardous 
materials sustained while they attend public schools in Maryland. My 
children unknowingly became hyper-sensitive to pesticides and some 
hazardous chemicals due to unintentional exposure at school to EPA-
registered pesticides and other hazardous materials when they were 
young (1995-1998). The resulting injuries have caused them to suffer 
serious illnesses and miss a significant number of schools days. As a 
family, we struggle with the physical, emotional and economic effects 
of their conditions everyday since they were exposed to these hidden 
school environment hazards.
    Sadly, ours is not an isolated case. As a children's advocate and 
active PTA member in the State of Maryland, I have seen, heard, 
documented and testified to many horror stories from other families who 
suffer needlessly from harmful products used in their children's school 
environments.

                          NEED FOR LEGISLATION

    There is no system to protect children. We have personally found 
that school systems only do what they are legally required to do. 
Ironically, because of the lack of legislative protections and funds to 
adequately maintain our public schools, my children and others continue 
to be exposed to known hazardous conditions and toxic products in their 
public schools. The resulting injuries are unnecessary and pose an 
unacceptable risk to their potential to live full and healthy lives as 
adults.
    Parents are required by law (Maryland) to send their children to 
public school, yet there is a distinct lack of legislative protection 
both on the State and Federal level to safeguard children while they 
are at school. Parents appear to be powerless to protect their children 
from known hazards in the school setting, thus school environments 
continue to injure innocent and unsuspecting children and staff.
    Every day there is the potential for chemical exposures. Public 
school students and staff face hidden chemical assaults every day. 
Children's small growing bodies cannot always process or tolerate the 
chemicals that we all use in our every day world. This is especially 
true for certain hazardous pesticides, cleaning products and paints by 
many school systems. Lower risk alternatives must be made available.

                            NEED FOR FUNDING

    Solutions exist. However, without legislation, schools will not 
implement them. Without funding schools sometimes cannot implement 
them. There is a need for legislation and adequate funding to support 
such solutions such as least-toxic Integrated Pest Management (IPM) 
where school maintenance and repair reduce and often eliminate the need 
for chemical pest control methods. Without funding, search cannot 
continue on identifying low risk alternatives to the products we know 
have the potential to harm our children.
    I strongly encourage you to promptly fund and to implement the 
Healthy and High Performance Schools Act and strengthen EPA's school 
environment programs. Thank you for your time and consideration.

                               __________
           Statement of Rochelle Davis, Executive Director, 
                   Illinois Healthy Schools Campaign

    Chairman Jeffords and members of the committee, I am Rochelle 
Davis, Executive Director of the Illinois Healthy Schools Campaign. I 
would like to thank you for the opportunity to submit a written 
statement regarding the work the Campaign is doing both in Illinois and 
nationally.
    On behalf of the Illinois Healthy Schools Campaign, I would like to 
thank Senator Jeffords for convening this important hearing on school 
environmental health.
    The Illinois Healthy Schools Campaign and its 85 endorsing 
organizations are dedicated to making Illinois schools environmentally 
healthy places to learn and work.
    A review of Illinois laws and regulations by the Environmental Law 
Clinic found a number of glaring problems:
    <bullet> There are no standards for school indoor air that have 
been established to protect children's health. (OSHA has exposure 
standards; they do not take into account children's vulnerability and 
apply only to employees.)
    <bullet> Current inspection programs only cover traditional health, 
life and safety issues. They do not address indoor air quality (IAQ). 
Also, current inspection reports are not readily available to the 
public.
    <bullet> Except for the Integrated Pest Management in Schools Act, 
there are no State initiatives promoting best practices for improving 
school indoor air.
    While most of the responsibility to address this problem lies with 
State and local governments, we believe that the Federal Government can 
and must play a leadership role on this important issue. More 
specifically, the Federal Government should:
    1. Fund and implement the Healthy and High Performance Schools 
provisions of the No Child Left Behind Act.
    2. Pass the Federal School Environmental Protection Act (SEPA, H.R. 
111 and H.R. 3275/S. 1716 in the 106th Congress) that will encourage 
schools to ``pest-proof'' their buildings and thus reduce their 
reliance on the routine use of highly toxic chemicals.
    3. Fund school repairs and construction, direct a Federal grant 
program at high-needs schools, and offer tax credits to subsidize the 
interest on school construction bonds used for repairs, renovations, 
and new construction.
    4. Fund the Clean School Bus Grant Program which will encourage the 
use of natural gas and clean diesel power buses.
    5. Strengthen the role of Federal agencies (U.S. Environmental 
Protection Agency, Department of Education, Department of Energy, and 
National Clearinghouse for Educational Facilities) in promoting Healthy 
and High Performing Schools.
    Since children spend most of their hours outside the home in school 
buildings, policymakers have a responsibility to ensure that children 
can attend school in a toxin-free and healthy environment. On behalf of 
the Illinois Healthy Schools Campaign, I want to thank you for 
addressing these important issues.

                               __________
                Statement of Tolle Graham, Coordinator, 
                 Massachusetts Healthy Schools Network

    The Massachusetts Healthy Schools Network is a statewide coalition 
of parent, education, labor, environment and public health activists 
working to address poor environmental conditions in schools. Through 
education, technical assistance and advocacy we have been working on 
the following initiatives over the last 5 years:
    a. Design, construction and maintenance for healthy schools
    b. Environmental and Indoor Air Quality information clearinghouse
    c. Promotion of ``toxic-free'' schools
    d. Establishment of school-based ``Environmental Teams''
    Here are some of the environmental health and safety problems we 
have identified in our State:
    a. Over 800 schools in Massachusetts are located on or within \1/2\ 
mile of a hazardous site
    b. School conditions ranking Massachusetts 49th in the Nation on 
the overall measurement of buildings with at least one inadequate 
building condition.
    c. Asthma rates among school children reported higher in schools 
with indoor air quality problems by the Massachusetts Department of 
Public Health Bureau of Environmental Health Assessment Survey (1999)
    d. Teachers report second highest work-related asthma cases in 
Massachusetts
    e. Several hundred new schools currently being built that duplicate 
some of the same poor design features that pose potential environmental 
siting hazards, IAQ problems and maintenance costs that school 
districts can't afford.
    Three years ago the Mass Healthy Schools Network organized the 
first statewide conference ``Designing, Renovating, and Maintaining our 
School Buildings'' co-sponsored by, the Office of Civil Rights in the 
U.S. Department of Education, the Massachusetts Public Health 
Association, the Massachusetts Coalition for Occupational Safety and 
Health, the Massachusetts Medical Society, the Massachusetts Teachers 
Association and the U.S. Environmental Protection Agency.
    Twenty-two additional health, environment, school related 
organizations and agencies endorsed it. Conference participants, 
encouraged to attend as ``teams'' from their school districts, included 
school administrators, teachers, parents, health professionals, school 
committee members, school design committee members, as well as 
facilities and maintenance staff.
    In a follow-up conference survey, close to 50 percent of 
respondents said they would like to see regulations or laws that 
require Massachusetts Board of Education School Building Assistance 
Bureau to include specifications regarding environmental and indoor air 
quality standards. In addition, they recommended changing the bid 
process to require all bids to estimate the costs of maintaining the 
buildings and materials for life cycle cost comparison. Few schools 
reported even having a written maintenance plan. These responses have 
been echoed over and over again in all of the activities we've engaged 
in since that conference.
    The Mass Healthy Schools Network has spearheaded some reforms 
within our State that have the potential for greatly improving school 
environments and student and staff health. They are:
    a. Won passage of the Childrens' and Family Protection Act 
requiring integrated pest management plans in schools and school 
grounds
    b. Adoption of health and safety requirements (SMACNA Guidelines) 
for schools seeking funds for construction projects from the 
Massachusetts Department of Education.
    c. 2d State in the Nation which is about to adopt a school 
environmental siting regulation (public comment period till November 
2002).
    d. Developed model regulatory language for healthy high performance 
schools which are being reviewed by the State Board of Education and 
the Healthy Schools Council--representing State and Federal agencies 
that have some authority over schools
    Although we feel encouraged by these actions we feel strongly that 
Federal requirements and funding are both critical to promote national 
standards for school environmental health and safety. We therefore 
support the testimony of our National advocates from the Childproofing 
Our Communities Campaign and the New York Healthy Schools Network and 
specifically ask you to support:
    a. Requiring the EPA to develop school environmental siting 
criteria and proper cleanup guidelines to reduce the risk of exposure 
for children and school staff
    b. Fund and implement the Healthy and High performance Schools 
provision of the Leave No Child Behind Act
    c. Funding to promote ``green building'' practices in school 
construction and renovation.
    d. Reinstate health and safety grants for emergency school 
renovations (2000)
    e. Expand the EPA's schools programs which provides ``tools'' for 
schools to address their school indoor air and environmental hazards. 
If committee members wish to get more detailed information about our 
efforts to improve health and school environmental conditions in 
Massachusetts, please feel free to contact: Tolle Graham, Healthy 
Schools Program Coordinator, MassCOSH, 617 825-7233 x19 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3d6952515158137a4f5c555c507d505c4e4e5e524e5513524f5a">[email&#160;protected]</a>
    The Healthy Schools Network includes:
    Asthma and Allergy Foundation of America, New England Chapter
    Boston Urban Asthma Coalition
    Bowdoin Street Health Center
    MA Association for the Chemically Injured
    MA Coalition for Occupational Safety (MassCOSH)
    MA Parent Teacher Association
    MA Public Health Association
    MA Teachers Association,
    MA Public Interest Research Group (MassPIRG)
    Toxics Action Center
    Western MassCOSH

                               __________
    Statement of the Healthy Schools Network, Inc., Sanitizers and 
                          Disinfectants Guide

    GOOD NEWS.--Sanitizers and disinfectants can play an important role 
in protecting public health. They are designed to kill ``pests,'' 
including infectious germs and other microorganisms such as bacteria, 
viruses, and fungi.
    BAD NEWS.--Unfortunately, Sanitizers and disinfectants also contain 
chemicals that are ``pesticides.'' Exposure to persistent toxic 
chemicals in pesticides can cause serious health problems.
    Healthy Schools Network, Inc. (HSN) recommends schools follow all 
public health laws and regulations regarding the use of sanitizers and 
disinfectants in schools, and proceed with extreme caution when using 
any chemicals around children or staff. If the law does not require a 
chemical use, schools should conduct a thorough analysis of the 
potential risk of introducing another chemical cleaning product into 
the school environment. The purpose of this Guide is to provide basic 
information about the use of sanitizers and disinfectants.
    (Underlined words are defined in the Glossary on page 4.)

                        HOW ``TOXIC'' IS TOXIC?

    A chemical is toxic if it can cause harm to humans or the natural 
environment. Some chemicals are more harmful, depending on how strong 
they are, and whether or not they are persistent. The U.S. EPA must 
register sanitizers and disinfectants before they can be placed on the 
market for sale. Registration, however, does not assure safety.

                      CHILDREN ARE AT GREATER RISK

    Children are especially vulnerable to toxic chemical exposure. They 
can be exposed in the following ways:
    <bullet> Inhalation: Children breathe more air per pound of body 
weight than adults. Toxic vapors or fumes can cause breathing problems, 
or be absorbed into the bloodstream.
    <bullet> Skin contact: Children are less able to identify and avoid 
hazards, and have immature systems that may not detoxify poisons. 
Residues from chemicals can damage skin and eyes by burning tissue, or 
be absorbed through the skin and carried to body organs.
    <bullet> Ingestion: Children play on the floor or ground, drink or 
eat chemicals through hand-to-mouth touch, or can lick off a surface, 
such as a toy or a desktop.

                 SANITIZING AND DISINFECTING IN SCHOOLS

Requirements
    <bullet> Federal law requires schools to follow all applicable 
State and local laws and regulations for proper sanitation and health.
    <bullet> New York State regulations require sanitization of food 
service areas only. Aside from this, there are no New York laws that 
require sanitizing or disinfecting in schools. Despite this, some 
schools apply or misapply sanitizers or disinfectants in other areas in 
the school building.
    <bullet> The Federal Occupational Safety and Health Administration 
(OSHA) Bloodborne Pathogen (BBP) regulations require a special cleanup 
strategy (including the use of an EPA-registered disinfectant) to 
protect employees when Hepatitis-or HIV contaminated blood or other 
bodily fluids may be present. This most often occurs in emergency or 
first-aid situations. Schools must still follow OSHA/BBP when, for 
example a fight, playground/sports injury, or illness results in 
bleeding or vomiting.
    Out-of-State readers should check with their own State or local 
Department of Health for regulations on the use of disinfectants or 
sanitizers in school.

Common Sense Strategies
    <bullet> Thorough, routine frictional cleaning of surfaces is an 
extremely effective strategy for protecting building occupant health.
    <bullet> The maintenance of healthy and safe buildings is a 
challenge. Before a school goes beyond legal requirements and routinely 
use sanitizers or disinfectants, these products should be selected 
carefully and used exactly according to label directions to achieve the 
best possible results, while protecting people--especially children--
from harmful chemical exposure.

Commonly Used Sanitizers and Disinfectants
    The following chemicals are the active ingredient in many 
sanitizers and disinfectants. Some products are sold as concentrates, 
which can be highly toxic and should be used with extreme caution. The 
level of toxicity will depend upon how much they are diluted. Some 
chemicals are persistent, no matter how much they are diluted.
    <bullet> Phenol Compounds or Carbolic Acid: Used mostly in 
industrial disinfectant products they are also purchased by schools. 
Fatal poisoning can occur through skin absorption. Ingestion of small 
even small amounts may cause vomiting, circulatory collapse, paralysis, 
convulsions and induce comas. Exposure to vapors or fluids commonly 
causes light sensitivity and sinus congestion. Skin contact can result 
in severe burns, skin ulcerations, rashes, swelling, pimples and hives.
    <bullet> Sodium Hypochlorite--Chlorine Bleach: Used in many 
disinfectant products, especially those designed to remove mold and 
mildew. Only a limited number of products registered with the U.S. EPA 
contain sodium hypochlorite. It is a respiratory irritant and can 
trigger asthma attacks. Chlorine can burn eyes and skin, and if it is 
mixed with other cleaners such as ammonia, it will produce a deadly 
gas. When chlorine mixes with other organic materials, it can produce 
dioxins and furans--the most toxic chemicals known--which are 
persistent in the environment and bioaccumulate in living tissue.
    <bullet> Quaternary Ammonia Compounds--QUATS: When these compounds 
are properly diluted they are non-staining and non-corrosive to most 
surfaces. QUATS are irritating to the eyes and skin. Products using 1 
percent of certain Quats as their active ingredient are considered 
toxic to aquatic life.
    <bullet> Isopropyl alcohol--Isopropanol: This is the most common 
form of alcohol used for cleaning compounds. It must be at a 
concentration of 60 to 90 percent to be effective in killing germs. 
This is a highly flammable chemical and can burn and irritate the eyes. 
It is moderately toxic to humans by skin contact; drinking or breathing 
can cause headaches, dizziness, hallucinations, shortness of breath, 
nausea, vomiting, and coma.
    <bullet> Pine Oil: This naturally occurring oil derived from pine 
trees is considered old technology, but it is still used today. As a 
disinfectant, it is weak, and an 80 percent solution (8 quarts of pine 
oil to 2 quarts of water) would be needed to kill germs. In its pure 
form, it can cause eye and skin irritation to eyes and it is moderately 
flammable.
    <bullet> Hydrogen Peroxide: Highly concentrated forms of hydrogen 
peroxide can be irritating to the eyes and skin. Hydrogen peroxide is a 
sanitizer found in cleaning products that also contain detergents and 
other ingredients such as citrus oils because they effectively clean 
soiled surfaces. (The hydrogen peroxide sold in drug stores as an 
antiseptic should not be used as a cleaning product.)
       germ reduction and pesticide exposure prevention checklist
1. Prevention:
    <bullet> Keep dirt out of the building and under control.
    <bullet> Clean often and carefully.
    <bullet> Encourage frequent handwashing among students and staff.
2. Think carefully before using a disinfectant product:
    <bullet> Evaluate areas most often touched by people.
    <bullet> Thoroughly clean these surfaces to remove dirt, spills, 
finger marks, etc.
    <bullet> Re-evaluate the need to sanitize or disinfect: cleaning 
may be sufficient.
    <bullet> If you choose to use a toxic product, follow the 
directions on the label exactly (see #3 below).
    <bullet> Do not use toxic products when children are present.
    <bullet> Remember: a surface must be thoroughly cleaned before a 
sanitizer or disinfectant is applied, otherwise the product may not be 
fully effective. Allow time for the sanitizer or disinfectant to 
react--make sure it is used when people will not be using the surface 
until the reaction has occurred and the toxins have dissipated.
    <bullet> Make sure the area is well ventilated while the product is 
being used and before the area is reoccupied, especially by children.
3. Read labels, check Materials Safety Data Sheets (MSDS) and ask:
    <bullet> What is the ``active ingredient?''
    <bullet> Is it designed to kill the target germs or other 
organisms?
    <bullet> Is there a safer alternative that will do the job with 
minimal risk of toxic exposure?
    <bullet> Has the staff been trained to use the product in a manner 
that is protective of children?
    <bullet> Will it damage the surfaces cleaned with it?
4. Other tips:
    <bullet> If using a product from concentrate, make sure it is 
diluted properly. Measure accurately and use proper equipment.
    <bullet> Use the smallest amount of the product possible to achieve 
the intended result.
    <bullet> Sanitizers and disinfectants should be stored safely and 
disposed of in an environmentally safe manner.

                                GLOSSARY

    Microbes--Microorganisms such as bacteria, germs and viruses.
    Active Ingredient--The ingredient that kills the target organism.
    Toxic--Refers to chemicals that can cause harm to humans or 
animals.
    Hazardous--Refers to chemicals that are dangerous.
    MSDS--Material Safety Data Sheets arc the manufacturer's summary of 
the potential hazards of a product. They include information on health 
effects, safe use, handling and storage, etc. For more information on 
MSDS, call the Healthy Schools Network.
    Disinfectant--A product designed to kill microbes.
    Sanitizer--A product deigned to reduce the amount of microbes.
    Sterilizer--A product designed to kill all microbes; for example, 
in a hospital.
    Frictional Cleaning--Cleaning while rubbing vigorously.
    Persistent Toxic Chemical--A chemical that remains in the 
environment and causes harm to humans and animals.
    USEPA--United States Environmental Protection Agency.
                         sources and resources
    <bullet> Healthy Schools Network, Inc. Healthier Cleaning and 
Maintenance Practices and Products for Schools. 518 462-0632 or http: /
/ www.healthyschools.org. Contains a step-by-step process and 
checklists for healthier practices and products.
    <bullet> Thomas Barron, Carol Berg, Linda Bookman, Janitorial 
Products Pollution Prevention Project, sponsored by USEPA, Region 9, 
http: // www.westp2net.org.
    <bullet> US Environmental Protection Agency, http: // 
www.usepa.gov/pesticides.
    <bullet> Minnesota Technical Assistance Program, University of 
Minnesota, http://www.mtap.umn.edu
    <bullet> Ted Schettler, MD, MPH, Jill Stein, MD, Fay Reich, PsyD, 
Maria Valenti, David Wallinga, MD, In Harm's Way: Toxic Threats to 
Child Development, Greater Boston Physicians for Social Responsibility, 
11 Garden Street, Cambridge, MA 02138, http://www.igc.org/psr/

                                                School Buildings
                                          [School Building Conditions]
----------------------------------------------------------------------------------------------------------------
                                                     School Building Condition (*/-) *              Enrollment
                  State                  -------------------------------------------------------- Growth**  1996-
                                            A      B      C      D      E      F      G      H         2000
----------------------------------------------------------------------------------------------------------------
Alabama.................................     59     39     63     30     22     38     26     34          91,000
Alaska..................................     69     45     80     33     39     33     52     45          16,000
Arizona.................................     64     41     69     30     20     40     30     28          51,000
Arkansas................................     42     25     62     22      8     22     12     20          11,000
California..............................     71     43     87     40     25     41     29     56       1,064,000
Colorado................................     58     32     63     26     29     28     37     33          40,000
Connecticut.............................     58     30     68     32     24     25     35     41           8,000
Delaware................................     70     40     65     36     26     50     30     49           9,000
District of Columbia....................     91     49     73     67     31     65     34     41          15,000
Florida.................................     57     31     80     23     18     32     35     42          98,000
Georgia.................................     37     26     48     24     12     18     12     38         113,000
Hawaii..................................     57     21     78     16     --     20     26     61          24,000
Idaho...................................     56     32     64     31     20     32     36     37          25,000
Illinois................................     62     31     70     23     21     38     29     41          76,000
Indiana.................................     56     29     67     15     21     29     29     32          47,000
Iowa....................................     50     19     67      7     11     21     24     15             n/a
Kansas..................................     55     38     74     28     22     32     35     37           4,000
Kentucky................................     59     31     63     34     18     24     26     25           8,000
Louisiana...............................     50     39     66     28     18     25      7     39           9,000
Maine...................................     60     38     71     38     20     30     29     35          11,000
Maryland................................     67     31     65     33     19     26     29     36          93,000
Massachusetts...........................     75     41     80     41     33     36     42     49         195,000
Michigan................................     52     22     61     20     17     22     25     38          49,000
Minnesota...............................     57     38     66     62     15     33     36     25          32,000
Mississippi.............................     50     28     54     27     11     28      9     20           3,000
Missouri................................     48     27     58     20     10     30     13     26          61,000
Montana.................................     45     20     69     19      9     19     21     25           2,000
Nebraska................................     44     35     61     20     17     24     33     21           9,000
Nevada..................................     42     23     57     18     21     16     23     25          24,000
New Hampshire...........................     59     38     78     20     25     28     47     35          31,000
New Jersey..............................     53     19     69     25     10     20     22     34         109,000
New Mexico..............................     69     30     75     29     24     43     33     42          30,000
New York................................     67     33     76     31     21     28     36     35          36,000
North Carolina..........................     55     36     68     25     14     22     23     42         110,000
North Dakota............................     49     23     62     19     20     28     29     18             n/a
Ohio....................................     76     38     83     33     25     39     33     51         111,000
Oklahoma................................     54     30     64     26     19     32     21     32          38,000
Oregon..................................     63     39     84     36     27     41     40     34          62,000
Pennsylvania............................     42     21     57     19     17     20     23     17         160,000
Rhode Island............................     61     29     75     23     26     27     29     45          25,000
South Carolina..........................     52     37     66     28     13     28     26     33          48,000
South Dakota............................     45     21     50     26     15     25     26     15             n/a
Tennessee...............................     56     27     64     22     17     21     19     25          40,000
Texas...................................     46     27     60     23     14     26     16     22         298,000
Utah....................................     62     34     72     32     22     33     34     27          47,000
Vermont.................................     53     21     58     21     23     19     32     26           5,000
Virginia................................     60     27     58     32     17     32     22     29         110,000
Washington..............................     60     44     74     32     30     39     42     35         133,000
West Virginia...........................     67     42     82     26     34     28     46     18             n/a
Wisconsin...............................     49     33     60     18     14     24     20     33          19,000
Wyoming.................................     49     24     68     24     11     19     24     16           6,000
----------------------------------------------------------------------------------------------------------------
* Source: School Facilities, Profiles of School Conditions by State, U.S. General Accounting Office, 1996.
** Projected enrollment growth, 1996-2006. Source: U.S. Department of Education, National Center for Education
  Statistics, Common Core of Data Surveys.
A--At least one inadequate building feature (roofs, framing, floors, foundations, exterior walls finishes,
  windows, doors, interior finishes and trims, plumbing, heating, ventilation, air conditioning, electrical
  power, electrical lighting and life-safety codes).
B--At least one building needing extensive repair or replacement.
C--At least one unsatisfactory environmental condition.
D--Crumbling roofs.
E--Inadequate plumbing.
F--Bad plumbing.
G--Poor ventilation.
H--Lacking enough power outlets and wiring to accommodate computers and multimedia equipment in classroom.

      
                                                   October 4, 2002.
Mr. Joel Klein, Chancellor,
NYC Dept. of Education,
110 Livingston Street,
Brooklyn, NY.

Re: The quality of indoor air at PS65Q, and the toxicity of 
TriChloroEthylene that lies beneath the premises

    Dear Mr. Klein: I turn your attention to the attached material that 
refers to the captioned subject. This letter comes to you and your good 
office after I have observed you on the television media making 
specific comments on your stance with NYC's children, viz., ``children 
come first.''
    The situation at PS65Q has evolved into one with many confusing 
matters and has left parents doubtful and insulted. As the letter 
indicates, the TCE presence was uncovered since May of 2002, with the 
relevant DOE officials implementing the necessary steps to have the 
indoor air and the subsoil tested for the contaminant. The DOE had 
three meetings (to date 08/29/02) with parents indicating that the 
school was safe. At the meeting in June 2002, it was revealed that the 
air in the basement classrooms contained high levels of carbon dioxide, 
which is expected, as the basement rooms have no ventilation. My 
daughter has been in two classrooms with no ventilation. In the third 
grade she was in a cramped room with no windows, and in the fourth 
grade she was in a basement classroom, again with no windows. She has 
since developed asthma since attending PS 65Q. There are other children 
in the school who have been sick, the statistics of which your office 
investigated and determined that it compares with that in other Queens 
schools. The actual documentation of the illnesses cannot be trusted 
due to the unapproachability of the medical staff at the school. This 
is not an accusation, but a mere feedback from the children.
    In tests conducted in July 2002, in the subsoil airspaces, TCE was 
present. At the meeting in August 2002 those results were disclosed. At 
that meeting, Congressman Anthony Weiner was present and raised 
questions regarding the plume of TCE. The experts from NYCDOH indicated 
that the plume is growing and can grow upward. The most important 
question asked was relating to the cleanup of the TCE and what has been 
done so far. At that time, the NYCDOE was in negotiation with Ozone 
Industries to agree on the financial part of the cleanup. The NYCDOE 
was supposed to also install some air evaporators to assist in the 
ventilation. Further to that time, I am uninformed as my daughter was 
transferred to PS62Q.
    This brings me to another confusing matter. At the end of the last 
school year, the parents suddenly received application forms for 
transfers for students because PS65Q was now a ``Title I'' school. This 
was unknown until that time. Prior to that event, at one of the 
meetings, the Superintendent for District 27, Mr. Bromme, indicated 
that we could call the district office and request transfers for 
children if the parents wanted their children out of PS65Q. Many 
parents, of course, jumped at that offer, only to find out that the 
options were indeed very far away. I requested a transfer to PS62Q and 
was denied because there were no seats, yet under the Title I transfer, 
there were. That needs explaining.
    Another concept that needs explaining is the meaning of ``Title I'' 
and what broad parameters need to be satisfied for this to be labeled. 
I have been told that it relates to the overall lowered academic 
performance of the school on a whole and that it needs improvement. The 
school administration has conveyed that ``Title I,'' relates to the 
financial status of the parents of the children who attend and the fact 
that the children receive free breakfasts and lunches. How does this 
now connect to The No Child Left Behind Act?
    Whatever the policies of the NYCDOE mandate for standards is not 
questionable, but rather the people therein who enforce such mandates. 
The communicating part of your department needs to be versed in such 
issues before they can convey it to the parent population, some of who 
are not highly educated as they. The explanations given by the district 
and the school are different.
    Your views on these issues are sought, as well as the agenda for 
the cleanup, which now affects the community.
            Respectfully,
                                               Katie Acton,
                                                   Parent/Resident.
      
Statement of Philip J. Landrigan, M.D., M.Sc., Ethel H. Wise Professor 
 and Chair, Department of Community and Preventive Medicine, Professor 
     of Pediatrics, Director, Center for Children's Health and the 
       Environment, Mount Sinai School of Medicine, New York, NY
    Mr. Chairman and members of the committee: my name is Philip J. 
Landrigan, MD. I am a pediatrician, Chairman of the Department of 
Community and Preventive Medicine and Director of the Center for 
Children's Health and the Environment of the Mount Sinai School of 
Medicine in New York City. A copy of my curriculum vitae is attached to 
my testimony.
    I will focus my testimony on environmental threats to children's 
health in America's schools.

                              INTRODUCTION

    School is a place where children spend 5 to 8 hours per day, 5 days 
each week for 12 or more years of their lives. For our nation's future, 
it is essential that schools provide our children a sound education and 
prepare them for future citizenship. It is also essential that our 
nation's schools provide a safe haven for our children and contain an 
environment that is free from threats to children's health.
    Unfortunately, schools are not always free from environmental 
hazards. Pesticides, lead, and asbestos are three classes of hazardous 
chemical that have been found in America's schools. These are chemicals 
that can cause disease, acute as well as chronic. They can interfere 
with children's learning.
    Fortunately, there exist well-studied, and proven techniques for 
dealing with these environmental hazards in schools and for minimizing 
the threats they pose to our children's health. I shall review this 
information in my testimony.

            CHILDREN'S VULNERABILITY TO ENVIRONMENTAL TOXINS

    Children are especially sensitive to environmental toxins. Pound 
for pound of body weight, children have greater exposure to pesticides 
because they drink more water, eat more food and breathe more air than 
adults. Two additional characteristics of children further magnify 
their exposures: (1) they live and play close to the floor; and (2) 
they constantly put their fingers into their mouths. Children's 
metabolic pathways, especially in the first months after birth are 
immature. Generally they are less well able to metabolize, detoxify, 
and excrete toxicants than adults and thus are more vulnerable to them. 
Children are undergoing rapid growth and development, and their 
developmental processes are easily disrupted. Since children have more 
future years of life than most adults, they have more time to develop 
chronic diseases that may be triggered by early exposures.
Pesticides
    The Problem. Schools, with their cafeterias and lunches stored in 
lockers, provide an ideal indoor habitat for pests. According to 
cooperative extension services, common insects that inhabit school 
buildings include cockroaches, bees, wasps, ants, flies as well as 
rodents and birds.
    Pesticides are widely used in schools to combat these pests. 
Pesticides are a diverse group of chemical compounds and they are among 
the classes of toxic chemicals most commonly encountered by children. 
Pesticides include insecticides, fungicides, herbicides, and 
rodenticides.
    Pesticides have been shown to cause injury to human health, as well 
as damage the environment. The health effects include acute and 
persistent injury to the nervous system, lung damage, injury to the 
reproductive organs, dysfunction of the immune and endocrine systems, 
birth defects, and cancer. The principal classes of insecticides in use 
in the United States are the organophosphates, carbamates, and 
pyrethroids. The organophosphates and carbamates are toxic to the 
nervous system and some of the pyrethroids are believed to be toxic to 
the reproductive system and disruptive to endocrine function.
    A recent survey by Connecticut environmental researchers showed 
that schools in 13 of the 16 school districts in Connecticut were 
treated with pesticides on a monthly basis, even though they may not 
have needed it. Surveys in other States have similarly shown that 85 to 
90 percent of school districts routinely apply pesticides, whether or 
not there is evidence of need. Pesticides used indoors included 
bendiocarb, chlorpyrifos, cyfluthrin, cypermethrin, pyrethrin, 
piperonyl butoxide, tralomethrin, and bromadiolone. In addition, seven 
school districts in Connecticut reported that townships were 
responsible for maintaining the athletic fields used by the schools; of 
these, 53 percent used herbicides, some of them known carcinogens.
    The effects of pesticide poisoning on children can be acute and 
obvious, or chronic, cumulative, and subtle. The Consumer Product 
Safety Commission collects data on acute pesticide poisonings in the 
United States, based on statistical sample of emergency rooms in 6,000 
selected hospitals. From 1990 to 1992, an estimated 20,000 emergency 
room visits were the result of pesticide exposure. The incidence was 
disproportionately high among children, who accounted for 61 percent or 
more than 12,000 of these cases. Organophosphates were the class of 
compounds most frequently involved.
    Acute high-dose exposure to organophosphate pesticides inhibits the 
enzyme acetylcholinesterase in the nervous system, leading to a 
spectrum of cholinergic symptoms, including lacrimation, abdominal 
cramps, vomiting, diarrhea, miosis, and profuse sweating. The more 
severe cases progress to respiratory arrest and death. Studies in 
animals indicate that the young are more susceptible than adults to 
this acute neurotoxic syndrome, probably because the young are less 
able to detoxify and excrete organophosphates.
    Concern about the chronic effects of pesticides focuses on two 
particular areas: subclinical neurotoxicity and disruption of endocrine 
function. The notion of the possible ``subclinical toxicity'' of 
pesticides has gained increasing attention in recent years. This term 
denotes the idea that relatively low-dose exposure to certain 
chemicals, pesticides among them, may harm various organ systems 
without producing acute symptoms or being evident in a standard 
clinical examination. The concept arose from studies of children 
exposed to relatively low levels of lead who were found to have 
suffered loss of intelligence and altered behavior even in the absence 
of clinically detectable symptoms. The underlying premise is that there 
exists a continuum of toxicity in which clinically apparent effects 
have asymptomatic, subclinical counterparts. It is important to note 
that these subclinical changes represent truly harmful outcomes and are 
not merely homeostatic or physiological ``adjustments'' to the presence 
of pesticides.
    Recent findings on the developmental toxicity of chlorpyrifos in 
animals illustrate the potential of pesticides to produce subclinical 
neurotoxicity in infants and children. The mechanism of chlorpyrifos-
induced neurotoxicity appears to involve injury to the adenylyl cyclase 
cascade, a system in brain cells that mediates cholinergic as well as 
adrenergic signals. Even at low doses of exposure, insufficient to 
compromise survival or growth, chlorpyrifos was found to ``produce 
cellular deficits in the developing brain that could contribute to 
behavioral abnormalities.''
    Because these animal data are so recent, studies of the 
developmental toxicity of chlorpyrifos in human infants have not yet 
been conducted. However, the animal data raise the concern that 
chlorpyrifos may not be the only organophosphate pesticide that could 
be a developmental toxicant in humans. The potential for such toxicity 
may be substantial in urban communities, where chlropyrifos is heavily 
applied in closed apartments.
    On the basis of these findings, the EPA recently issued a ruling 
that bans the sue of chlorpyrifos in schools, parks, and day-care 
settings and that prohibits and phases out nearly all residential use. 
Preventing developmental disability in children was the major reason 
for this ruling. But many other similar organophosphate remain on the 
market and are used in schools.
    The potential of pesticides to disrupt endocrine function has been 
recognized for nearly four decades, ever since the 1962 publication of 
Rachel Carson's Silent Spring. Carson's work showed that eagles and 
ospreys who had been heavily exposed to DDT had suffered disrupted 
estrogen cycles. As a result, these two predatory species at the top of 
the food chain were producing thin-shelled, nonviable eggs. Carson's 
work, along with the desire to prevent the bald eagle from becoming 
extinct, prompted the EPA to ban DDT in the early 1970s.
    Recent concern about the endocrine toxicity of pesticides in humans 
has focused especially on the pyrethroids, a class of insecticides 
widely used as substitutes for chlorpyrifos and other organophosphate 
and carbamate pesticides. Pyrethroids have been used in pediatric 
practice to control body lice and scabies instead of more toxic agents 
such as lindane, and their acute toxicity is generally low. However, 
hormonal activity has been reported for certain pyrethroids in 
laboratory systems, suggesting that their capacity to affect hormonal 
and reproductive development in children should be investigated 
further.
    The Solution. The control of pests in schools does not require 
heavy, preventive sprayings of toxic pesticides that can be harmful to 
children. The approach to pest management that is preferred by public 
health professionals is Integrated Pest Management (IPM). This concept 
calls for an approach that relies on a thorough knowledge of each pest 
and use of least-toxic, common-sense methods of keeping pests under 
control. The best, least-toxic way to control pests is to prevent them 
from ever infesting an area in the first place--make sure they cannot 
get in, deny them access to food and water, and make the building 
uninhabitable. The IPM approach to cockroach control begins with 
eliminating the things that are attractive to them: take away their 
water sources by repairing leaky pipes and faucets, and treat areas 
that have condensation on them; wipe out their travel plans by 
repairing cracks and crevices with caulk; and take away their food 
sources by cleaning countertops and cooking surfaces. In IPM, chemical 
pesticides are used only as the strategy of last resort. I highly 
recommend that school districts contact their local cooperative 
extension program to see if they have IPM advice for pests in the 
district's region.
    A legislative approach that has proven successful in several States 
in reducing children's pesticides exposures in schools is a legally 
mandated requirement that school districts provide parents advance 
notification of any planned application of pesticides. This approach 
has been adopted into law in Connecticut. Another sensible approach 
would be to develop a list of the most toxic pesticides and ban them 
from school premises.

Lead Paint
    The Problem. Lead is a toxic metal that can damage the kidneys, 
heart, and gastrointestinal system and can lead to brain damage in 
children. Granted, severe cases of lead poisoning have become less 
common in this country as medical treatment and efforts at prevention 
have become more sophisticated. However, we still need to be concerned 
because even low levels of lead can damage the developing brain and 
nervous system of a child. Studies have shown that children with even 
small amounts of lead in their blood have more difficulty learning and 
have lower intelligence quotients (IQ) than children without lead in 
their blood. In addition to affecting intelligence, lead poisoning may 
also cause behavioral problems, including a shortened attention span. 
The effects of lead poisoning (which are permanent) can occur silently 
and may often cause no symptoms.
    The Solution. If lead paint is present, schools should call their 
local or State health department to find out what steps need to be 
taken to insure that children are not at risk for lead poisoning. Even 
if lead paint is not chipping or peeling, it can still pose a risk to 
children.

Lead in Drinking Water
    The Problem. In many older schools, drinking water is contaminated 
by lead because these schools have lead pipes in their plumbing. Some 
schools also have lead solder in their plumbing (lead solder was banned 
from use by the Federal Government in 1986). When water sits in contact 
with lead pipes or lead solder overnight, over a weekend, or during 
school vacations, it is possible for lead from the plumbing system to 
leach into the drinking water. Lead has also been found in some types 
of water fountains. Since childhood lead poisoning results from a 
child's cumulative exposure to lead from many sources in the 
environment, it is important to eliminate lead from every possible 
source in the environment, including water.
    The Solution. The EPA has published guidelines to prevent lead 
poisoning. Under these guidelines, schools are required to test their 
water in a prescribed fashion and in accordance with EPA guidelines. If 
lead is detected in the water, the source must be identified and 
removed.

Asbestos in Schools
    The Problem. Asbestos is a mineral that has been used in schools 
for heat insulation and for acoustic purposes. Since the 1920s, 
billions of tons of asbestos have been used in homes, schools, and 
public buildings in the United States. The heaviest use of asbestos 
occurred in buildings built in the 1950s and 1960s. In the 1970s, the 
use of asbestos rapidly declined as the health hazards of asbestos 
became better known. Such hazards include lung cancer and malignant 
mesothelioma (a cancer of the chest and abdomen lining). These cancers 
occur years after inhaling asbestos fibers. Lung cancer can occur 10 to 
30 years after exposure to asbestos fibers, while mesothelioma 
generally occur 20 to 50 years after exposure.
    The Solution. If asbestos is in poor condition, with apparent 
flaking and friability, it needs to be removed by a licensed, certified 
asbestos removal expert. If the asbestos is in good condition, with no 
flaking or cracking, it is better to leave it alone, and a commonly 
used approach is to put physical barriers between it and children, 
while continuing to monitor its condition on a regular basis. Under the 
EPA's Asbestos Hazard Emergency Response Act (AHERA), schools are 
inspected and asbestos removed, according to carefully developed 
regulations.

Conclusion
    Our children are our future. Our responsibility as the elder 
members of our society is to care for our children, protect their 
health, and guide them to successful adulthood.
    The protection of children against toxic chemicals in the 
environment poses a major challenge to modern society. Hundreds of new 
chemicals are developed every year and released into the environment, 
and many of these chemicals are untested for their toxic effects on 
children. Thus, the extent of children's exposures to environmental 
chemicals will almost certainly continue to increase: The problem is 
not going away. The challenge, therefore, is to design policies that 
will protect children against environmental toxins and will allow our 
children to grow, develop, and reach maturity without incurring 
neurologic impairment, immune dysfunction, reproductive damage, or 
increased risk of cancer as a consequence of toxic environmental 
exposures.
    The hearing that you have convened today represents a spectacular 
opportunity to build policies that will meet this challenge. I commend 
you on having convened the hearing.

                               __________
                     Statement of Susanne Miller, 
             Vermont Public Interest Research Group (VPIRG)

    Good morning, Chairman and members of the Environment and Public 
Works Committee. Please accept my testimony from the Vermont Public 
Interest Research Group (VPIRG) regarding healthy schools in Vermont 
for today's hearing on ``Green Schools.''
    Currently, many Vermont schools have environmental health problems 
that pose health risks to children and staff. For many years now, VPIRG 
has worked to rid schools in Vermont of environmental hazards and 
reduce the possibility of children being exposed to harmful chemicals 
while at school. A few examples of environmental hazards include poor 
indoor air quality from old ventilation and heating systems, the 
buildup of unhealthy molds, routine application of pesticides within 
(and outside) many Vermont schools, and the use of harmful chemicals 
found in certain cleaning fluids and solvents, school laboratories, and 
art supplies.
    In 1998 VPIRG conducted a survey of Vermont schools to determine 
the extent of chemicals found in the classroom. We learned that 75 
percent of schools surveyed used pesticides on a monthly basis, while 
88 percent of those surveyed used maintenance products containing 
chemicals linked to negative health effects. Headaches, respiratory 
problems, stomach aches, and behavioral and learning disabilities are 
all common symptoms of environmental health exposures.
    While the survey was conducted, a student in Newport Vermont was 
rushed to the hospital after losing consciousness because of poor air 
quality found at North Country Union High School. The school was found 
to have elevated levels of benzene, styrene, and carbon monoxide, and 
air circulation within the school was poor. Multiple complaints 
followed from staff, and at least 76 students cited headaches and 
stomach problems. At first, the school administration was very 
reluctant to acknowledge that there was a problem with indoor air 
quality, but after the threat of a ``sick building syndrome'' lawsuit 
from staff, and heightened community activism, the school agreed to 
look into the issue. Shortly thereafter with the help of the community 
and some EPA funding, the school revamped its ventilation system and 
drastically improved the air quality in the buildings, creating a much 
safer environment.
    The North Country Union High School is not an isolated case of air 
quality hazards in Vermont's schools. In fact, the State legislature 
recognized that there could be serious health consequences from 
environmental hazards and passed a law in 2000 known as the ``School 
Environmental Health Act,'' or Act 125. The law requires the Vermont 
State Department of Health to create a voluntary program for all 
schools that will reduce harmful exposures to chemicals, and lead to 
improved environmental health conditions in schools.
    Although the intent behind the law was clear in that it was to 
improve school environmental health, unfortunately the implementation 
of this law has been dismal. There are three reasons why this law has 
not yet improved environmental health at a single school since 2000. 
First there is inadequate funding and resources available for 
implementation of an effective statewide program. Second, there is 
strong reluctance from many school administrators in recognizing that 
indoor air quality and environmental conditions at schools can relate 
to or cause serious health problems among students and staff. Third, 
the act does not require Vermont's schools to actually take steps 
toward making buildings and facilities safer. This act is not well 
designed to protect children.
    Since the law's inception, VPIRG has worked hard with State 
officials to further the implementation of Act 125. Sadly, the lack of 
funding and of public awareness has significantly delayed the 
improvement of environmental health in Vermont's Schools. Vermont 
desperately needs Federal assistance with funding and with resources to 
make its schools and buildings greener and safer for children.
    VPIRG is currently conducting a new survey with the University of 
Vermont, and the Vermont Department of Education to determine the 
extent of pesticide use within and outside of Vermont's schools and 
buildings. Many States require advanced notification to parents when 
pesticides are applied at school, and the use of integrated pest 
management policies in schools. Integrated pest management policies, 
and pest-proofing of schools is a highly cost effective way for our 
schools to improve their infrastructure and to reduce the use of toxic 
chemicals. Vermont's schools lack these requirements, and so far many 
completed surveys are showing that schools are not engaging in 
integrated pest management, are potentially exposing children to 
pesticides at school, and are not warning parents of pending 
applications. Nor are they taking appropriate steps to pest-proof their 
buildings and facilities.
    Although this survey only focuses on pesticide use at schools, we 
strongly believe that poor air quality, mold outbreaks, and other 
chemical toxic exposures are likely to be found throughout Vermont's 
schools. Not implementing Act 125 and not having Federal funds or 
legislation to promote environmental health at schools puts all 
Vermont's children at risk. We ask for your assistance in making school 
buildings and grounds in Vermont, and around the U.S. safer.
    Specifically, we are asking for:
    <bullet> The funding and implementation of the Healthy and High 
Performance Schools provisions of the ``Leave no Child Behind Act''--
which will allow the U.S. Department of Education to research the links 
between environmental hazards at schools and children's health and 
learning and establish State-based programs for greener schools.
    <bullet> Expansion of the U.S. EPA's schools programs to improve 
indoor air quality.
    <bullet> Passage of the Federal School Environmental Protection Act 
(SEPA) which would make schools ``pest-proof'' and would reduce the 
necessity for routine reliance on pesticide use.
    Thank you for your consideration of this matter, and for the 
opportunity to voice concern about school environmental health in 
Vermont. If I can be of any further assistance to your committee I 
would be happy to provide more information.

                               __________
            Statement of Daniel Swartz, Executive Director, 
                Children's Environmental Health Network

    The Children's Environmental Health Network commends this committee 
for bringing attention to the issue of children's environmental health 
and the important relationship between children's health and the school 
environment.
    We appreciate the opportunity to submit this testimony for the 
record. The Children's Environmental Health Network is a non-partisan 
and multi-disciplinary national project whose mission is to protect the 
fetus and the child from environmental hazards and to promote a healthy 
environment. The Network's Board of Directors and committee members 
include numerous experts in children's environmental health who serve 
on key Federal advisory panels and scientific boards.
    The last few years have seen a dramatic increase in awareness of 
the simple fact that children may be harmed by a wide range of 
environmental toxicants--often in ways quite dissimilar to adults. Yet 
much more needs to be done in educating the public, changing behavior, 
amending our policies, and gaining more information if we are to meet 
the challenge of providing a healthy environment and protecting our 
children from environmental risk.
    In my testimony, I'd like to highlight a few of the basic medical 
and scientific concepts that form the foundation for this field and 
outline how our policies relating to school facilities can better 
recognize these concepts.
    A fundamental maxim of pediatric medicine is that children are not 
``little adults.'' What does this mean when we talk about children and 
environmental toxicants? Scientists have documented the many 
differences between adult and child behavior and exposures; often these 
differences lead to higher exposures for children. The medical evidence 
is unassailable that every child experiences particular windows of 
vulnerability from conception through adolescence. In brief, children 
can be more susceptible to harm caused by environmental agents. 
Exposures that for an adult may have little or no consequence can 
result in life-long harm for a child.
    There is clear, sound science underlying these principles. There is 
a solid consensus in the scientific community for these concepts. As 
additional scientific knowledge in this field expands, it continues to 
reinforce this foundation. I am attaching materials on these points 
developed by the Network for additional background (Attachment 1).
    If we take these principles and apply them to the school 
environment, these are the types of pediatric, scientific and public 
health concepts that should be shaping the policies and activities of 
our educational institutions:
    <bullet> Children deserve a safe and healthy school environment, 
including protection from harmful environmental exposures.
    <bullet> Every child experiences particular windows of 
vulnerability from conception through adolescence. Exposure at those 
moments of vulnerability to environmental hazards can lead to permanent 
and irreversible damage.
    <bullet> These windows of vulnerability do not exist for adults, so 
standards based on effects on mature systems will not take into account 
children's vulnerabilities.
    <bullet> Children's exposures to environmental toxicants are not 
the same as adult exposures; exposure estimates based on adult 
exposures are likely to understate children's exposures.
    <bullet> Past practices which do not take children's 
vulnerabilities and exposures into account cannot be assumed to be 
protective of children's health.
    <bullet> Parents and other caregivers deserve to know what their 
children are exposed to in school facilities and the impact of such 
exposures.
    <bullet> Research, data collection and other components of public 
health infrastructure must be in place to identify and correct existing 
problems and to prevent potential environmental problems in school 
facilities and children and their caregivers should have access to 
these resources.
    However, in most cases our educational facilities are not guided by 
these concepts. Children spend hours every day in and around their 
school. Chemical toxicants and biological agents in the classroom, on 
the playground, in the science lab, or in other school facilities can 
lead to health risks and adverse learning conditions. They can affect 
many different body systems and impact health, learning, productivity, 
and self esteem. Yet few steps have been taken to protect children from 
environmental toxicants in the school environment. I am also attaching 
to this testimony a summary of the health effects and toxicants of 
greatest concern in the school environment. (Attachment 2)

                       LEADERSHIP THROUGH POLICY

    We join with other witnesses testifying today commending the Senate 
for its leadership in passing such important initiatives as the Healthy 
and High Performance Schools provisions in H.R. 1/P.L. 107-110, the 
``No Child Left Behind Act of 2001'' and the ``School Environment 
Protection Act.''
    Under the Healthy and High Performance Schools program:
    <bullet> The Department of Education is directed to undertake a 
study of ``unhealthy public school buildings'' and their health and 
learning impacts.
    <bullet> A joint Department of Education-Department of Energy-
Environmental Protection Agency grant program was created to award 
grants to State and local educational agencies to support healthy and 
high performance school buildings.
    <bullet> The Department of Education is to biennially report to 
Congress on this program.
    The Network was delighted at the enactment of these provisions. We 
strongly urge their full implementation, and expect these measures to 
receive the strong support of both Congress and the Administration. The 
Department of Education must provide funding and implementation of 
these provisions. The Department must also be a full participant in 
activities such as the Interagency Task Force on Children's 
Environmental Health and Safety and the National Children's Study.
    Though the Network and others were heartened by the Senate's 
decision to--twice--adopt the ``School Environment Protection Act,'' we 
were doubly disappointed by the House's decisions not to accept these 
important provisions on the education bill and the farm bill.
    Many school districts around the Nation have implemented integrated 
pest management (IPM) programs to minimize the use of pesticides and 
have instituted processes to provide advance notice of pesticide use in 
schools to parents and employees. The ``School Environment Protection 
Act'' would further encourage schools to adopt IPM programs and would 
provide a valuable tool for parents.

                            ADDITIONAL STEPS

    These efforts are vital, but additional efforts are needed, such as 
research into the relationship between environmental hazards at school 
and their affect on health and learning. This type of research must 
also involve interagency coordination and support.
    Little is known about the incidence of health effects which may 
have a school-related environmental component, the substances to which 
children are exposed in school, and connections between these exposures 
and health effects. Little is known about exposures in the school 
environment, where millions of American children spend a large portion 
of their childhood. No research or data collection efforts exist. 
Schoolchildren and their families deserve access to an agency which can 
help answer their questions, investigate concerns and provide 
information on exposures.
    A network for identifying, investigating, responding to, and 
preventing environmental health problems in schools is needed to help 
protect children's health in school. Data systems that link 
environmental factors with health conditions need to be developed to 
obtain data for disease prevention and health promotion. Such a network 
would help to close the gap in knowledge regarding the prevalence and 
incidence of environmentally related conditions and environmental 
exposures. The Network urges the committee to support S. 2054, the 
``Nationwide Health Tracking Act of 2002.''
    Schoolchildren deserve to be protected from environmental hazards 
in their school; however, no standards exist providing such 
protections.
    For example, in the States with Occupational Safety and Health 
Administration (OSHA) coverage, school employees are covered by 
standards including:
    <bullet> a written hazard communication standard that lists all 
products with toxic ingredients, access to material safety data sheets, 
training for employees on chemical hazards;
    <bullet> protective equipment for employees to use;
    <bullet> a laboratory standard covering science teachers and 
technicians;
    <bullet> emergency evacuation procedures; and
    <bullet> access to any environmental monitoring performed by the 
employer.
    However, students are not covered by these standards.
    Also, as a result of queries from school personnel, the National 
Institute for Occupational Safety and Health (NIOSH), has visited 
schools for Health Hazard Evaluation (HHE) investigations, which assess 
risks and exposure and health consequences for employees when there are 
no standards. These investigations can be requested by employers and 
employees.
    Just as is the case with OSHA, schoolchildren are not under the 
jurisdiction of NIOSH, so the institute does not have the authority to 
undertake investigations based on concerns about student risks, 
exposures and health effects. The Network believes school children 
deserve at the very least the level of protection and research afforded 
working adults--and probably even more protection.
    We commend you for the leadership you have shown by holding this 
hearing. Again, thank you for the opportunity to testify.
                                 ______
                                 

    Attachment 1.--Protecting Children from Environmental Toxicants 
               (Children's Environmental Health Network)

    Every day, we are exposed to dozens, perhaps hundreds, of 
chemicals. Such extensive exposure is relatively new. Since World War 
II, thousands of new, primarily synthetic, chemicals have been 
discovered and introduced into commerce and our environment. In 1940, 
the annual production of synthetic chemicals was 1.3 billion pounds; in 
1980, it was 320 billion pounds.\1\ In 1999, more than 7 billion pounds 
of toxic chemicals were released into the nation's environment.\2\ 
Chemicals are ubiquitous; traces of synthetic compounds are found in 
all humans and animals around the world.\3\
---------------------------------------------------------------------------
    \1\ Diagnosing and Treating Environmental Health Problems. 
Interview with Robert R. Orford, Minnesota Medicine 1991; 74:7-10.
    \2\ Based on data from the U.S. EPA's Toxic Release Inventory for 
1999, posted on http: // www.scorecard.org / env-releases/us-map.tc.
    \3\ Colborn T., Dumanoski D/ and Myers JP. Our Stolen Future. New 
York, NY:Dutton, 1996.
---------------------------------------------------------------------------
    Both synthetic and natural chemicals, such as lead, once released 
into the environment, can harm the health of humans and wildlife.
    The diverse and growing range of chemicals to which we are exposed 
means that today's children live in an environment vastly different 
from previous generations. Currently more than 70,000 chemicals are in 
use. For the majority of these chemicals, little is known about their 
health effects on children.\4\
---------------------------------------------------------------------------
    \4\ Schaefer M. Children and Toxic Substances: Confronting a Major 
Public Health Challenge. Environmental Health Perspectives 1994; 102 
(Supp 2) :155-156.
---------------------------------------------------------------------------
                CHILDREN ARE NOT JUST ``LITTLE ADULTS''

    Children, from conception through adolescence, are in a dynamic 
state of growth as their immature nervous, respiratory, reproductive, 
immune and other systems develop. Because of these developing systems, 
growing organisms can be more vulnerable to permanent and irreversible 
damage from toxicants than mature organisms.
    Children experience the world differently than adults, meaning that 
children's exposures to environmental toxicants and their levels of 
exposure can vary dramatically from those of adults.

             THE DELICATE CHOREOGRAPHY OF CHILDREN'S GROWTH

    The primary task of infancy and childhood is growth and 
development. If growth and development are hampered, the chances of a 
healthy adulthood are dramatically decreased. Many different kinds of 
environmental insults have the potential to damage these natural 
processes, potentially leading to lifetime harm. It is often impossible 
to repair damages that occur in childhood.
    Studies of the impact of exposure to environmental toxicants on 
development make clear that not just the degree and route of exposure 
but also the timing of the exposure affects the response.
    Example: Development of the Nervous System. One of the critical 
organ systems to be considered in evaluating the effect of 
environmental toxicants on the fetus, infant, and child is the nervous 
system. Its anatomic and functional development is complex, intricate, 
and dependent on a precise sequence of events that occur at specific 
points in the development of the child. This exquisitely scripted 
pattern of development can be disrupted and irreparably injured by 
various agents at various stages, resulting in very specific 
alterations of neurologic and behavioral development. Key stages in the 
anatomical development of the central nervous system, beginning in 
utero and continuing into adult life, include:
    <bullet> Formation of the neural tube, an embryonic structure that 
leads to all further brain development.
    <bullet> Neuron proliferation, the growth of functional brain 
cells.
    <bullet> Cell migration, the process by which cells move from one 
place to another to form the complex structure of the brain.
    <bullet> Synaptogenesis, the process by which connections between 
neurons occur. Both the numbers and complexity of these 
interconnections affect the functioning of the brain.
    <bullet> Cell death. The nervous system initially produces more 
neurons than it needs. The process of brain maturation requires the 
retention of some neurons and the natural loss of other neurons.
    <bullet> Pruning of synapses. Synaptogenesis, which peaks at 2 
years of age, creates more connections between neurons than are needed. 
Subsequently, there is an orderly process of loss of some connections 
and retention of others.
    <bullet> Myelination, the process by which the communicating 
structures of neurons are covered to protect them and improve their 
function. Myelin functions like the insulation on an electrical cord.
    Each one of these vital steps to a healthy brain and nervous system 
can be disrupted by environmental agents, resulting in permanent injury 
or impairment.
    Because of children's developing systems, children can be more 
susceptible to harm caused by environmental agents. Exposures that for 
an adult may have little or no consequence can result in life-long harm 
for a child.
    Children are different from adults in other ways. Because 
biochemical systems are still developing in the fetus and the child, 
their ability to detoxify and excrete toxins differ from adults. This 
difference is sometimes to their advantage, but more frequently 
children are not as able to excrete toxins and thus are more vulnerable 
to them.\5\
---------------------------------------------------------------------------
    \5\ Echobichon DJ and Stevens DD. Perinatal Development of Human 
Blood Esterases. Clinical Pharmacology and Therapeutics 1973; 14:41-47.
---------------------------------------------------------------------------
    What we don't know about the effects and potential effects of 
environmental toxicants is far more than what we do know, not just for 
the nervous system (see box) but also for our reproductive, immune and 
other critical systems, as well as our state of knowledge for 
carcinogenic, endocrine and other health effects.

               CHILDREN EXPERIENCE THE WORLD DIFFERENTLY

    Children's exposures to environmental toxicants, and their levels 
of exposure, can vary dramatically from those of adults.
    Pound for pound, children eat more food, drink more water, and 
breathe more air than adults do. Young children have higher metabolic 
rates than do adults.\6\ A school-age child, on average, drinks twice 
as much water per pound of body weight and eats two to three times as 
much fruit per pound of body weight as an adult.\7\ Because of these 
differences, potential exposure to toxins that might be in the water or 
the air such as lead, pesticides, and nitrates is potentially greater 
for children.
---------------------------------------------------------------------------
    \6\ National Research Council. Pesticides in the Diets of Infants 
and Children. Washington, DC: National Academy Press, 1993.
    \7\ Guzelian PS, Henry CJ, Olin SS, eds. Similarities and 
Differences Between Children and Adults: Implications for Risk 
Assessment 1992. ILSI Press.
---------------------------------------------------------------------------
    Exposure differences are also a result of locations where children 
spend time, the activities in which children indulge, and children's 
level of personal hygiene. Thus, in identifying how children may be 
exposed to a chemical and the level of exposure, it is inadequate to 
simply extrapolate from adult exposure.
    Behavioral differences, because of age and developmental stages, 
means that opportunities for exposure to environmental chemicals such 
as pesticides also differ. These differences exist both between adults 
and children as well as between children of different ages.
    Some examples of children's behavior and activities that lead to 
exposure differences include:
    <bullet> Young children spend hours close to the ground where there 
may be more exposure to toxins in dust, soil, and carpets as well as to 
low lying vapors such as radon or pesticides.
    <bullet> Toddlers and primary school children may spend many hours 
sitting or lying on the floor while watching TV or playing games (2-3 
hours/day). They place their fingers in their mouth frequently (9-10 
times/hour); they are constantly touching their clothes (65 times/
hour), objects (118 times/hour) and surfaces (97 times/hour). When they 
put their fingers in their mouth, whatever they have touched, they 
swallow.
    <bullet> Children often eat snacks while sitting on the floor, thus 
whatever environmental chemicals are on the floor can adhere to both 
their hands and food and will be ingested through hand to mouth 
activities and through contamination of the food with dirty hands.
    <bullet> Primary school children are likely to spend more time 
outdoors than toddlers or infants, typically in contact with dirt or 
grass and are also more likely to be outside barefoot than either older 
or younger children. They roll on the grass, tumble, and play games. 
They typically do not wash their hands after coming indoors and before 
eating. Whatever is on the grass may be absorbed through the skin on 
the body and feet or ingested when they put their hands in their mouth.
    <bullet> Older children also spend a lot of time outdoors, 
typically playing organized games such as soccer or football, or 
hanging out. Their activities may include dermal contact with soil or 
grass.\8\
---------------------------------------------------------------------------
    \8\ Busser HJ, Ott J, van Lummel RC, Uiterwaal M and Blank R. 
Ambulatory monitoring of children's activity. Medical Engineering and 
Physics 1997 19: 440-5; Connolly RD and Elliot JM. Evolution and 
ontogeny of hand function in N. Blurton-Jones (ed). Ethological Studies 
of Child Behavior Cambridge UP, London, 1972; Eaton WO and Yu AP. Are 
sex differences in child motor activity level a function of sex 
differences in maturational status? Child Development 1989 60:1005-11; 
Engstrom L-M. Physical activity of children and youth. Acta Paediatric 
Scand 1980 Suppl 282:101-5; Fenske RA, Black KG, Elkner KP, Lee C, 
Methner M and Soto R. Potential exposure and health risks of infants 
following indoor residential pesticide application. Am J. Public Health 
1990 80:689-93; Freedson PS. Field monitoring of physical activity in 
children. Pediatric Exercise Sci 1989 8-18; Freeman NCG, Ettinger A, 
Barry M and Rhoads G. Hygiene and food related behaviors associated 
with blood lead levels of young children from lead contaminated homes. 
J Exp Assess and Environ Epi 1997 7:103-18; Freeman NCG, Lioy PJ, 
Pellizzari E, Zelon H, Thomas K, Clayton A and Quackenboss J. Responses 
to the Region 5 NHEXAS Time/activity diary. J Exp Assess and Environ 
Epi 1999 in press; Gallahue DL Understanding Motor development: 
infants, children, adolescents (2d ed) Benchmark Press, Indianapolis 
1989; Quackenboss J, Pellizzari ED, Clayton A, Lioy PJ, Shubat P and 
Sexton K. Measurement and analysis of children's exposures to 
pesticides and PAHs. The 7th annual meeting of the International 
Society of Exposure Analysis, Nov. 2-5, Research Triangle Park, NC 
1997; Reed KJ, Jimenez M, Lioy PJ and Freeman NCG. Quantification of 
Children's Hand and Mouthing Activities. J Exp Assess and Environ Epi 
1999 in press; Tsang AM and Klepeis NE. Descriptive Statistics Tables 
from a detailed analysis of the National Human Activity Pattern Survey 
(NHAPS) Data 1996 U.S. EPA/600/R-96/074; Wiley JA. Study of Children's 
Activity Patterns California Air Resources Board, Sacramento, 1991.
---------------------------------------------------------------------------
    This type of behavior/exposure data do not exist for children older 
than 12. In addition to sources of exposure through play that may be 
similar to younger children, older children may have exposures similar 
to adults. For example, adolescents may work on farms or can be exposed 
to workplace toxins in shop class, vocational-education settings, and 
in work settings.
    The data that do exist show that children are more heavily exposed 
than adults to toxicants such as pesticides. For example, studies that 
looked at biomarker levels for a commonly used organophosphate 
pesticide, chlorpyrifos, in children and adults found that the levels 
of the pesticide in children were substantially higher than in the 
adult population.

                                SUMMARY

    In brief, a child's metabolism, physiology, diet, exposure 
patterns, and behavior are different than those of an adult.
    A child is exposed to multiple toxicants in the course of her/his 
life, sometimes simultaneously, sometimes sequentially. Children have a 
longer life span than adults so they have more time to develop diseases 
with long latency periods that may be triggered by earlier 
environmental exposures, such as cancer or Parkinson's disease.\9\ The 
effects of multiple and/or cumulative exposures and their potential 
synergistic effects are not known.
---------------------------------------------------------------------------
    \9\ Landrigan PJ and Carlson JE. Environmental Policy and 
Children's Health. Future of Children Summer/Fall 1995; 5(2):34-52.
---------------------------------------------------------------------------
    Experience with a variety of chemicals, from alcohol to 
environmental toxicants like lead and mercury, has shown us that what 
is safe for the adult is not necessarily safe for the fetus, infant or 
child. Exposure levels that for an adult would have no impact or a 
transitory impact can have life-long negative consequences for a child.
    For More Information: Contact the Children's Environmental Health 
Network at 202 543-4033 or visit the Network's Web site (www.cehn.org) 
which includes the Resource Guide on Pediatric Environmental Health.
    About the Network: The Network is a non-partisan and multi-
disciplinary national project whose mission is to protect the fetus and 
the child from environmental hazards and to promote a healthy 
environment. The Network's three areas of concentration are education, 
research and policy.
                                 ______
                                 

      Attachment 2.--Environmental Health In Schools (Children's 
                     Environmental Health Network)

    Chemical toxicants and biological agents in the classroom, on the 
playground, in the science lab, or in other school facilities can lead 
to health risks and adverse learning conditions. They can affect many 
different body systems and impact health, learning, productivity, and 
self esteem.\10\
---------------------------------------------------------------------------
    \10\ California Department of Health Services. California 
Interagency Working Group on Indoor Air Quality in Schools, ``Indoor 
Environmental Quality in California Schools: An Assessment of Needs and 
Opportunities''. August 1999.
---------------------------------------------------------------------------
    Children spend hours every day in and around their school 
facilities. However, few steps have been taken to protect children from 
environmental toxicants in the school environment.
    Other than lead,\11\ asbestos,\12\ and radon,\13\ the Federal 
Government has not instituted requirements or guidelines that would 
protect children from the same chemical exposures that require employee 
notification and other worker protections. Although students may 
indirectly benefit from the Occupational Safety and Health 
Administration (OSHA) and National Institute for Occupational Safety 
and Health (NIOSH) activities that cover school employees, OSHA and 
NIOSH have no jurisdiction for investigating the health impact of 
exposure to students. Additionally, only 26 States have OSHA coverage 
for their public employees.\14\
---------------------------------------------------------------------------
    \11\ Lead Contamination Control Act, P.L. 100-572.
    \12\ The Asbestos Hazard Emergency Response Act (AHERA) requires 
all schools to inspect and assess the condition of asbestos-containing 
material. (EPA regulations, Title 15, Chapter 53, Subchapter II).
    \13\ In 1989, EPA recommended that schools nationwide be tested for 
the presence of radon. U.S. EPA, Radon in Schools: Air and Radiation. 
Second Edition.
    \14\ OSHA Coverage of State and Local Government Workers
---------------------------------------------------------------------------
    Specific health effects and toxicants of concern in the school 
environment include:

                AIR POLLUTANTS, AIR QUALITY, AND ASTHMA

    Children are especially susceptible to air pollutants. The airways 
of young children are smaller than those of adults. Inhalation of air 
pollutants that would produce only a slight response in an adult can 
result in a significant obstruction in the airways of a young child. 
Children have increased oxygen needs compared to adults, they breathe 
more rapidly and, therefore, inhale more pollutants per pound of body 
weight than adults. They often spend more time engaged in vigorous 
outdoor activities than adults.
    <bullet> Asthma is the leading serious chronic illness among 
children.\15\ The number of children with asthma in the United States 
is rapidly growing, increasing by 75 percent between 1980 and 1994.\16\ 
Asthma is the No. 1 cause of hospitalization among children under the 
age of 15.\17\
---------------------------------------------------------------------------
    \15\ American Lung Association, 2002
    \16\ U.S. Environmental Protection Agency, America's Children and 
the Environment, December 2000.
    \17\ ALA, 2002
---------------------------------------------------------------------------
    <bullet> Asthma is the leading cause of school absenteeism due to a 
chronic illness.\18\ The U.S. Environmental Protection Agency estimated 
that American children lost 17 million school days in 1997 due to the 
disease, and that parents lost 5 million work days in order to care for 
their children with asthma-related illness.\19\ Nearly 1 in 13 school-
age children has asthma.\20\
---------------------------------------------------------------------------
    \18\ U.S. Environmental Protection Agency. Indoor Air-Asthma Facts. 
Available at www.epa.gov / iaq / asthma / introduction.html
    \19\ U.S. Environmental Protection Agency, National Costs of Asthma 
for 1997.
    \20\ U.S. Environmental Protection Agency. Indoor Air-Asthma Facts. 
Available at www.epa.gov / iaq / asthma / introduction.html
---------------------------------------------------------------------------
    <bullet> The impact of asthma falls disproportionately on African-
American and certain Hispanic populations and appears to be 
particularly severe in urban inner cities.\21\ These differences 
include both the incidence of asthma as well as mortality rates. In 
1997, non-Hispanic Black children living in families with incomes below 
the poverty level were found to have the highest rates of asthma.\22\ 
Between 1980 and 1993, death rates for asthma were consistently highest 
among blacks aged 15-24 years.\23\
---------------------------------------------------------------------------
    \21\ U.S. Environmental Protection Agency. Indoor Air-Asthma Facts. 
Available at www.epa.gov / iaq / asthma / introduction.html
    \22\ U.S. Environmental Protection Agency, America's Children and 
the Environment, December 2000, p. 49.
    \23\ Centers for Disease Control and Prevention, ``Asthma Mortality 
and Hospitalization among Children and Young Adults--United States, 
1980-1993,'' Morbidity & Mortality Weekly Report, May 3, 1996.
---------------------------------------------------------------------------
    <bullet> Major indoor triggers of asthma attacks include irritants 
such as commercial products (paints, cleaning agents, pesticides, 
perfumes), building components (sealants, plastics, adhesives, 
insulation materials), animal and insect allergens, environmental 
tobacco smoke, and molds.\24\ Many of these triggers can be found in 
schools.\25\
---------------------------------------------------------------------------
    \24\ American Academy of Pediatrics, Handbook of Pediatric 
Environmental Health, 1999, p. 45.
    \25\ Environmental Law Institute, Research Report. Healthier 
Schools: A Review of State Policies for Improving Indoor Air Quality. 
January 2002.
---------------------------------------------------------------------------
    <bullet> Air pollutants such as particulate matter \26\ and ozone 
\27\ also can trigger asthma attacks.
---------------------------------------------------------------------------
    \26\ U.S. Environmental Protection Agency, 1996 Air Quality 
Criteria for Particulate Matter, Research Triangle Park, NC.
    \27\ U.S. Environmental Protection Agency, 1996 Air Quality 
Criteria for Ozone and Related Photochemical Oxidants, Research 
Triangle Park, NC.
---------------------------------------------------------------------------
    <bullet> Although the causes of asthma are not yet known, one 
recent 10-year study found that ozone was linked to causing asthma, 
especially among physically active school age children living in high 
ozone communities.\28\
---------------------------------------------------------------------------
    \28\ Rob McConnell, Kiros Berhane, Frank D. Gilliland, Stephanie J. 
London, Talat Islam, W. James Gauderman, Edward Avol, Helene G. 
Margolis and John M. Peters. ``Asthma in Exercising Children Exposed to 
Ozone,'' The Lancet, Vol. 359, No. 9304, Feb. 2, 2002
---------------------------------------------------------------------------
    <bullet> Nitrogen dioxide and sulfur dioxide decrease lung function 
in asthmatics.\29\ Long-term exposure to air pollution (such as 
nitrogen dioxide and particulate matter) slows children's lung 
development over time. While these are generally thought of as outdoor 
air pollutants, these agents will be found in schools that keep windows 
open much of the year. In addition, children will encounter these 
pollutants during school hours while on the playground or sports field 
during recess, physical education and sporting events.
---------------------------------------------------------------------------
    \29\ American Thoracic Society, ``Health Effects of Air 
Pollution,'' Am Journal of Respiratory and Critical Care Medicine, 
153:3-50, 1996.
---------------------------------------------------------------------------
    <bullet> Poor indoor air quality can reduce a person's ability to 
perform specific mental tasks requiring concentration, calculation, or 
memory.\30\
---------------------------------------------------------------------------
    \30\ U.S. Environmental Protection Agency. ``Indoor Air Quality and 
Student Performance'' Indoor Environments Division. Office of Radiation 
and Indoor Air. August 2000.
---------------------------------------------------------------------------
    <bullet> Air quality problems inside school buildings can arise 
from a variety of sources, such as mold growth from excessive moisture, 
chemical emissions, insufficient fresh air supply, pollutants, and high 
radon levels.\31\
---------------------------------------------------------------------------
    \31\ Environmental Law Institute, Research Report. Healthier 
Schools: A Review of State Policies for Improving Indoor Air Quality. 
January 2002.
---------------------------------------------------------------------------
    <bullet> 27 percent of schools in a U.S. General Accounting Office 
survey reported unsatisfactory ventilation. 22 percent reported 
unsatisfactory indoor air quality generally.\32\
---------------------------------------------------------------------------
    \32\ Environmental Law Institute, Research Report. Healthier 
Schools: A Review of State Policies for Improving Indoor Air Quality. 
January 2002.
---------------------------------------------------------------------------
    <bullet> An EPA investigation of 29 schools across the country 
found inadequate ventilation in most of the schools.\33\
---------------------------------------------------------------------------
    \33\ U.S. Environmental Protection Agency. Indoor Air-Schools. 
Frequently Asked Questions.
---------------------------------------------------------------------------
           learning disabilities--developmental disabilities
    Seventeen percent of children under 18 have been diagnosed with one 
or more developmental disabilities. These disabilities include 
Attention Deficit-Hyperactivity Disorder (ADHD) and autism and are the 
result of complex interactions among genetic, environmental and 
societal factors that impact children during vulnerable periods of 
development.\34\
---------------------------------------------------------------------------
    \34\ In Harm's Way. Toxic Threats to Child Development Project. 
Executive Summary. 1998. Greater Boston Physicians for Social 
Responsibility.
---------------------------------------------------------------------------
    <bullet> A recent Centers for Disease Control and Prevention (CDC) 
report indicated that approximately 1.6 million elementary school-aged 
children (7 percent of children 6-11 years of age) have been diagnosed 
with ADHD, which is also known as Attention Deficit Disorder (ADD).\35\
---------------------------------------------------------------------------
    \35\ ``Prevalence of Attention Deficit Disorder and Learning 
Disability,'' CDC's National Center for Health Statistics, May 2002. 
Available at http: // www.cdc.gov / nchs / data/series/sr--10/sr10--
206.pdf.
---------------------------------------------------------------------------
    <bullet> A recent National Institute of Environmental Health 
Sciences (NIEHS) study indicated that the incidence of ADHD may be 
greatly underestimated by school and public health officials. In the 
study, parents reported more than 15 percent of boys in grades one 
through five had been diagnosed with ADHD. Overall, more than 9 percent 
of all fourth and fifth grade children studied were taking medication 
to treat ADHD.\36\
---------------------------------------------------------------------------
    \36\ Prevalence of Medication Treatment for Attention Deficit-
Hyperactivity Disorder Among Elementary School Children in Johnston 
County, North Carolina. Andrew S. Rowland, UNM Department of Family and 
Community Medicine. Available at http: // www.apha.org / news / press/
2002--journal/feb02.htm.
---------------------------------------------------------------------------
    <bullet> Known or suspected causes of brain and nervous system 
disorders are exposure to lead, methylmercury, and some pesticides, 
therapeutic drugs and food additives.\37\ Other chemical classes 
suspected of developmental neurotoxicity include cancer chemotherapy 
medications, polyhalogenated hydrocarbons, psychoactive drugs, and 
solvents.
---------------------------------------------------------------------------
    \37\ Congressional Office of Technology Assessment report on 
neurotoxicity, 1990.
---------------------------------------------------------------------------
                                MERCURY

    Schools are places where children and elemental mercury may come 
together via thermometers and barometers, in laboratory courses or 
``show-and-tell.'' Mercury can also be released through broken 
fluorescent light tubes or thermostats. Elemental mercury is a liquid 
at room temperature but readily volatizes to a colorless and odorless 
vapor.
    <bullet> Mercury is a potent neurotoxicant and children are 
particularly susceptible to mercury's dangers. Mercury interferes with 
brain development and more easily passes into the brains of fetuses and 
young children than into the brains of adults.
    <bullet> Both short- and long-term exposure to mercury vapor can 
lead to brain disorders. These include a wide variety of cognitive, 
personality, sensory and motor disturbances.\38\
---------------------------------------------------------------------------
    \38\ ATSDR. Toxicological Profile, Mercury, http: // 
www.atsdr.cdc.gov / toxprofiles/tp46.html. For specific information on 
memory loss, see the section on Health Effects, Section 2.2.1.4, 
Neurological Effects of Metallic Mercury http: // www.atsdr.cdc.gov / 
toxprofiles/tp46-c2.pdf.
---------------------------------------------------------------------------
    <bullet> Mercury poisoning is linked to kidney and liver damage and 
reproductive disorders.
    <bullet> Exposure to high levels of mercury vapor, such as heating 
elemental mercury in inadequately ventilated areas, have resulted in 
fatalities.\39\
---------------------------------------------------------------------------
    \39\ American Academy of Pediatrics, Handbook of Pediatric 
Environmental Health, 1999, p. 147.
---------------------------------------------------------------------------
    <bullet> Mercury-containing products or spills must be properly 
handled. Even small mercury spills require specialists. Improper clean-
up of a mercury release, such as vacuuming up the mercury from a broken 
thermometer, will spread the mercury into the air.\40\
---------------------------------------------------------------------------
    \40\ American Academy of Pediatrics, Handbook of Pediatric 
Environmental Health, 1999, p. 152
---------------------------------------------------------------------------
    <bullet> In July 2000, the National Academy of Sciences concluded 
that every effort should be made to reduce the release of mercury into 
the environment.

                               PESTICIDES

    <bullet> Pesticide exposure may result in symptoms ranging from 
relatively mild headaches and skin rashes to paralysis and death. Some 
long-term illnesses linked to pesticide exposure may be subtle--such as 
neurological disorders or reduced cognitive skills.\41\ Long-term 
illnesses and those with delayed onsets, such as cancer, which may 
appear years after exposure, can also occur. Most exposures to 
pesticides cause no symptoms. Even when exposures are symptomatic, they 
are often misdiagnosed. This may mask the true extent of the illnesses 
caused by pesticides.\42\
---------------------------------------------------------------------------
    \41\ U.S. General Accounting Office, PESTICIDES: Use, Effects, and 
Alternatives to Pesticides in Schools (RCED-00-17), November 1999, p. 
3.
    \42\ U.S. General Accounting Office, PESTICIDES: Use, Effects, and 
Alternatives to Pesticides in Schools (RCED-00-17), November 1999, p. 
3.
---------------------------------------------------------------------------
    <bullet> Scientific reviews of the U.S. pesticide regulatory system 
identified important gaps in knowledge about the health effects of 
pesticides on children's developing systems as well as children's 
actual exposures to pesticides.\43\ According to the American Academy 
of Pediatrics, ``because the health effects of pesticide exposure on 
children are not well studied, an approach that reduces their exposure 
to these chemicals is desirable.'' \44\
---------------------------------------------------------------------------
    \43\ National Research Council. Pesticides in the Diets of Infants 
and Children. Washington, DC: National Academy Press, 1993.
    \44\ American Academy of Pediatrics, Handbook of Pediatric 
Environmental Health, 1999, p. 314.
---------------------------------------------------------------------------
    <bullet> Pesticide use in schools can be widespread. It can include 
``routine spraying,'' ostensibly to prevent the development of 
problems, in classrooms, hallways, the cafeteria, and other areas. This 
type of use may result in children being exposed to high levels of 
pesticides.\45\ Additionally, pesticides can be used in the building 
when an infestation is noted and pesticides may also be used outside on 
lawns and playing fields.
---------------------------------------------------------------------------
    \45\ American Academy of Pediatrics, Handbook of Pediatric 
Environmental Health, 1999, p. 314.
---------------------------------------------------------------------------
    <bullet> Information about on the amount of pesticides used in the 
nation's 110,000 public schools is not available. The Federal 
Government does not collect such data, and, as of 1999, only two States 
collected data on pesticide use in a manner that allows for identifying 
use in school facilities.\46\
---------------------------------------------------------------------------
    \46\ U.S. General Accounting Office, PESTICIDES: Use, Effects, and 
Alternatives to Pesticides in Schools (RCED-00-17), November 1999, p. 
2.
---------------------------------------------------------------------------
    <bullet> From 1993 through 1996, about 2,300 pesticide-related 
exposures involving individuals at schools were reported, according to 
the American Association of Poison Control Centers (although these data 
are not believed to be complete).\47\
---------------------------------------------------------------------------
    \47\ U.S. General Accounting Office, PESTICIDES: Use, Effects, and 
Alternatives to Pesticides in Schools (RCED-00-17), November 1999, p. 
2.
---------------------------------------------------------------------------
                                  LEAD

    <bullet> Lead is a potent neurotoxin. Exposure to lead can cause a 
variety of health effects, including delays in normal physical and 
mental development in children, slight deficits in attention span, 
hearing, and learning disabilities of children. Long-term effects can 
include stroke, kidney disease, and cancer.\48\
---------------------------------------------------------------------------
    \48\ U.S. Environmental Protection Agency. Office of Water. 
National Primary Drinking Water Regulations. Consumer Factsheet on 
Lead.
---------------------------------------------------------------------------
    <bullet> Children of day-care-age who are in lead-contaminated 
buildings will be at highest risk of adverse outcomes from the 
exposure, but older children may be effected as well.
    <bullet> A common source of lead exposure for children today is 
lead paint and the contaminated dust and soil it generates.\49\ 
According to a report on the condition of the nation's school 
facilities by the U.S. General Accounting Office, schools built before 
1980 were painted with lead paint.\50\
---------------------------------------------------------------------------
    \49\ U.S. EPA Office of Children's Health Protection, at http: // 
www.epa.gov / children/toxics.htm.
    \50\ U.S. General Accounting Office, Report to Congressional 
Requesters. 1995 School Facilities: Condition of America's Schools, 
GAO/HEHS-95-61., p. 27.
---------------------------------------------------------------------------
    <bullet> Children may also be exposed to lead through drinking 
water that has elevated concentrations from lead plumbing materials. 
Lead contamination in drinking water occurs from corrosion of lead 
pipes and it cannot be directly detected or removed by the water 
system.\51\ According to the EPA, the longer water remains in contact 
with leaded-plumbing, the more the opportunity exists for lead to leach 
into water. As a result, facilities with on again/off again water use 
patterns, such as schools, may have elevated lead concentrations.\52\
---------------------------------------------------------------------------
    \51\ U.S. Environmental Protection Agency. Office of Water. 
National Primary Drinking Water Regulations. Consumer Factsheet on 
Lead.
    \52\ U.S. EPA, ``Lead in drinking water in schools and non-
residential buildings,'' EPA 812-B-94-002, April 1994, available at 
http: // www.epa.gov / safewater/consumer / leadinschools.html.
---------------------------------------------------------------------------
    <bullet> Some support was provided to schools through the Lead 
Contamination Control Act of 1988 to identify and correct lead-in-
drinking-water problems at schools, especially water coolers with lead-
lined tanks.\53\
---------------------------------------------------------------------------
    \53\ U.S. EPA, ``Lead in drinking water in schools and non-
residential buildings,'' EPA 812-B-94-002, Section 1--Background 
Information (p. 3-11), April 1994, available at http: // www.epa.gov / 
safewater / consumer / leadinschools.html.
---------------------------------------------------------------------------
                    SCHOOL BUSES AND DIESEL EXHAUST

    <bullet> According to the EPA, diesel engine emissions contribute 
to serious public health problems including: premature mortality, 
aggravation of existing asthma, acute respiratory symptoms, chronic 
bronchitis, and decreased lung function. They have also been linked to 
increased incidences of various cancers in adults in more than 30 
health studies.
    <bullet> Diesel exhaust is known to be a major source of fine 
particles that can lodge deep in children's lungs, increasing the 
likelihood of asthma, chronic bronchitis, heart disease and even 
premature death.\54\
---------------------------------------------------------------------------
    \54\ U.S. Newswire via Comtex, February 7, 2002. Berkeley, 
California.
---------------------------------------------------------------------------
    <bullet> In the United States, nearly 600,000 school buses 
transport 24 million students to school daily. Collectively, U.S. 
children spend 3 billion hours on school buses each year.\55\
---------------------------------------------------------------------------
    \55\ Environment and Human Health, inc., Children's Exposure to 
Diesel Exhaust on School Buses, February 7, 2002. Available at 
www.ehhi.org.
---------------------------------------------------------------------------
    <bullet> Children who ride diesel school buses are exposed to an 
excessive amount of toxic diesel exhaust. The excess levels on the 
buses are 23 to 46 times higher than levels considered to be 
significant cancer risks according to the U.S. Environmental Protection 
Agency and Federal guidelines. The diesel exhaust exposures are likely 
to result in an additional 23 to 46 cancer cases per million children 
exposed.\56\
---------------------------------------------------------------------------
    \56\ Natural Resources Defense Council and Coalition for Clean Air, 
No Breathing in the Aisles: Diesel Exhaust Inside School Buses, 2001
---------------------------------------------------------------------------

                                  MOLD

    <bullet> Mold grows on virtually any substance when moisture and 
oxygen are present, including ceiling tiles, carpets, wood and paper. 
Some molds, such as black molds or Stachybotrys, are known to produce 
potent toxins which can cause impaired breathing and cause 
allergies.\57\
---------------------------------------------------------------------------
    \57\ Stricherz, Mark. ``Moldy Buildings: Troubling Trend For Many 
Districts''. Education Week. September 26, 2001.
---------------------------------------------------------------------------
    <bullet> Children can be exposed to mold in schools if the building 
has indoor air that is very damp or if there have been water leaks. 
Mold may grow within 48 hours if the building materials or furnishings 
are damp.\58\
---------------------------------------------------------------------------
    \58\ ``Mold in My School: What Do I Do''. The California Department 
of Health Services. National Clearinghouse for Educational Facilities. 
March 2002.
---------------------------------------------------------------------------
    <bullet> The common symptoms of mold toxin exposure include 
headache, fatigue, diarrhea, nausea and respiratory irritation.\59\
---------------------------------------------------------------------------
    \59\ ``Mold in My School: What Do I Do''. The California Department 
of Health Services. National Clearinghouse for Educational Facilities. 
March 2002
---------------------------------------------------------------------------
    For More Information: Contact the Children's Environmental Health 
Network (www.cehn.org) at 202 543-4033 or the Healthy Schools Network 
(www.healthyschools.org) at 518 462-0632.

                               __________
                    Statement of Derek G. Shendell, 
                Scientist and Public Health Professional

    I am a young scientist and public health professional in the field 
of children's environmental health working and training in California. 
My interests, however, have included urban areas in the United States 
and Latin America witnessing substantial population growth and 
migration to those cities, respectively. My dissertation for a 
multidisciplinary professional-track doctoral program at the UCLA 
School of Public Health concerns school indoor environmental quality 
(IEQ) of California public school classrooms, especially portable 
classrooms. The three projects included in the dissertation conducted 
quantitative measurements of toxic and odorous volatile organic 
compounds, thermal comfort parameters, and/or air exchange or effective 
ventilation rates. In addition, qualitative surveys and interview 
questionnaires were developed and conducted to assess potential indoor 
and outdoor pollution sources, moisture damage and mold growth, energy 
use, and custodian knowledge of HVAC operation and maintenance (O&M). 
Lessons learned have been shared with researchers in agencies and 
universities in California and Texas.
    These projects, and others I work on at Lawrence Berkeley National 
Laboratory, Indoor Environment Department, address linking energy 
efficiency and IEQ parameters or the impact of local traffic from 
freeways on ambient and thus indoor air quality at schools. I 
constructed the annotated bibliography to be presented by Claire 
Barnett of the Healthy Schools Network, Inc. (Albany, NY). This 
document included papers and presentations from recent international 
conferences on school IEQ and health as well as three final LBNL 
reports on our relocatable classrooms study; copies can be available 
upon request.
    Nevertheless, overall and especially in the United States, data on 
school IEQ and environmental health, including ``best practices'' for 
designs and O&M, are limited. Therefore, research and demonstrations 
projects in different geographical areas/climate zones should be 
conducted on:
    1. Energy efficiency and IEQ linkages through adequate and/or 
improved ventilation and environmentally friendly building designs, 
e.g., interior finish materials and furnishings;
    2. IEQ in relation to health, attendance, and productivity of 
teachers and students.
    Without a doubt, public school populations will continue to 
increase across the United States, intensifying the need for clean, 
comfortable, and environmentally friendly school facilities, new or 
modernized, and proper O&M practices. The importance of energy 
efficient classrooms with low-emitting construction, interior finish, 
furnishing, teaching and cleaning materials is evident. Congress should 
fund the Healthy and High Performance Schools program.
      
      Statement of Geri Unger, The Funders' Forum on Environment 
                             and Education

    Schools provide the opportunity for advancement of knowledge and 
creation of a civil society. The type of school facility that we 
provide out children is indicative of the care and respect we hope they 
will grow with. Schools must be safe, healthy and inspirational places 
for study. The full funding and implementation of the Healthy High 
Performance Schools Provision of the Leave Nor Child Behind Act will 
lead the way in insuring that every child in the USA has a seat in a 
school which is:
    <bullet> Healthy
    <bullet> Economic
    <bullet> Environmentally friendly or ``green''
    <bullet> Community Centered
    <bullet> Open to creative learning opportunities
    Studies conducted over the last decade have shown that healthy 
schools, with proper ventilation, lighting, and high indoor air 
quality, make a positive difference in the health and academic 
performance of the children attending them.\1\ Despite these documented 
results, both existing and new schools fail to provide students and 
staff with healthy and academically conducive buildings. The U.S. 
Department of Education in its 1999 report on the Condition of American 
Public Schools Facilities surveyed some 78,300 regular public 
schools,\2\ and estimated that at least $268 billion is needed for 
major rehabilitation and new construction of public schools across the 
country. USEPA estimates that one-half of our nation's public schools 
have indoor air quality problems. This represents an enormous 
opportunity to renovate and design schools that provide a healthy 
educational environment for students and teachers, build social capital 
in surrounding communities, cost less to operate, and impact lightly on 
the ecological health of the environment. In spite of clear evidence 
that such design can result in better health, increased learning 
capacity, and cost savings, numerous obstacles to the implementation of 
these ``high performance'' \3\ schools exist.
---------------------------------------------------------------------------
    \1\ There are numerous studies, among them the following available 
on-line at www.epa.gov / iaq / asthma/intor/index.html; www.epa.gov / 
iaq / schools / caseca.html; www.h-m-g.com; and 
www.innovativedesign.net
    \2\ Conditions of American Public Schools Facilities. 1999 U.S. 
Department of Education http: // nces.ed.gov / pubs2000 / 2000032.pdf
    \3\ ``High performance'' is also used as a term for describing 
student academic performance. We believe that just as students are held 
to high standards, school buildings should be designed for similarly 
high standards of performance, with buildings contributing to student 
opportunities and outcomes.
---------------------------------------------------------------------------
    Perhaps the biggest obstacle to school facilities being healthy and 
high performance is the lack of understanding among key decisionmakers 
and financers of the benefits of environmentally healthy schools. 
Bringing together school facility managers, educators, school finance 
professionals, architects, and health professionals to create a 
strategy for implementing high performance schools is a necessary first 
step toward improving learning environments for all students and 
establishing schools as centers of community.
    Schools are important focal points of neighborhoods and families, 
and the springboard for a civil society. As more children come from 
single parent and dual-income families, the school and its surroundings 
increasingly become a second home to children, especially in the 
elementary years. High performance schools provide a range of benefits 
including a healthy, non-toxic environment during the extended school 
day, enhanced learning ability and the opportunity for community 
leadership in health and environmental issues. Every day one in five 
Americans (approximately 55 million people) occupies a school building, 
and the majority of these occupants are children.\4\ Children and 
teachers spend at least 6 hours per day in school buildings. In many 
communities the extended school day for children in before- and after-
school care can result in children in school facilities for up to 12 
hours. Healthy Schools Network's Claire Barnett suggests that 
``Children spend 90 percent of their time indoors and the great indoors 
is always dirtier, more crowded, and more polluted than the great out 
of doors especially in densely occupied, poorly maintained schools.'' 
\5\ Increasingly, it is important to provide a healthy environment for 
these students and their teachers. Studies have shown that enhanced 
indoor air quality, reduction of air-borne pollutants, increased 
ventilation, increased day lighting, and access to safe outdoor spaces 
enhances student ability to concentrate and study.\6\ Asthma is the 
leading cause of school absenteeism due to chronic illness, accounting 
for over 10 million missed school days per year. Nearly one in 13 
school age children has asthma, and the impact falls disproportionately 
on African American and certain Hispanic populations, particularly 
those living in urban areas \7\ (often representing distressed--both 
from an achievement and facilities standpoint--school districts, where 
students can least afford to miss school). In 1997-1998, 8.3 percent of 
non-Hispanic Black children living in families below the poverty level 
had asthma, the highest for all racial groups and income levels.\8\ 
Studies show that one-half our nation's 115,000 schools have problems 
linked to indoor air quality that may include common asthma triggers 
such as pests, mold and dander, as well as cleaning agents, chemicals, 
pesticides, and poorly ventilated workspaces.
---------------------------------------------------------------------------
    \4\ USEPA Tools for Schools www.epa.gov/iaq
    \5\ Press release January 15, 2002 in reference to The Healthy and 
High Performance Schools amendment to the newly signed Federal 
education budget.
    \6\ http: // www.epa.gov / iaq / schools / caseca.html; http: // 
www.h-m-g.com; http://www.innovativedesign.net
    \7\ http://www.epa.gov/iaq/asthma/intro/index.html
    \8\ America's Children and the Environment: A first View of 
Available Measures, USEPA December 2000.
---------------------------------------------------------------------------
    The economic aspects of school management are a key consideration 
in high performance schools. School funding is at the heart of local, 
State and Federal initiatives to make school facilities healthy and 
conducive to learning. As witnessed in the current California energy 
crisis, heating and cooling costs spare no facility or operation. The 
U.S. Department of Energy (DoE) estimates that schools spend more than 
$6 billion annually on energy, and that they could save at least 25 
percent of this amount through better design (even in renovated older 
buildings) through the use of energy-efficient and renewable energy 
technologies, and improvements in operations and maintenance. This will 
result in an overall savings of 1.5 billion dollars per year. DoE also 
estimates that school energy costs are approximately $110 per student 
per year, with costs of wastewater processing and trash removal adding 
to a total of $140 per student per year. High performance, sustainable 
design solutions can yield savings up to $56 per student per year.\9\ 
As an example of the savings possible, it is estimated that improved 
energy efficiency in 91 public school buildings in Pittsburgh will save 
over $750,000 per year. Given the uncertainty of energy markets, 
schools could be community leaders in reducing energy demand and 
increasing savings. The savings could be used toward physical facility 
improvement, reduction in class size, increased teacher salaries, and 
enhanced instruction. All schools, including those in distressed 
districts, should have the opportunity to realize these savings.
---------------------------------------------------------------------------
    \9\ U.S. Department of Energy Rebuild America K-12 Program
---------------------------------------------------------------------------
    Environmental stewardship is another area where schools can play an 
important role. In a 1994 Roper Starch Worldwide Poll investigating 
young people's attitudes toward the environment, commissioned the 
National Environmental Education and Training Foundation,\10\ it was 
found that students, both from disadvantaged and non-disadvantaged 
areas, feel that protection of human health is by far the most 
important reason for protection of the environment, but that it is also 
important to protect the environment for plants and animals. In order 
to bring students into understanding their own place in nature, schools 
need to emphasize methods of reducing the environmental impact of 
buildings on their surroundings. Reduction in energy use results in 
reduction in air pollution including particulates that cause lung 
disease and ozone pollution, as well as green house gas and acid 
deposition.\11\ Water conservation and appropriate land use are 
important aspects of environmental stewardship as well. Reduction in 
the use of toxics for cleaning and pest control is another contribution 
that schools can make as environmental stewards.\12\ If schools use 
their collective purchasing power toward pollution reduction in 
materials, energy, and maintenance, the overall cost savings could be 
great, as could the non-monetary value of modeling environmentally 
responsible practices for the community at large.
---------------------------------------------------------------------------
    \10\ http://eelink.net/ROPER/html
    \11\ From 1993 to 1998, 146 schools in Canada decreased their 
greenhouse gas emissions by the equivalent of 10,000 tons of carbon 
dioxide.
    \12\ Montgomery County Public Schools in Maryland cut its pest 
control costs from $2,400 per school per year in 1985 to $575 per year 
in 1992 by using Integrated Pest Management and less toxic 
alternatives.
---------------------------------------------------------------------------
    Increasingly, schools are seen as centers of life-long learning for 
the entire community, not just the kindergarten through high school 
years. A national movement integrating schools more closely with the 
community is growing. In a Department of Education April 2000 
Publication ``Schools as Centers of Community: A Citizens' Guide for 
Planning and Design'', the following six principles assert that, in 
order to meet the nation's needs for the 21st century, we must design 
learning environments that enhance teaching and learning to accommodate 
the needs of all learners:
    <bullet> Serve as centers of the community
    <bullet> Result from a planning/design process involving all 
stakeholders
    <bullet> Provide for health, safety and security
    <bullet> Make effective use of all available resources
    <bullet> Allow for flexibility and adaptability to changing needs.
    In order to have the above principles become useful to most 
communities, much work needs to occur across the broad scope of 
community stakeholders in changing the way schools are renovated and 
built.
    Another important characteristic of healthy, ``high performance'', 
energy-efficient schools, is the use of the school building and nearby 
physical environment as a pedagogical tool. Place-based learning and 
environmental teaching techniques are increasingly recognized as 
essential tools in increased retention of science, social science, 
mathematical and language arts skills.\13\ Students investigating the 
``ecological footprint'' or impact of the school building use science 
and math to conduct measurements and audits of energy, materials and 
resource consumption, and apply social studies and language arts to 
propose and communicate strategies for reducing the impact. Teachers, 
once trained in this method find that it opens the door for critical 
thinking, transfer of problem solving skills to other academic 
frameworks and cooperative learning. Studies have shown that scores on 
standardized tests are increased by using environment as an integrating 
concept. Additionally, research done indicates that 96 percent of 
teachers and principals surveyed thought that school design was an 
important part of a good learning environment. Furthermore, 92 percent 
said that they would be willing to devote nearly 4 hours per week to 
collaborating with facility designers, but that most had never been 
asked.\14\
---------------------------------------------------------------------------
    \13\ Improving Student Learning: Using the Environment as an 
Integrating Context. 1997. Gerald A. Lieberman, Ph.D. State Education 
and Environment Roundtable.
    \14\ B. Schapiro and Associates ``Perceptions of Educators about 
School Design Issues,'' survey conducted for Heery International, 
Atlanta, GA. 1998. As seen in Harvard Education Letter. January/
February 1999.
---------------------------------------------------------------------------
    The studies show that improved schools would improve our children's 
health and their ability to learn and achieve. The technology exists to 
build and renovate these building to higher standards. Using high 
performance building techniques saves money and is fiscally responsible 
as well as environmentally responsible by saving energy and water and 
preventing pollution. The wisdom exists to implement policies to 
support our children's health, and the greater community and 
environmental well-being. Governmental leaders can fully fund and 
support these measures that will yield results far beyond the Federal 
investment. I appreciate this opportunity to speak with you today and 
hope that these Federal Governmental mandates will be funded in the 
near future.

                               __________
 Statement of James E. Woods, Ph.D., P.E., of The Building Diagnostics 
                           Research Institute

    Mr. Chairman, I am Dr. James E. Woods, the Executive Director of 
the Building Diagnostics Research Institute, Inc., a not-for-profit 
organization in Bethesda, Maryland. I am pleased to have the 
opportunity this morning to appear before this hearing on ``Green 
Schools Initiatives,'' and I want to commend the committee for 
examining the very important problem of classroom facilities as it 
relates to health and performance of our students and teachers.
    Before offering some recommendations, let me take a moment to place 
this issue in perspective. For the past several decades, an increasing 
awareness has emerged of the direct relationship between indoor 
environmental (IEQ) control and health. However, the dearth of 
scientific, quantifiable data characterizing the relationships between 
this environmental control and student performance is a detriment to 
educational outcomes in our Nation. I was extremely pleased to note, 
Mr. Chairman, that the first recommendation you cited in your opening 
statement this morning was the need for credible, scientific data. The 
need for more scientific research has also been cited by the National 
Research Council and by the General Accounting Office. At the K-12 
level, as various witnesses have testified this morning, the effects of 
indoor exposures can result in life-long impacts on student health, 
learning, and performance.
    Schools in the United States are on average 42 years old and have 
four times as many occupants per square foot as typical office 
buildings. On any given day, one in five Americans spends at least a 
part of the day in a school building. A series of surveys taken by the 
General Accounting Office from 1994 through 1998 indicates that more 
than half of U.S. schools have deficiencies that adversely affect 
indoor environmental quality. But despite these warnings to the public 
and the education community, there is a lack of reliable, scientific 
data quantifying the relationships between indoor environmental quality 
and the performances of building occupants. I am not aware of any 
scientifically designed study that has directly measured the impact of 
the total exposure of thermal, indoor air quality, lighting and 
acoustic stressors on the performance of teachers and students under 
actual classroom conditions. Moreover, there has never been a study on 
a national level seeking to characterize the extent of unhealthy 
schools in the U.S. and the concomitant impact on learning outcomes. 
Yet the Department of Education has been mandated to submit a report to 
Congress no later than 18 months from the enactment of the ``No Child 
Left Behind Act of 2002'' characterizing the problem of unhealthy 
schools in the United States.
    How are we to begin the task of measuring the problem of unhealthy 
schools in America? A first start, Mr. Chairman, is the leadership your 
committee has shown today by calling this hearing and bringing greater 
public attention to the issue. Those of us who have lived with this 
problem for some time have come to the conclusion that the classroom 
environment is part of the learning experience of the students, and it 
is vital that public attention be focused on the need for improved 
school facilities, as you are doing here today with the array of 
witnesses you have brought together for this hearing.
    As I stated earlier, Section 5414 of the Elementary and Secondary 
Education Reauthorization Act of 2002 (popularly referred to as the 
``No Child Left Behind Act'') mandates the completion of a study by the 
U.S. Department of Education and submission of a report to Congress 
within 18 months of enactment (which was January 8, 2002) in which the 
problems unhealthy schools at the K-12 level in America are to be 
characterized and in which recommendations are to be made to Congress 
for remedial actions. I believe that Senator Clinton, a member of this 
committee who has demonstrated leadership in this area, was responsible 
for this mandate. Implementation of this study is essential, Mr. 
Chairman, if we are to begin the process of obtaining quantifiable, 
scientific data to which you alluded at the outset of today's hearing. 
I would like to offer some recommendations to the committee for how we 
might go about conducting a study such as the one envisioned by Section 
5414 of the No Child Left Behind Act, as well as suggest the need for a 
truly national study of the magnitude of this problem that would go 
well beyond the requirements of the Section 5414 provision.
    In evaluating and characterizing the performance of school 
facilities, it is important to use valid and reliable methods, such as 
building diagnostics, which are translated from medical diagnostics 
procedures and require hypothesis formulation and testing. Building 
diagnostics may be used for investigating of buildings that have IAQ 
complaints as well as for assuring that buildings are performing as 
intended. The principles of building diagnostics are focused on 
defining the nature of the problem, e.g. detection of faults in system 
performance, so that interventions can be implemented mitigation before 
failure occurs in exposure or human responses. These procedures also 
embody the concept that objective and measurable performance criteria 
should be defined as an initial step in conducting building 
diagnostics.
    I recommend to the committee that, as a precursor to a national 
study of unhealthy schools, the initial characterization of the problem 
should be drawn from an in depth analysis of a small number of actual 
cases of schools where complaints about the indoor environment in 
schools have encompassed reported illness, confirmed by a medical 
diagnosis, and resulted in litigation. Thus, all of these initial cases 
would have advanced at least as far as the discovery phase and beyond a 
preliminary motion to dismiss. I also recommend that, following the 
initial study of litigation cases, a LEXIS/NEXUS search be undertaken 
and a similar analysis be performed on available litigation cases to 
broaden the data base of what is known about ``unhealthy schools'' and 
their impact on students and teachers.
    This approach I am advocating will enable us to develop a baseline 
of the building performance of unhealthy schools over time, measured 
against objective performance criteria that enable us to identify 
indicators of unhealthy schools. I believe that any school building 
that has been involved in litigation over allegations involving 
``Building Related Illness'' satisfies per se the definition of an 
``unhealthy school.'' By an in depth analysis of the exposure factors 
and related health effects presented in the litigation cases, we will 
then be able to create a data base for defining an unhealthy school. A 
further expansion of this proposed data base can also be made through a 
review of existing data from the General Accounting Office and the U.S. 
Department of Education. Taking into account differences in the size, 
geographic location and grade levels within the schools, the overall 
approach I am advocating will enable the construction of a baseline 
profile of the typical unhealthy school in the United States.
    Once we have this baseline of the building performance of unhealthy 
schools, it will be possible to profile the types of exposures, system 
performance, and other factors such as deferred maintenance that cause 
adverse health effects in school children, and ultimately to develop 
recommendations to Congress for improvements in school facilities.
    I believe that the unhealthy schools facilities study mandated by 
Congress, what I will refer to as the ``baseline study,'' can be 
completed within the statutory timeframe ending July 8, 2003 if this 
committee and other interested committees urge the Department of 
Education to move ahead with the implementation of Section 5414. The 
larger national study I mentioned earlier will involve the acquisition 
of data in schools and will have to await the outcome of the ``baseline 
study'' and the input from other groups and researchers that are 
looking at these problems. Such a study will require a substantial 
dedication of resources, probably in the range of $10-$30 million over 
a period of 3 to 5 years, as in other health effects studies, in order 
to complete a study that is truly national in scope. I urge this 
committee to work with the Senate Committee on Health, Education, & 
Labor and with the Committee on Appropriations to earmark the necessary 
funding beginning in fiscal year 2004 to undertake a national study on 
unhealthy schools.
    We at The Building Diagnostics Research Institute, Inc., (BDRI) are 
very interested in working with you, Mr. Chairman, and with other 
Members of Congress, in securing the implementation of Section 5414 and 
enactment of other measures that will improve school facilities and the 
indoor environment of the nation's classrooms. We are an independent 
not-for-profit research organization. We strive to provide the highest 
level of research, education and training, and public outreach on 
issues related to the effects of building performance on health, 
safety, security and productivity, utilizing an interdisciplinary 
approach to the advancement of the arts and sciences associated with 
the control of indoor environments.
    As you have stated very succinctly here this morning, Mr. Chairman, 
the vision that is required to promote ``healthy schools'' is to 
measurably increase our understanding through the use of quantitative, 
reliable and accurate methods of diagnosing the performance of school 
facilities. While we speak of characterizing the problem of ``unhealthy 
schools,'' let us remember that our goal is not just the absence of 
illness, but also the promotion of healthy classroom environments that 
will enhance student and teacher performance. The goals of healthy 
classrooms and schools facilities, improved system performance, 
increased environmental security, and increased energy efficiency are 
all closely related. This hearing and others like it will contribute to 
the increased public understanding that can be achieved through 
interdisciplinary leadership that focuses on improving the performance 
of school facilities. I look forward to working with you, Mr. Chairman, 
by using our diagnostics protocols and outreach programs for the 
benefit of the general public, policymakers and building owners, and 
those responsible for the design, construction and operations of school 
buildings.
    Thank you, Mr. Chairman, and I would be glad to respond to any 
questions you may have.
                                 ______
                                 
              Statement of Christine Gustafson, Trevor, WI

    Dear Committee Members: We need both, effective national indoor air 
quality standards and an illness tracking system for schools. The lack 
of sufficient funding for school operation and maintenance is like, 
painting a room with a paintball gun and is not conducive to a good 
learning.
    My asthmatic son Glenn, is highly allergic to mold, mildew, and 
fungi. He missed 32 days of school last year in the first two months of 
third grade. For him 40 percent humidity is too low and 50 percent 
humidity is too high. I monitor & record his peak flow breathing levels 
3x a day to document irreplaceable loss of class experience and 
productivity, which is detrimental to his educational attainment. He is 
a part of a minority group that are the labor force replacements that 
must be able to support this country's ever increasing elderly 
population's retirement and healthcare benefits.
    His school is down gradient of high-density development built when 
drain it & get it out of there fast was the acceptable method of 
stormwater management. Three maintenance guys are responsible for 
211,000 sq. ft. plus 80 acres of school property. Their duties include 
setups for programs, meetings and events; heating, snow removal & 
salting; repairs and preventative maintenance. Each custodian has to 
clean 29,000-sq. ft. per day, which equates to just over 60 sq. ft. per 
minute in a normal day. The per student debt last year was $7239.00, 
not including the local high school. Glenn's school used emergency 
funding for repairs because a recent referendum failed by 85 percent. 
The voting majority's average income is about $29,000 which is not a 
living wage.
    Wisconsin capped school operation costs, froze school construction 
costs, and will not recognize the extra 30 million dollars it estimates 
schools could need this year. It does not allow developers to be 
charged impact fees for facilities owned by school districts; and has a 
law which basically says ``you can not build anything worse than 
dirt.'' In this state, built to code is nothing to brag about.
    Children are the most valuable resource in the United States, which 
clearly needs to have healthier schools in this global economy where 
only the smartest nation will survive.

                               __________
 Statement of Joellen Lawson, Special Education Teacher, Fairfield, CT

    My name is Joellen Lawson and I was a Special Education teacher at 
McKinley School from 1991-1998. This is the elementary school in 
Fairfield, CT that was permanently shut down in October 2000 due to 
severe mold contamination. Although it is painful to talk about, I am 
here today because I feel a strong moral obligation to share how long-
term and acute mold exposure ended my twenty-three year teaching career 
and has seriously damaged my health and financial security. Mine is a 
cautionary tale that warns us of what can happen in the absence of 
enforceable air quality standards. My case demonstrates that there are 
not enough safeguards to guarantee teachers and students a safe and 
healthy environment to work in. Thankfully, those of you in the 
legislature are acknowledging and addressing these important issues as 
you seek solutions to remedy the problem of poor air quality in the 
schools. I only wish the current level of public awareness and the 
legislative initiatives being proposed had been established a decade 
ago.
    In 1991, I joined the faculty at McKinley as a part time Special 
Ed. Teacher. I had just completed my second master's degree (ironically 
in Health Education) and was taking additional courses in order to 
become certified in Elementary Education. My volunteer work in the 
community included presenting workshops for statewide conferences for 
CACLD (CT Association for Children with Learning Disabilities) and 
serving on the board of directors for the ADD Society of Ffld County (a 
support group for parents of children with attention deficit disorder). 
My expertise in teaching children with ADD was the focus of my work as 
a seminar leader for the American Institute for Creative Education as 
well as an educational consultant and tutor for the ADD Institute of 
Westport. So in summary, I was very invested in a career I would have 
described as dynamic, multifaceted and very fulfilling.
    My first recollection of not feeling well occurred during the 1992-
1993 school year. That particular year I was teaching in room 118 which 
doesn't have any windows. By noon each day I was suffering from 
headaches, burning eyes, mental fatigue and the beginnings of a chronic 
cough. I vividly recall a conversation I had with my principal 
regarding my health problems that appeared to be caused by 
``something'' in that room. Fortunately, by the end of the school year 
the principal did honor my request for a transfer to a classroom with a 
window.
    From 1993-1997, my classroom was a very small office in the library 
with a window. At first, my symptoms did improve. In 1994 my position 
was increased to full-time and as I began to spend more time in the 
building my cough worsened and new symptoms emerged. Now in addition to 
burning eyes, my tongue was usually swollen; I had visible hair loss on 
my head and my eyelashes started falling out. By 1995-1996, the 
coughing spells worsened and during one of them I herniated a disk: 
More neuromuscular difficulties included muscle spasms, tingling 
sensations and occasional tremors. I did consult several doctors, but 
blood tests and lung X-rays failed to pinpoint a cause. Finally, in 
September 1997, I was delighted to be assigned to a standard sized 
classroom with ample closets and windows. The previous occupant had 
packed the closets with books, kits and teaching materials. It wasn't 
until May of 1998 I had the time to clean them out. Over the course of 
four days, I removed twenty bags of mold contaminated materials. As I 
do have a history of allergies and asthma I did expect some 
exacerbation of my symptoms. However, I never anticipated the long-term 
consequences that would result. By the second day of cleaning, I asked 
the custodian for help because I was getting dizzy and quite sick to my 
stomach. The following Monday I awoke at 1:00 am and the room was 
spinning. For the next ten hours I suffered from intense vertigo, 
diarrhea, vomiting and tremors. When I was admitted to Danbury 
Hospital's emergency room, the attending physician told me that a virus 
or food poisoning were the likely culprits for those ailments after I 
proposed my theory that the moldy materials could have triggered the 
incident.
    Two days after my trip to the emergency room I felt compelled to 
return to work to finish my end of the year obligations. Completing job 
tasks was hampered by dizziness, intermittent nausea and the sensation 
that my brain was swollen. Little did I suspect that after June l, 1998 
my life would never be the same. At no time before this had I felt so 
seriously ill. Yet, I still expected to fully recover over time. So 
regaining my health was the goal for the summer of 1998.
    By late June my symptoms not only persisted, they were worse. The 
dizziness had not abated and was further complicated by a very severe 
ear infection. No hearing loss was ever detected by the ENT, but since 
then I have difficulty tolerating a normal sound volume. Going to a 
mall or eating out at a restaurant can be physically debilitating 
because of my inability to cope with the noise level characteristic of 
such places. Other sensory disturbances included increased sensitivity 
to light, an inability to control eye tracking and intermittent 
blurring. Balance problems made walking a task that was demanding and 
required considerable effort. There were days when the floor appeared 
tipped to one side. My kinesthetic experience could be best expressed 
as feeling as though I was still in motion while I was at rest. By 
August, the consensus of two primary care physicians, an ENT and a 
neurologist was that I was afflicted with a ``vestibular dysfunction.'' 
The vestibular system consists of the brain, spinal cord, eyes, skin, 
muscles, joints of the body and inner ear. It is responsible for 
maintaining one's sense of equilibrium or balance. However, a 
vestibular dysfunction could not account for other symptoms such as 
night sweats, low-grade fevers, swollen glands, an excessive need to 
urinate, a sharp pain behind my eyes and terrible migraine headaches. 
Two peculiar symptoms: a black growth on my tongue and mild bleeding 
from my ears were also reported to my doctors.
    The primary care physician who would eventually fill out my 
disability paperwork and coordinate input from the many specialists who 
evaluated my symptoms kept extremely detailed records. In August 1998, 
she did record my comments about teaching in a moldy classroom and that 
my most debilitating symptoms manifested within days of removing moldy 
materials from the classroom. Not one of the well meaning medical 
professionals involved in my case recognized the significance of this 
information until nearly three years later.
    Assured by my doctors that a vestibular dysfunction would repair 
itself within a two-three month period, I attempted to return to work 
in October 1998. Had I truly understood my illness I would have 
realized the personal purchase of a HEPA filter and half-day schedule 
would not protect me from another assault to my immune system. Within 
weeks I suffered another major episode of vertigo and simultaneous 
vomiting and diarrhea followed by heart palpitations and shortness of 
breath. For the first time I was painfully aware that my cognitive 
functioning, especially short term memory problems were interfering 
with my ability to communicate with others and teach effectively. Word 
retrieval and multitasking were excruciatingly difficult. Finally, I 
accepted that I could not will myself into wellness and a formal 
medical leave of absence was necessary. I was granted a medical leave 
of absence for the 1999-2000 and 2000-2001 school years. During my 
medical leave my primary care physician ordered extensive medical 
testing to rule out everything from multiple sclerosis to a brain or 
vestibular tumor to Lyme's disease.
    The closing of McKinley School in October 2000 was a turning point. 
Soon after, I contacted Dr. Eileen Storey (UCONN Occupational 
Medicine), John Dorland (FEA president), and Mary Fitzgerald (Pupil 
Personnel for Ffld Public Schools) to share my story. The complex 
health, career, financial and legal implications raised by the shutdown 
of McKinley were totally overwhelming. I began by addressing those 
questions most pertinent to my health and career issues. I wondered: 
Had my illness been preventable? Had my thoughts about the mold in my 
classroom which had been dismissed and ignored been on target from the 
beginning? If this were true, would there be changes in my prognosis 
and treatment? Could there be magic bullet that would enable me to 
return to work in September 2001 when my medical leave would have 
expired?
    Initially, I did not speak out publicly about these matters because 
without further proof I believed it would be irresponsible to alarm 
those McKinley teachers, parents and students who were already 
traumatized by what had taken place. By the spring of 2001, I was 
personally convinced by mounting evidence that my illness directly 
resulted from breathing in toxic mold spores while teaching at 
McKinley. I utilized numerous resources before coming to this 
conclusion although my appointments with Dr. John Santilli were 
pivotal. Dr. Santilli had already, treated fifty McKinley staffers and 
students who became ill from mold exposure. In collaboration with a 
mold toxicologist, he had analyzed the results of air samples taken 
from McKinley. After extensively reviewing my medical records, Dr. 
Santilli confirmed that the respiratory, digestive, neurological and 
sensory disturbances I had been suffering from were consistent with 
exposure to the high levels of mold (stachybotrys, aspergilllus and 
penicillum) found in classrooms I had been teaching in during my seven 
years at McKinley.
    The good news was that I finally had some definitive answers. The 
bad news was there would be no magic bullet to cure me and Dr. Santilli 
could not recommend I return to work in the fall. Despite all the 
evidence to the contrary, I had been clinging to the hope of holding 
onto my tenure in Fairfield. My disappointment was further compounded 
when my request to extend my medical leave was denied by officials in 
Fairfield. It was devastating to file for a disability retirement at 
the age of forty-six, some twenty years early.
    As I sorted out my health and career issues, I was also wrestling 
with legal and financial ones. In November 2000, my husband and I met 
with a workman's compensation attorney who warned us that proving an 
environmentally triggered illness would be very challenging, especially 
because at that time I lacked a medical advocate to back me up. She 
also cited probable complications with statute of limitation laws as 
2\1/2\ years had transpired since the onset of my disabling condition. 
Later, other attorneys declined to take my case because of the statute 
of limitations.
    This legal predicament leaves me dealing with serious financial 
consequences. Despite the disability payments I receive, my income has 
been substantially reduced and concern for my long term financial 
security is a considerable source of anxiety. Living on a fixed, 
reduced income places stringent restrictions on my lifestyle and denies 
me access to resources that could contribute to my recovery. For 
example, Dr. Santilli suggested I hire someone to help clean my house 
in order to avoid contact with allergens that testing has shown to 
compromise my immune system. However, I simply can no longer afford 
such luxuries.
    Now if we fast forward to my current situation, it is clear that my 
debilitating condition has robbed me of my professional identity and 
significantly altered my personal and social life. Essentially, I am 
housebound with the exception of physical therapy or doctor's 
appointments which my parents and husband usually drive me to. A 
tremendous loss of independence comes from not being able to drive a 
car. Since June 1, 1998, I rarely drive due to safety concerns for 
myself and others. In order to get behind the wheel of a vehicle, one 
should be able to turn their neck and head from left to right: and move 
their eyes from the rearview mirror to the view of oncoming traffic 
with ease. I am sure most people take for granted their ability to 
perform such tasks. In my case, I have days when the act of moving my 
eyes to look up or down can elicit visual blurring, nausea and a loss 
of balance. This can happen without the introduction of additional 
demands on my vestibular system such as movement. When this occurs, I 
cope best by remaining as still as possible and aiming my gaze directly 
in front until the episode is over (which may last minutes, hours or 
days). At times the vertigo, vomiting, tremors and full body sweats 
have been so incapacitating that I have been unable to walk from the 
bedroom to an adjoining bathroom and have had to use a bedpan. During 
these episodes, my husband utilized many vacation days from work 
because I was unable to care for myself. As you might imagine it is 
hard to schedule plans due to the highly unpredictable nature of my 
symptoms as they wax and wane on a day to day basis.
    Another especially disconcerting component to this cluster of 
symptoms has been my inability to lay flat, with my head down since 
June 1, 1998 without considerable discomfort. The discomfort may 
manifest as severe eye, neck, or headache pain as well as 
lightheadedness, dizziness, tremors or full blown vertigo. To 
compensate I usually sleep on my left side elevated by two pillows. As 
a result of my inability to lay in a supine position, the quality of my 
sleep is compromised and I developed adhesive capsilitis in January 
2001. Adhesive capsilitis ``frozen shoulder'' is a painful condition 
that limits the use of my left arm and shoulder, making such tasks such 
as washing or fixing my hair, tucking in my shirt or almost any task 
requiring the use of two hands at best, challenging.
    My overall stamina is further depleted by increased sensitivity to 
environmental allergies, shortness of breath and a chronic cough. These 
respiratory ailments put an end to my favorite hobby, singing, which 
had been a wonderful source of joy and self expression during eight 
years of vocal training. I still miss my weekly voice lessons and 
performing in two to three recitals each year.
    On good days, I am able to do simple chores such as doing dishes, 
laundry and cooking as long as I take rest breaks every few hours. This 
is a far cry from the active, physically fit person I once was. In 
1991, I practiced yoga regularly and could do a forty-five minute 
aerobic routine, three to four times a week. Now if I am lucky I can 
exercise at a moderate pace for ten to fifteen minutes. One area where 
I have observed improvement has been in the gradual return of my 
cognitive abilities, particularly short term memory skills.
    Last Fall when I agreed to be interviewed for NEA Today and 
Schoolhouse News, my motivation was to warn others of the dangers of 
poor indoor air quality before it is too late. I have learned my case 
is not an isolated one as teachers throughout the U.S. have told me 
about mold contamination in their schools and the physical symptoms 
they have endured which are sadly reminiscent of mine. Their stories 
have strengthened my resolve to campaign for legally enforceable air 
quality standards. I believe if such policies had been in place the 
McKinley School disaster might have been averted. The extensive and 
extremely hazardous mold contamination at McKinley would not have been 
allowed to fester for years. The ``deferred maintenance'' that 
contributed to the building's deterioration would not have been so 
readily tolerated had regular air quality testing been implemented.
    Those of us with pre-existing conditions such as allergies and 
asthma who are most vulnerable to the effects of toxic air quality 
would have been more cognizant of the risks we were undertaking by 
simply coming to work at a sick building. I only wish I had been armed 
with the knowledge I have acquired since McKinley was shut down, before 
I was assigned there in 1991 and especially after my trip to the 
emergency room in 1998.
    Many of the health and career decisions I made in 1998 would have 
been dramatically different had I comprehended the connection between 
my illness and work environment. First of all, I would never have 
exposed myself to such air quality again by re-entering the building. 
Secondly, I would have immediately filed for a workman's compensation 
claim. Finally, I would have sought the advice of a physician with a 
background in mold related illnesses. In that way, I might have avoided 
the waste of time, energy and expense of meeting with fourteen medical 
practitioners who ordered testing and the use of medicines which for 
the most part actually aggravated my condition.
    Believe me, I do not relish exposing parts of my medical history in 
a public forum such as this. I realize doing so will not repair my 
health, fix my financial woes or bring back the daily contact with my 
students that made my job such a deeply satisfying one. However, if in 
some way my testimony helps to protect the basic civil right of 
teachers and students to work insafe and healthy environment, then this 
will have been worth it.
    Thank you for you kind attention.
  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
